<html>
<title> - H.R. 561, H.R. 716, H.R. 1615, H.R. 2227, H.R. 2618, H.R. 2924, AND DISCUSSION DRAFTS PENDING LEGISLATION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


              H.R. 561, H.R. 716, H.R. 1615, H.R. 2227, H.R. 
                2618, H.R. 2924, AND DISCUSSION DRAFTS  
                PENDING LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        WEDNESDAY, JULY 17, 2019

                               __________

                           Serial No. 116-25

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]       


        Available via the World Wide Web: http://www.govinfo.gov
        
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-854                       WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------        
        
        
                     COMMITTEE ON VETERANS' AFFAIRS

                   MARK TAKANO, California, Chairman

JULIA BROWNLEY, California           DAVID P. ROE, Tenessee, Ranking 
KATHLEEN M. RICE, New York               Member
CONOR LAMB, Pennsylvania, Vice-      GUS M. BILIRAKIS, Florida
    Chairman                         AUMUA AMATA COLEMAN RADEWAGEN, 
MIKE LEVIN, California                   American Samoa
MAX ROSE, New York                   MIKE BOST, Illinois
CHRIS PAPPAS, New Hampshire          NEAL P. DUNN, Florida
ELAINE G. LURIA, Virginia            JACK BERGMAN, Michigan
SUSIE LEE, Nevada                    JIM BANKS, Indiana
JOE CUNNINGHAM, South Carolina       ANDY BARR, Kentucky
GILBERT RAY CISNEROS, JR.,           DANIEL MEUSER, Pennsylvania
    California                       STEVE WATKINS, Kansas
COLLIN C. PETERSON, Minnesota        CHIP ROY, Texas
GREGORIO KILILI CAMACHO SABLAN,      W. GREGORY STEUBE, Florida
    Northern Mariana Islands
COLIN Z. ALLRED, Texas
LAUREN UNDERWOOD, Illinois
ANTHONY BRINDISI, New York
                 Ray Kelley, Democratic Staff Director
                 Jon Towers, Republican Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                    MIKE LEVIN, California, Chairman

KATHLEEN M. RICE, New York           GUS M. BILIRAKIS, Florida, Ranking 
ANTHONY BRINDISI, New York               Member
CHRIS PAPPAS, New Hampshire          JACK BERGMAN, Michigan
ELAINE G. LURIA, Virginia            JIM BANKS, Indiana
SUSIE LEE, Nevada                    ANDY BARR, Kentucky
JOE CUNNINGHAM, South Carolina       DANIEL MEUSER, Pennsylvania

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            
                            
                            C O N T E N T S

                              ----------                              

                        Wednesday, July 17, 2019

                                                                   Page

H.R. 561, H.R. 716, H.R. 1615, H.R. 2227, H.R. 2618, H.R. 2924, A 
  Discussion draft ``To amend title 38, United States Code, to 
  authorize State approving agencies to carry out outreach 
  activities'', A discussion draft ``To amend title 38, United 
  States Code, to require that educational institutions abide by 
  Principles of Excellence as a condition of approval for 
  purposes of the educational assistance programs of the 
  Department of Veterans Affairs, and for other purposes'', A 
  discussion draft ``To amend title 38, United States Code, to 
  require proprietary for-profit educational institutions to 
  comply with Federal revenue limits to participate in 
  educational assistance programs of the Department of Veterans 
  Affairs'', A discussion draft ``To amend title 38, United 
  States Code, to require that certain educational institutions 
  have letters of credit as a condition of approval for purposes 
  of the educational assistance programs of the Department of 
  Veterans Affairs, and for other purposes'', A discussion draft 
  ``Forever GI Bill Class Evaluation Act'', A discussion draft 
  ``VA Economic Hardship Report Act'', A discussion draft ``To 
  authorize the Secretary of Veterans Affairs to collect 
  overpayments of specially adapted housing assistance'', A 
  discussion draft ``Legal Services for Homeless Veterans Act'', 
  A discussion draft ``GI Bill Access to Career Credentials 
  Act'', A discussion draft, ``To amend title 38, United States 
  Code, to extend the time period under which an election must be 
  made for entitlement to educational assistance under the All-
  Volunteer Educational Assistance Program of Department of 
  Veterans Affairs'', A discussion draft, ``Student Veteran 
  Empowerment Act of 2019'', and A discussion draft, ``To amend 
  title 38, United States Code, to increase the monthly housing 
  stipend under the Post-9/11 Educational Assistance Program for 
  individuals who pursue programs of education solely through 
  distance learning on more than a half-time basis.''............     1

                           OPENING STATEMENTS

Honorable Mike Levin, Chairman...................................     1
Honorable Gus M. Bilirakis, Ranking Member.......................     2

                               WITNESSES

Ms. Charmain Bogue, Executive Director, Education Service, 
  Veterans Benefits Administration, U.S. Department of Veterans 
  Affairs........................................................     4
    Prepared Statement...........................................    29

        Accompanied by:

    Mr. Jeffrey London, Executive Director, Loan Guaranty 
        Service, Veterans Benefits Administration, U.S. 
        Department of Veterans Affairs

    Mr. David Carroll, Executive Director, Mental Health 
        Operations, Veterans Health Administration, U.S. 
        Department of Veterans Affairs

    Mr. Sean Clark, National Director, Veterans Justice Programs, 
        Veterans Health Administration, U.S. Department of 
        Veterans Affairs

Mr. Patrick Murray, Deputy Director, National Legislative 
  Service, The Veterans of Foreign Wars..........................    14
    Prepared Statement...........................................    39

Mr. John Kamin, Assistant Director, National Veterans Employment 
  and Education Division, The American Legion....................    14
    Prepared Statement...........................................    42

Colonel Robert F. Norton, USA-ret., Senior Advisor, Veterans 
  Education Success..............................................    16
    Prepared Statement...........................................    53

Mr. William Hubbard, Chief of Staff, Student Veterans of America.    18
    Prepared Statement...........................................    63

Mr. Jeremy M. Villanueva, Associate National Legislative 
  Director, Disabled Veterans of America.........................    20
    Prepared Statement...........................................    70

Mr. Timothy "Tim" McMahon, President of Triangle Tech Group, 
  Career Education Colleges and Universities & Veterans for 
  Career Education Ambassador....................................    21
    Prepared Statement...........................................    75

                        STATEMENT FOR THE RECORD

Paralyzed Veterans of America (PVA)..............................    79
Tragedy Assistance Program For Survivors (TAPS)..................    82
SVA Graphics.....................................................    85

 
  H.R. 561, H.R. 716, H.R. 1615, H.R. 2227, H.R. 2618, H.R. 2924, AND 
                 DISCUSSION DRAFTS PENDING LEGISLATION

                              ----------                              


                        Wednesday July 17, 2019

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
Room 210, House Visitors Center, Hon. Mike Levin [Chairman of 
the Subcommittee] presiding.
    Present: Representatives Levin, Rice, Brindisi, Pappas, 
Luria, Lee, Cunningham, Bilirakis, Bergman, Banks, Barr, and 
Meuser.

           OPENING STATEMENT OF MIKE LEVIN, CHAIRMAN

    Mr. Levin. Good morning. I call this legislative hearing to 
order. I request unanimous consent that the chair is authorized 
to declare a recess at any time. Hearing no objection, so 
ordered.
    I want to welcome everyone to today's Subcommittee on 
Economic Opportunity hearing, where we are reviewing 18 pieces 
of legislation within the scope of our jurisdiction. I am proud 
to say that the vast majority of these proposals are bipartisan 
in nature, something I consider a hallmark of this Committee, 
and I think the Ranking Member would agree.
    Title 38 GI Bill education benefits are the subject of nine 
of the bills we have before us. This includes a draft from 
Chairman Takano and myself to finally close the 90/10 loophole. 
Under the current 90/10 Rule, Title 4 students have additional 
protections that student veterans are not afforded. This 
loophole makes veterans a target for low quality institutions 
that are unable to attract non-federal sources of funding.
    These institutions often use deceptive marketing techniques 
and are financially unstable, placing veterans at risk of 
losing their invested time, effort, and benefits due to a 
closure. In our recent hearings on this issue, VA has claimed 
that they lack the authority to crack down on these predatory 
institutions. This bill, and others we will consider today, not 
only provide that authority but a mandate for the VA to act.
    I look forward to discussing these measures today in our 
shared interest of protecting student veterans. We are also 
considering five bills dealing with housing and homelessness, 
issues which are crucial in my district, which I am eager to 
address. In fact, we are going to have a field hearing in 
August in my district on Housing Our Heroes, and I hope 
everybody comes. Excellent.
    One of the bills is my legislation, the Housing for Women 
Veterans Act, which would require that at least $20 million 
each year under the supportive services for veteran family's 
program go to organizations with a focus on helping women 
veterans. It also requires the VA to analyze and report to 
Congress on the areas in which its homelessness programs are 
shortchanging women.
    At our hearing last week on the economic well-being of 
women veterans, we learned about the unique challenges that 
homeless women veterans face. They are the fastest growing 
population of homeless individuals, having more than doubled 
since 2006. Just unacceptable. And this bill will better 
address their needs.
    Lastly, we have two bills to update the Service Member 
Civil Relief Act, and two bills improving small business 
programs for our Nation's veterans. There is no question that 
this is an ambitious hearing, covering many important issues. I 
appreciate the hard work of every Member of this Subcommittee. 
And the staff, thank you to our great staff, who have assisted 
in getting these bills ready for review, and thank you for 
working in a bipartisan manner to get that done as well.
    And I would like to also thank the witnesses that are here 
today for their testimony and for their expertise. I am hopeful 
that our work today will lead to many of these bills being 
passed into law. With that, I would like to recognize my 
friend, the Ranking Member Mr. Bilirakis for 5 minutes for any 
opening remarks he may wish to make.

     OPENING STATEMENT OF GUS M. BILIRAKIS, RANKING MEMBER

    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it. 
And thank you for continuing the bipartisan tradition of this 
Subcommittee by bringing up the 18 bills before us today. We 
really appreciate it very much.
    While 18 bills in one hearing is a lot, I do appreciate the 
efforts to continue this Subcommittee's tradition of 
productivity. And maybe it will rub off on some of the other 
Committees.
    While I am supportive of most of the bills on today's 
agenda, I am concerned that several of the draft education 
bills may have unintended consequences. We have the same goal 
and we will get it right.
    The draft bills that would require a GI Bill eligible 
school to obtain letters of credit comply with an expanded 90/
10 rule, and comply with program integrity rules, needlessly 
imposes partisan ideas that would limit a veteran's choice on 
how to use their earned benefit to our bipartisan Subcommittee.
    We can agree or disagree if these changes are necessary, 
but we should agree that VA is not currently equipped to 
implement, and I want to hear obviously from the VA, to 
implement these types of rules that are duplicative in some 
cases of the rules in place for schools to be approved to 
receive Federal student aid through Title 4. And this is why we 
have the hearings, to make the bills even better, the drafts 
even better.
    I understand the Chairman's desire to improve oversight 
over all schools, and I appreciate that very much, and I share 
that desire. But I do believe that my bill on the agenda, the 
Student Veteran Empowerment Act, is the more balanced approach. 
Of course I would be. I would feel that way.
    As I outlined at our hearing on school closures, the two 
main provisions in this bill not only stress oversight over all 
poor performing schools before they closed, but also provide 
full restoration of entitlements to students who are affected 
by a closure. More importantly, my bill would require that an 
accredited school or program to be eligible for the GI Bill, it 
must also be eligible to receive Federal student aid through 
Title 4.
    By using this approach, we can avoid duplication of 
regulation and utilize the expertise of the Department of 
Education to implement many of the same rules and regulations 
being discussed today. I believe my approach gets us to the 
same place the Chairman wants to go, but also keeps partisan 
ideas out of the GI Bill, and I don't feel he has any partisan 
ideas. They are not all his bills. But the fate of the 90/10 
rule, letters of credit, and program integrity rules belong to 
the Education and Labor Subcommittee, in my opinion.
    Before yielding back, I want to express my support for two 
other draft bills on the agenda today. The first is my draft 
bill that would eliminate the living stipend disparity between 
the full time post-9/11 GI Bill students going to school 
entirely online versus those going to a traditional brick and 
mortar institution. And I have had round tables in my district. 
I have asked veterans up here to come to my office, and they 
think this is a big issue. So I think it must be addressed.
    Current law requires that online students only receive half 
of the national average of living stipend payments, but my bill 
does need work, and I am going to talk about that. The 
landscape of higher education is changing, especially for non-
traditional students like student veterans, and the living 
stipend payments to students should reflect that change. I know 
that several of our witnesses have made the excellent 
suggestion to amend this bill to simply increase the payment to 
the full national average of the BAH payments.
    This would help ensure that participants don't game the 
system, not that veterans will, but in other words, we have got 
to make sure that, you know, they get the proper cost of living 
increase. But again, we don't want people to game the system by 
choosing online schools located in parts of the country with 
high costs of living, such as maybe Manhattan.
    I appreciate the suggestion and intend to make that change 
before introducing this bill. The final draft I would like to 
speak about today would modify when a servicemember must elect 
to make payments to be eligible for the Montgomery GI Bill. 
Current law requires that servicemembers make this decision on 
whether to enroll into this program and begin paying $100 a 
month for 12 months within the first 2 weeks of their 
enrollment.
    Several of today's witnesses correctly point out that this 
decision comes in the middle of basic training or boot camp, 
and many servicemembers are not appropriately educated on pros 
and cons of enrolling this program--in enrolling this program, 
again compared to the post-11 GI Bill.
    Mr. Chairman, we know that most servicemembers use the 
post-9/11 GI Bill and it more than likely is a better choice 
and does not require any payment by the servicemember to be 
eligible. That is key.
    The draft bill would simply delay the requirement to make 
this decision by 6 months. I feel that is reasonable. This 
would mean that when this decision is being made, more 
servicemembers have completed initial training, completed their 
MOS training, and are likely serving at their first duty 
station.
    I believe this approach will help servicemembers make the 
right decision. When this bill is introduced, we may also 
include a provision to prohibit new enrollments in the 
Montgomery GI Bill, beginning the fiscal year 2029. We must 
never forget the service of Sonny Montgomery. He did an 
outstanding job for many years in this Committee as a Chairman.
    This change would reflect the fact that fewer and fewer 
student veterans are using this program. It is time to sunset 
this benefit and have--again, just one GI program on the books. 
I look forward to discussing all of the bills before us today, 
as well as hearing from our distinguished witnesses. With that, 
I yield back, Mr. Chairman. Sorry for taking so much time.
    Mr. Levin. Not at all. Thank you, Mr. Ranking Member. I 
appreciate your thoughtful remarks. We have two great panels 
today. I want to thank each of our witnesses for appearing and 
look forward to your testimony and learning from your 
expertise. As you know, you will have 5 minutes, but your full 
statement will be added to the record.
    On our first panel, we are joined by Ms. Charmain Bogue, 
Executive Director of the Education Service at the Veterans 
Benefits Administration. Thank you for being here. She is 
accompanied by Mr. Jeffrey London, Executive Director of VBA's 
Loan Guaranty Service. Mr. David Carroll, Executive Director of 
Mental Health Operations at the Veterans Health Administration. 
Thank you, sir. And Mr. Sean Clark, National Director of 
Veterans Justice Programs at VHA. Thank you for being here.
    Ms. Bogue, you are now recognized to present your 
statement.

                  STATEMENT OF CHARMAIN BOGUE

    Ms. Bogue. Good afternoon, Mr. Chairman, Ranking Member 
Bilirakis, and other Members of the Subcommittee. I appreciate 
the opportunity to be here today to provide the VA's views on 
pending legislation that would affect VA programs and services.
    Accompanying me today are Jeffrey London, director of Loan 
Guarantee Service, VHA colleagues David Carroll, director of 
Mental Health Operations, and Sean Clark, national director of 
Veterans Justice Programs.
    Because of the timing of receipt, we will not--
    Mr. Levin. Ms. Bogue, could you speak in the microphone? I 
am so sorry. I just want to make sure your comments are caught 
for the record.
    Ms. Bogue. Okay.
    Mr. Levin. Thank you.
    Ms. Bogue. Is that much better?
    Mr. Levin. Much better.
    Ms. Bogue. Awesome. Because of the timing of receipt, we 
will not be able to provide views on all the bills, but we will 
provide the remaining views in a follow-up letter to the 
Committee.
    The proposed 90/10 bill would prohibit the approval of a 
course of education offered by a for-profit educational 
institution if the school does not receive at least 10 percent 
of revenues from sources other than Federal funds. As written, 
we have significant concerns regarding the implementation and 
administration of the requirements. Based on preliminary 
research, we identified 133 schools that would be potentially 
affected by closing the 90/10 loophole, which in turn would 
immediately impact approximately 60,000 students.
    Also, it is unclear if the intent of this proposal is to 
replace VA's existing 85/15 rule or supplement the 85/15 rule. 
We would be happy to work with the Subcommittee to address the 
department's concerns.
    The proposed Forever GI Bill Class Evaluation Act, which 
prohibits VA from making the lump sum payment for tuition and 
fees prior to 14 days after the start of the term. While VA 
supports the intent of the proposed legislation, we cannot 
support this bill due to the potential impact on GI Bill 
beneficiaries.
    Although this change could possibly decrease some 
overpayments and debts owed to VA, we believe such legislation 
would inadvertently shift the tuition and fee debt to the 
student, and certain schools would still require payment for 
the period of enrollment.
    The proposed Principles of Excellence bill would require 
disapproval of courses at any educational institution that does 
not agree to or fail to abide by the principles set forth in 
executive order 13607. While VA supports the intent of this 
legislation, VA cannot support this bill to our concerns with 
the potential impact under degree programs at public IHLs and 
other programs, such as on the job training and apprenticeship 
programs that are currently exempt.
    Currently, there are more than 6,400 IHLs eligible to 
participate in the POE. Of those, approximately 4,200, 
representing approximately 700,000 GI Bill beneficiaries have 
signed a POE agreement today.
    The proposed State Approving Agency Outreach Bill would 
authorize SAAs to perform outreach activities. No additional 
money would be appropriated to perform these outreach 
activities.
    VA supports the intent of the proposed legislation; 
however, it is not necessary, as the SAAs already have 
statutory authority to perform outreach activities. For 
example, authorized outreach activities include job fairs, 
state military ceremonies, and student veteran related events. 
We would be happy to work with the Committee to strengthen our 
partnership with SAAs and the process by which SAAs approve 
programs.
    VA supports H.R. 716, if amended. Each year, the CHALENG 
survey consistently reveals that many of the top ten unmet 
needs among homeless veterans are legal needs. The Legal 
Services for Homeless Veterans Act would require VA to make 
grants or enter into a cooperative agreement to eligible 
entities that provide legal services to homeless veterans or at 
risk veterans for homelessness.
    We note that H.R. 716 and this draft bill both address the 
same issues, but in a slightly different way. VA prefers H.R. 
716 and recommends that the Committee advance that bill, if it 
chooses to assist homeless and at risk veterans.
    The proposed Economic Hardship Report Act would require VA 
to support Congress within one year of enactment, a report of 
the economic factors that contribute to veteran suicides. We 
fully support the principles and intended results of this bill. 
VA already has the authority to provide information to 
Congress, or conduct research studies. So the bill provided 
would provide no new authority in that regard.
    While VA suggests several technical amendments to the draft 
bill that would provide express authority for the secretary to 
collect overpayments made in connection with special adapted 
housing, or SAH grants, VA supports the bill.
    Mr. Chairman, this concludes my statement. Thank you for 
the opportunity to present our views on the pending 
legislation. We would be pleased to answer any questions you or 
the Members of the Committee may have for us.

    [The prepared statement of Charmain Bogue appears in the 
Appendix]

    Mr. Levin. Thank you, Ms. Bogue. I now recognize myself for 
5 minutes to begin the question portion of the hearing. Ms. 
Bogue, as I mentioned in my opening statement, one of the bills 
we are considering would close the 90/10 loophole as it relates 
to GI Bill benefits. This is a big concern in the area that I 
represent in San Diego, as I know it is throughout the country.
    In your testimony, you expressed concern with applying this 
rule equally to training programs that don't have traditional 
fee or classroom structures. How would you suggest adjusting 
the rule to reflect these differences without giving such 
institutions their own loophole?
    Ms. Bogue. We would be happy to talk more about that, but I 
believe there should be a waiver critera in there, similar to 
85/15. There are certain schools that they don't meet that 
requirement, and they are in a specialized area of the Nation. 
They are only offering that program. It is a high quality 
program. And we are able to at least grant a waiver.
    In this proposed legislation right now, there is no waiver 
authority associated with the 90/10 rule.
    Mr. Levin. Appreciate that. You also expressed concern with 
disrupting the education of students who are currently enrolled 
in programs that would be non-compliant. I think you said 133 
schools. How would you suggest phasing in the requirements, 
assuming we were able to move forward with closing the 
loophole, to address that situation?
    Ms. Bogue. So there are two avenues we would suggest. One 
is not an immediate disapproval of those programs, but to 
provide some type of window of maybe 30 or 60 days from that 
particular angle. That would be helpful to be able to notify 
students of what is coming down the path, or to allow schools 
to remedy the particular issue at hand.
    And then the other piece of that is maybe you focus on just 
new enrollments coming in the door versus current students who 
are attending that program, so we don't disrupt their programs.
    Mr. Levin. I appreciate that. I think we want to avoid 
unintended consequences. What I would love to do is take you up 
on your offer and we can work with Committee staff and the 
relevant experts in the field that we have back home in my 
district, and in other parts of the country. We have got to 
address this issue and we have got to come to some common 
ground and get to a place where we don't have those unintended 
consequences, or we do the best we can to mitigate them. But we 
have got to move forward, I believe, to close this loophole.
    Executive order 13607, that you mentioned, established 
principles of excellence to reign in some of the most abusive 
practices that target student veterans. I understand that to 
date, a number of high quality institutions have not agreed to 
principles of excellence. And as you noted in your testimony, 
many public universities do not directly control their tuition 
charges, so are unable to accurately inform students of these 
costs' years in advance, as the principles require.
    Do you believe that this is the primary reason that high 
quality institutions decline to participate in the program, or 
are there other provisions that you think are impractical?
    Ms. Bogue. The primary reason is the commitment to the 
tuition and fee piece. For the public IHLs, they are not in 
control of that and you have different boards or state 
processes that they have to go through in order to get that 
approval. So we know for a fact that is the number one reason 
for schools not signing on to the principles of excellence.
    Mr. Levin. Appreciate that. Well, we have the luxury of 
being able to have enough time to ask you some more questions. 
Something we don't often have.
    To any Member of the panel, on the VA Economic Hardship 
Report Act, can anyone discuss the level of insight we are 
currently at in regard to the ties between economic issues like 
housing insecurity, food insecurity, or underemployment in 
poverty on veteran suicide. And as a follow-up, what level of 
understanding do we need to be at and are we moving in the 
right direction with this bill?
    Mr. Carroll. Mr. Chairman, I would be happy to address that 
question. Thank you. We need as much information as we can get 
to understand what the circumstances are that lead to death by 
suicide among veterans in this country. And we are very 
interested in the principles that are in the Economic Hardship 
Act.
    What we know from the research, and we can provide some 
additional follow-up information about what we are sponsoring 
in terms of VA and in terms of research. We know that economic 
factors are often part of a constellation of factors, but they 
are not the only factors. And as DAV noted in their written 
testimony, it is important that we not just look at individual 
factors on a one-off basis, but we need to really look at the 
whole constellation of factors.
    DAV provided what I thought was a great example. In their 
written testimony, they noted the fact that there may be 
economic factors involved in someone's life that could be one 
of the precipitating factors. But maybe those are caused by 
untreated mental health conditions, or an untreated substance 
use disorder, or a readjustment issue.
    And I think when we study risk factors for suicide and 
protective factors, we really need to look at everything at the 
same time so we can make sure that we are understanding what is 
going on.
    Mr. Levin. Thank you, Mr. Carroll. I appreciate your 
answers and your willingness to work with us as we address the 
issues that you see in these bills. And we will get it right 
and we will hopefully be able to move forward with consensus.
    With that, I would like to recognize the Ranking Member, 
Mr. Bilirakis, for 5 minutes.
    Mr. Bilirakis. Thank you very much. I appreciate it, Mr. 
Chairman.
    Ms. Bogue, while I know this is not within your control, 
when should the Subcommittee expect to receive the Department's 
views on the remaining bills on today's agenda that impact VA? 
I asked, as the Subcommittee has not received views on all of 
the bills that were under consideration at the Full Committee 
legislative hearing on June 20th. So if you can give us an idea 
of when we are going to receive those views, I would appreciate 
that. Thank you.
    Ms. Bogue. Thank you for that question. So we are actually 
working through that, through the process right now. I expect 
shortly after this hearing, within the next 30 days, you will 
receive our position on those particular bills that we were 
unable to talk about today.
    Mr. Bilirakis. Okay. All right. I will move on. A question 
for Ms. Bogue again. Many of the bills on today's agenda 
seemingly duplicate some of the rules and regulations in place 
for a school to be eligible to receive Federal student aid 
through Title 4. And I know you touched on this. Do you agree 
that it would be simpler to just require academic programs to 
be eligible for the Title 4 funds in order to be eligible for 
the GI Bill?
    Ms. Bogue. There is some concerns there with just limiting 
it to Title 4 because we have on the job training programs, as 
well as apprenticeship programs, that don't fall under new 
Title 4 that are eligible for the GI Bill program.
    Mr. Bilirakis. Yes. How about academic programs?
    Ms. Bogue. Well, in terms of IHL programs? Is that what you 
are referring to?
    Mr. Bilirakis. Yes. Yes, that is right. Yes.
    Ms. Bogue. Okay. Yes. We do think there should be alignment 
in terms of IHL programs with Title 4, yes.
    Mr. Bilirakis. Okay. Next question for you again. What is 
your view of the Principles of Excellence Bill, including 
regulations that are outside of VA's control and could 
effectively eliminate the GI Bill benefits for accredited 
courses?
    Ms. Bogue. I will tell you, that was our biggest concern 
with that bill is the impact to non-college degree and OJT 
apprenticeship programs. So we really want to, if something 
like that is passed, to really take a look at how do we exclude 
those kinds of programs from this particular bill.
    In addition, it just references the principles of 
excellence. So we think that there is key pieces within the 
principles of excellence that could be codified, and we should 
look at that and include that in the bill, versus an overall 
general statement of referencing the executive order.
    Mr. Bilirakis. Okay. Again, I know you brought this up in 
your testimony, but I want to expand on that. Do you believe 
that the VA is currently properly equipped or staffed to 
implement regulations related to the 90/10 rule or a rule 
requiring that all schools provide letters of credit?
    Ms. Bogue. We do express concerns with that in terms of 
that work will heavily fall into our state approving agencies. 
And we have had conversations with the state approving agencies 
about that. And we think that there are some items there that 
need to be addressed of leveraging synergies at Department of 
Education to alleviate some of that burden for VA to take on 
this new effort.
    Mr. Bilirakis. Thank you. I share your concern about the 
need for the SAAs to focus on enforcement and not outreach. 
However, in your written statement, you stated that the VA 
requires SAAs to conduct and report on their outreach 
activities but does not reimburse the SAAs for the cost of 
outreach materials. Why require the SAAs to do something you 
don't reimburse them to complete?
    Ms. Bogue. They report on the outreach events they are 
attending. So if they are going to a job fair, each quarter for 
the most part, the SAAs are providing us reports as it relates 
to travel and other administrative costs. So we ask for them to 
report on the actual events, not any other items as it relates 
to marketing materials and things of that nature, because we do 
not compensate them for that.
    Mr. Bilirakis. Okay. One last question, and I may have a 
follow-up on here too. Do you know how many students would be 
impacted by the proposed 90/10 change? You may have answered 
this question in your testimony, but if you could repeat it, I 
would appreciate it.
    Ms. Bogue. In my oral, I did state that we initially 
identified 133 schools that could be potentially affected by 
this, which would in turn impact about 60,000 students.
    Mr. Bilirakis. And again, I think you've expressed your 
view on this, but let's reiterate. Are you concerned that there 
is no waiver authority for the secretary to protect student 
veterans, whose school may not immediately meet these new 
ambiguous standards?
    Ms. Bogue. We highly encourage that there be a waiver 
authority. Right now, we have the 85/15 rule, which is similar 
to 90/10, but instead we count students versus dollars, to 
protect students from certain schools. And there is a waiver 
criteria in there. So we believe that if something like this is 
passed, there should be a waiver criteria that is imposed in 
this as well. So that way, we can account for some of those 
high quality programs that are doing what they need to do, but 
they might not meet that 90/10 threshold.
    Mr. Bilirakis. Okay. Well, thank you very much. I 
appreciate it. I will yield back, Mr. Chairman.
    Mr. Levin. Thank you, Mr. Ranking Member. I would now like 
to recognize Ms. Luria for 5 minutes.
    No questions from Ms. Luria. How about Mr. Bergman?
    Mr. Bergman. Thank you, Mr. Chairman. And always a target 
of opportunity. I see some uniformed individuals in the 
doorway. And I thank you for the--I see one Order of the Arrow. 
Was that brotherhood? Okay. Well, you guys look great in 
uniform. Thanks for being part of scouting. It will make you 
the adults that you are going to be in the future.
    I just had a change a couple of months ago to participate 
in my oldest grandson's eagle ceremony out in California. So 
thank you for what you are doing already.
    Mr. Cunningham. I will claim them for my state too, Mr. 
Bergman.
    Mr. Bergman. Well, you know, we don't get a chance in these 
kinds of hearings to acknowledge all the good behavior that is 
done on so many different levels. But it takes leadership at 
all levels, whether you are talking about veterans. And by the 
way, my scout master was a Korean War vet. Our scout troupe was 
the only one in our whole area that knew how to do--march as a 
platoon and do close ordered drill. But anyway, that is a 
different story.
    Thanks, Mr. Chairman, for holding the hearing today and for 
including my bill, H.R. 561, the Protecting Business 
Opportunities for Veterans Act of 2019. I am proud to have 
worked closely with my colleagues, Representative Kuster of New 
Hampshire, Representative Dunn of Florida, and Representative 
Pappas of New Hampshire on this legislation.
    I am glad that we are once again considering it after it 
passed our Full Committee in the House of Representatives by a 
voice vote last Congress. H.R. 561 would ensure that veteran 
owned small businesses and service disabled veteran owned small 
businesses actually receive the VA contracts set aside for them 
by the VA Vets First program.
    As a bit of background, you know, unfortunately some 
companies have used improper pass throughs, meaning that they 
subcontract out all or substantially all of the work to a large 
company and nonetheless collect the profit. That is wrong.
    These improper pass throughs have long been prohibited by 
law, but they occur throughout the Federal government, and 
especially in recent years seem to plague the VA, which lacks 
the tools to detect them and to enforce the rules. And you 
know, we want to make sure that the VA is armed and ready to 
promote good behavior, but also to make sure that bad behavior 
is appropriately punished.
    These practices waste taxpayer dollars, they cut into 
profits intended for veterans and service disabled veterans, 
and sidelines the law abiding veteran business owners, who want 
to perform the work. You know, on the legislative side, this 
bill protects veterans and cracks down on bad actors and 
loopholes by ensuring that every bidder in the Vets First 
program must certify that they will perform the agreed 
percentage of work required by the law.
    Additionally, the VA must refer suspected violators to the 
Office of the Inspector General for investigation, as well as 
consider a more effective way to find, stop, and where 
appropriate punish the improper pass throughs. Our message is 
clear. We do not tolerate those who abuse the system and 
disadvantage our hardworking veterans.
    To the panel here, as folks from the VA, I understand that 
this legislation may not necessarily be in your particular area 
of expertise, but have any of you ever come across the issue of 
improper pass throughs in your respective careers at the VA?
    Okay. So not at all. You are focused in a different area. 
Well, I wanted to say that it is one of those things, whether 
you are talking about veterans' education and veterans' 
benefits. When you think about when somebody leaves the 
military and they have earned their GI Bill, and all the 
different things that they have after honorable service, is 
that it is important, I believe, that the VA look across 
boundaries, don't get caught up in the stovepipes, to the point 
where you don't look out and see what is going on. Because if 
somebody has used their educational benefits, gotten the 
degree, gotten the certificate that allows them to go into 
business, we don't want to have that effort that they have put 
forth, all that effort at that point.
    So I would suggest to you it is always good to look outside 
of our particular silo that we happen to be working in. And I 
thank you for all you do, and I look forward to the next panel 
here. But Mr. Chairman, I yield back.
    Mr. Levin. Thank you, Mr. Bergman. I now recognize Mr. 
Cunningham for 5 minutes.
    Mr. Cunningham. Thank you, Mr. Chairman, and good morning. 
I want to thank you all each for taking the time to appear and 
testify, Ms. Bogue, Mr. London, Mr. Carroll, and Mr. Clark. We 
appreciate the work you all do for our veterans. And I wanted 
to tell you how much it means to us.
    Specifically, I represent the First District of South 
Carolina from Charleston, basically all the way down to Hilton 
Head. And I am proud to say that we have around 70,000 veterans 
in our district, and the highest number of veterans in the 
entire State of South Carolina. So it is an issue that is near 
and dear to my heart.
    And, Ms. Bogue, I want to ask you something. In your 
written testimony on the draft bill to direct the VA to study 
the link between economic factors and veteran suicide, you 
stated that the VA is already supporting research on the risk 
factors associated with veteran suicide. Can you briefly 
describe that research?
    Ms. Bogue. I am going to defer to my VHA colleagues to 
answer that question.
    Mr. Carroll. Thank you. And thank you, Mr. Cunningham, for 
your support. And this is such an incredibly important issue 
for us. So currently, the VA's Office of Research and 
Development is working with the Henry M. Jackson Foundation on 
a study to look at a comprehensive set of factors, that include 
psychological and physical health, vocational health or 
employment, finances and social relationships. And this is a 
large study that is involving I believe over 9,000 individuals 
in it. And there are some preliminary results. The final 
results are not available yet, but we would be happy to make 
that available to you.
    Within VA, we have put together some programs to help teach 
financial literacy skills to veterans. And as I referred to 
earlier, I think just the general context for this is our 
preference or our recommendation is to look at multiple risk 
factors. We know there is never really any one single cause of 
a death by suicide. It is multi-factorial: financial issues, 
legal issues, mental health issues, adjustment issues can all 
be part of the constellation.
    I think often that leads to issues of loneliness or not 
feeling that one belongs. So it is really so important from our 
perspective to look at multiple things together, rather than to 
do one offs. But this particular study does specifically 
include the financial issues. And as that moves forward, we 
would be happy to provide more information to you.
    Mr. Cunningham. That would be helpful. Thank you so much, 
and thank you again for the services you all provide. I would 
yield back to the chair.
    Mr. Levin. Thank you, Mr. Cunningham. I will now recognize 
Mr. Banks for 5 minutes.
    Mr. Banks. Thank you, Mr. Chairman. I really appreciate you 
adding H.R. 2618, my legislation, to this agenda as well. I 
think all of us agree that military spouses shoulder an 
enormous burden on behalf of our Nation. Aside from having to 
watch their loved ones leave home for deployments, spouses are 
repeatedly asked to move around our country, following the 
orders that their spouse in the military receives.
    As a result of these frequent moves, spouses in many career 
fields are forced to sacrifice their own personal ambitions. 
However, a portion of this burden can be alleviated with 
administrative relief, which is the justification for my 
legislation, the Portable Certification of Spouses Act of 2019, 
which seeks to do this through two main objectives.
    First, to improve the portability of occupational licenses 
from state to state. And secondly, to alleviate the burden 
military spouses endure when having to re-register a small 
business in a new state. This is the first of many steps to 
address these challenges, but a step worthy of bipartisan 
support on behalf of our military families, which is why I am 
very pleased that this piece of legislation is on the agenda 
for discussion today.
    Now, I understand that the panelists in the first panel 
might have little to no jurisdiction over these issues. And I 
have to head to another Committee hearing in a different 
Committee here in a moment. Maybe the second panel might be 
able to address these issues in their opening comments as well, 
but I once again want to note my profound appreciation for the 
bipartisan support of common sense legislation like this, which 
could make a very real and meaningful impact on military 
families and military spouses throughout our country.
    So with that, Mr. Chairman, I yield back.
    Mr. Levin. Thank you, Mr. Banks, and I appreciate that 
sentiment. And I was going to give a shout out to the Boy 
Scouts that were here, but it turns out they are all from Mr. 
Cunningham's district. So they all left with Mr. Cunningham. So 
there you go.
    Last but certainly not least with our first panel, I would 
like to give 5 minutes to Ms. Lee.
    Mrs. Lee. Thank you, Mr. Chairman. Thank you for including 
my bill also, and thank all of you for the service you do for 
our veterans.
    Before I get started, I also want to thank the American 
Legion, the Veterans Education Success, Veterans of Foreign 
Wars, and Student Veterans of America for the feedback that 
they provided me on and the Committee on my bill, the GI Bill 
Evaluation Act, which is really intended to give veterans some 
breathing room. Also to try to stop the practice of predatory 
institutions which target getting veterans into the seat for 
day one, and more importantly focus on shifting our payments to 
encouraging success rather than filling that seat in the first 
place.
    And so I look forward to having some input on some of the 
comments that I received. Ms. Bogue, the VA says it supports 
the intent of the legislation, but has concerns with the 
implementation. Can you expand upon that, please?
    Ms. Bogue. Absolutely. So thank you for that question. So 
our concern is that although it says that we don't pay until 
after the 14 days window, it does not prevent a school from 
actually collecting tuition and fee payments from the student 
itself. When we looked at schools across the Nation, several 
schools have 100 percent refund policy within the first couple 
days of the semester, or a partial refund policy within the 
first ten days of the school starting, the semester starting.
    So we were concerned that if you have a 14 day window, and 
then VA is not on the hook for the payment for the student--I 
mean, for the school, then the school will go after the student 
for the payment. So that was our concern there.
    Mrs. Lee. Okay. Well, we will hopefully--we will address 
that concern and hopefully we can get your support after doing 
so. On these concerns, did you consult with any school 
certifying officials? Have you gotten their feedback on that?
    Ms. Bogue. We did. That is why we know the information we 
know about the refund policy and the window in which there is 
some type of refund policy for schools--I mean, for students.
    Mrs. Lee. Okay. Great. My next question is to Mr. Hubbard. 
I don't have--chief of staff--
    Ms. Bogue. Wrong panel.
    Mrs. Lee. Okay, wrong panel. Sorry. I will hold off until 
the next panel. Thank you. I am done and I yield the rest of my 
time.
    Mr. Levin. Thank you, Ms. Lee. I appreciate the questions 
of all of my colleagues and all their hard work on this 
legislation. And with that, I would like to call our second 
panel to join us.
    [Pause.]
    Mr. Levin. Welcome, everybody. Everybody ready? All right, 
all right.
    Appearing before us today is Patrick Murray, Deputy 
Director at the Veterans of Foreign Wars. Always good to see 
you.
    Next is John Kamin, Assistant Director of Veterans 
Employment and Education at The American Legion. Thanks for 
being here.
    We also have Colonel Robert Norton, Senior Advisor with 
Veterans Education Success. Thank you, sir.
    Next is William Hubbard, Chief of Staff for the Student 
Veterans of America. Thank you.
    Also here is Jeremy Villanueva, Associate National 
Legislative Director for Disabled American Veterans. Good to 
see you.
    And, finally, Timothy McMahon, Board Member of Career 
Education Colleges and Universities. Thanks for being here.
    With that, we will turn right over to our statements from 
each of you. And, Mr. Murray, I would like to start with you, 
and you are recognized to present your opening statement.

                  STATEMENT OF PATRICK MURRAY

    Mr. Murray. Chairman Levin, Ranking Member Bilirakis, and 
Members of the Subcommittee, on behalf of the men and women of 
the Veterans of Foreign Wars of the United States and its 
Auxiliary, I would like to thank you for the opportunity to 
present our views on these important pieces of legislation.
    The VFW supports the intent of the Student Veteran 
Empowerment Act and have a suggested addition that could 
improve upon it. Last Congress, this Committee passed historic 
legislation to improve and expand the GI Bill. One of the VFW's 
top priorities in the Forever GI Bill was restitution of 
eligibility for student veterans affected by school closures. 
Thousands of student veterans were caught off guard by their 
schools closing due to bad financial management, and this 
Committee authorized restitution of their benefits if their 
credits would not transfer.
    While this was incredibly important for those student 
veterans, it only covered people during a certain period of 
time. The VFW supports making a permanent fix for all students 
affected by school closures.
    We also believe schools facing financial instability should 
require additional oversight and a back-up plan if they do end 
up closing. This proposal would require additional risk-based 
investigations by the SAAs to help identify potential 
vulnerabilities for student veterans.
    We also believe that, in addition to this proposal, schools 
facing financial instability should be required to offer 
letters of credit if they reach a certain financial threshold. 
Institutions deemed financially unstable shall provide letters 
of credit for Title IV, but not Title 38. The VFW believes 
there should be parity for student veterans attending 
institutions at risk of closure. It should not be the sole job 
of VA and the taxpayers to make whole students who are failed 
by their institutions.
    Many of these institutions profit off of taxpayer dollars, 
then the students are bailed out by more taxpayer dollars. We 
believe that some of the burden should also be placed upon the 
institution itself. Risk-based assessments, in conjunction with 
letters of credit, would be a great step forward in protecting 
student veterans.
    The VFW supports the proposed legislation--excuse me. Sir, 
I would like to yield the rest of my time.

    [The prepared statement of Patrick Murray appears in the 
Appendix]

    Mr. Levin. No problem. Thank you, Mr. Murray.
    Mr. Kamin, you are now recognized for 5 minutes.

                    STATEMENT OF JOHN KAMIN

    Mr. Kamin. Thank you, Chairman Levin, Ranking Member 
Bilirakis, on behalf of National Commander Brett P. Reistad and 
the nearly two million members of The American Legion, we 
appreciate the opportunity to testify on these important 
issues.
    Before addressing the pending legislation, we would like to 
extend a sincere thank you to the entire House Veterans' 
Affairs Committee, as well as the Veterans Benefits 
Administration, for all the work that went into honoring the 
75th anniversary of signing the GI Bill. The American Legion 
was proud to work with Student Veterans of America to 
coordinate four receptions commemorating every aspect of the 
bill, from home ownership to student veteran success. It is 
fitting, then, that we carry on this legacy in these halls 
today.
    Now I am going to address 9010 and go a little bit off the 
script here. VA raises some important points and there are some 
challenges when it comes to it. I think that where we are 
operating from as a group and what every other veterans' group 
would offer is that perhaps the Department of Education would 
not abide by eliminating the 90/10 rule for them. They know for 
Title IV benefits they need protections and not their 
protection; the Department has a vested interest ensuring that, 
for taxpayers and for students alike. We want to see VA fulfill 
the same function and have the same care for Title 38 benefits, 
and be interested, engaged. Whether it is fixable through Title 
38 or not, it is important that they are at the table to defend 
these veterans and make sure we can come up with a solution, 
because right now there is none.
    Now, in addition to this, a separate issue of benefits 
parity has long existed that has been a divide between online 
learning and in-class instruction. And while the Post-9/11 GI 
Bill has undergone monumental improvements to meet our 
veterans' education demands, it has yet to properly value 
online learning.
    While in-person learning is awarded with a basic housing 
allowance consistent with localized housing rates, online 
learning is currently set at half the national average. This is 
despite the education landscape's momentous shift towards more 
online learning; this is despite the fact that many student 
veterans with family and job commitments do not have the luxury 
of time to attend classes in person. The American Legion does 
not believe these students should be penalized for these family 
and work obligations. As long as they are meeting their 
school's requirement for full-time learning, the VA must honor 
this commitment with a full-time basic allowance for housing, 
and we enthusiastically support the draft legislation to 
increase monthly housing stipends.
    Just as The American Legion believes in institutional 
accountability of these education benefits, we also believe 
that student veterans need to be empowered to be the best 
possible stewards of their GI Bill. The Student Veterans 
Empowerment Act makes a big step in this direction by offering 
a commonsense solution, requiring student veterans to submit a 
monthly verification of their enrollment status for the purpose 
of accurate benefits delivery. The need for this is traced to a 
2015 GAO report that identified $416 million in GI Bill 
overpayments. That is one out of every four veteran 
beneficiaries.
    While minor steps have been made to lower potential 
overpayment issues such as school-certifying official training, 
The American Legion believes that, 5 years removed from this 
GAO report, overpayments are still a serious concern. And they 
are unacceptable, because student veterans are often beholden 
to school-certifying officials to send their enrollment 
information to VA on time and accurately. A simple misstep on 
behalf of a certifying official puts a debt collection target 
on the veteran's back through no fault of their own. So let's 
simply require students to verify their enrollment every month, 
so VA can have close to a real-time information on student 
veteran enrollment status, saving a certifying official from 
having to conduct monthly reviews and affording them more time 
for initial certificate of eligibility processing.
    While this may be an inconvenience for student veterans, it 
is not without precedent. To this day, the Montgomery GI Bill 
still requires monthly verification through its Web-automated 
verification of enrollment. It is no surprise that the 
Montgomery GI Bill has no comparable issues with overpayments.
    Outside of education issues, The American Legion strongly 
supports H.R. 2924, the Housing for Women Veterans Act.
    Since its inception in 2012, the Supportive Services for 
Veteran Families Program has played an instrumental role in 
assisting veterans and their families in exiting or avoiding 
homelessness. In 2012 through 2017, the program assisted over 
419,000 homeless and at-risk veterans. H.R. 2924 would 
reauthorize the SSVF grant program for 3 years and specify a 
gap analysis program designed to provide assistance to women 
veterans who are homeless. According to recent studies, 30 
percent of women veterans have children in custody, and, among 
unstably-housed veterans, 45 percent of women have children.
    It is critical that this population is reached to ensure 
that these programs are having their intended impact, 
especially when children are at stake.
    Finally, I touched on the VA Economic Hardship Report Act. 
The latest Department of Veterans Affairs National Suicide Data 
Report found that more than 6,000 veterans have died by suicide 
every year from 2008 to 2016. In 2016, the suicide rate was 
five times greater for veterans than non-veteran adults.
    The American Legion strives to ensure our Nation's veterans 
receive the support and assistance they deserve. And, while we 
are encouraged by some of what we heard on a recent House 
hearing on oversight and reform for veteran suicides, the topic 
of economic factors was noticeably absent, and we believe that 
this an important step to ensure it.
    Thank you for your time and I look forward to answering any 
of your questions.

    [The prepared statement of John Kamin ppears in the 
Appendix]

    Mr. Levin. Thanks, Mr. Kamin.
    I would now like to recognize Colonel Norton for 5 minutes.

                 STATEMENT OF ROBERT F. NORTON

    Colonel *Norton.* Thank you, Mr. Chairman, Ranking Member, 
Members of the Subcommittee. It is indeed an honor to be here 
today and an opportunity to present the views of Veterans 
Education Success.
    I would also like to say, Mr. Chairman, that it is a 
distinct honor to be among today's young warriors and veterans 
here at this panel. It really is a special opportunity for me 
to be with them.
    VES is a non-profit organization that provides free 
counseling and legal assistance to students using their GI 
Bill, and we work to advance higher education success for all 
military-affiliated students. The Subcommittee today is 
undertaking critical common sense solutions to stop waste, 
fraud, and abuse under the GI Bill.
    In our view, the very integrity of the GI Bill is under 
attack. Defrauded student veterans have lost their one shot at 
their hard-earned GI Bill. This unacceptable situation is 
compounded by the fact that the Department of Veterans Affairs 
claims to lack statutory authority to act on behalf of the 
veterans they are sworn to serve.
    Earlier this year, for example, the Education Department 
cut off Argosy University for stealing Federal student aid 
funds, but VA officials said they lacked authority to protect 
GI Bill funds.
    A few years ago, the Justice Department won a $200 million 
judgment from a college chain for defrauding millions of 
students, and sent the executives of another college to jail 
for defrauding the Education Department. Also, earlier this 
year, 49 states joined together to recover $500 million from a 
college that had defrauded tens of thousands of veterans.
    Veterans indeed are understandably angry when they learn 
that a college that defrauded them remained approved for the GI 
Bill, even though other government agencies had cut it off. 
Taxpayers are outraged when they read news of GI Bill funds 
continuing to flow to schools sued by the Justice Department or 
raided by the FBI with a college president behind bars.
    The VA Inspector General concluded last December that 86 
percent of State Approving Agencies, quote, ``did not 
adequately oversee the education and training programs,'' and, 
quote, ``[the] Veterans Benefits Administration (VBA) could not 
provide reasonable assurance that Post-9/11 GI Bill benefits 
were paid to eligible schools, or that students received 
quality education and training,'' end quote.
    The VA IG estimated the VA will waste $2.3 billion over the 
next 5 years in GI Bill funds going to schools that should not 
be approved for the GI Bill.
    With this backdrop, VES is grateful the Subcommittee today 
is considering legislation to support better outcomes for our 
veterans.
    Of the nine bills before the Subcommittee today, I would 
like to focus on a few for your consideration.
    The Student Veterans Empowerment Act requires risk-based 
oversight of colleges that are sued by the Federal Government 
for misleading students. We encourage the Subcommittee to 
consider additional forms of action that should trigger a 
careful check by State Approving Agencies of a school's 
worthiness to receive the GI Bill, as outlined in our written 
testimony. Such as, for example, when a state agency halts new 
enrollment, as the Texas Workforce Commission did after finding 
American Technical College had filed false job placement 
numbers.
    We commend you, Mr. Chairman, for the draft Principles of 
Excellence bill, and Section 3 of the Student Veterans 
Empowerment Act, both of which would align the VA with the 
Departments of Defense and Education, and giving VA authority 
to take action against schools that violate the VA principles 
of excellence. We urge the Subcommittee to merge the best 
features of both bills.
    VES also feels strongly that student veterans should have 
the same rights as their non-veteran peers. For example, 
student veterans should be able to recover their hard-earned GI 
Bill when their school closes. We thank the Subcommittee for 
considering legislation that, for example, in Section 2 of the 
Student Veterans Empowerment Act, would accomplish that 
purpose.
    We also thank the Chairman for his draft bill to give the 
VA the same letter of credit authority that the Education 
Department has long used to protect student veterans using 
Title IV funds. Our written testimony provides more detail on 
the draft legislation being considered today.
    For over 20 years, I have had the honor to testify before 
this Subcommittee on GI Bill-related issues and, on behalf of 
Veterans Education Success and my fellow veterans, I look 
forward to your continuing bipartisan commitment to those who 
have worn our Nation's uniform.
    Thank you and I look forward to your questions.

    [The prepared statement of Robert F. Norton appears in the 
Appendix]

    Mr. Levin. Thank you, Colonel. I appreciate your feedback, 
your support, and your service as well.
    With that, I would like to recognize Mr. Hubbard.

                  STATEMENT OF WILLIAM HUBBARD

    Mr. Hubbard. Thank you, Chairman Levin, Ranking Member 
Bilirakis, and Members of the Committee. Thank you for inviting 
Student Veterans of America to testify on the topic of pending 
legislation related to veteran transition and economic 
opportunity. As a higher education nonprofit focused on the 
successful transition of veterans into the leaders our country 
so desperately requires, we appreciate the opportunity to share 
our perspective.
    I echo my colleagues at The American Legion related to the 
commemoration of the 75th anniversary of the GI Bill, and thank 
them for their long-standing leadership.
    We have submitted for the record a comprehensive written 
testimony addressing the broad array of proposals up for 
consideration today. Many of these proposals seek to address 
the gap that exists between legal authorities over education 
programs, and the divergence of these authorities between the 
Department of Veterans Affairs and Department of Education. 
Many of these bills are a step in the right direction to 
achieve to achieve parity between VA and Ed. We humbly offer 
some additional considerations on each in an effort to make 
them even more impactful.
    This generation of veterans consistently demonstrates an 
increasingly sophisticated approach to higher education. We do, 
however, always keep a watchful eye for predatory schools and 
programs who frequently seek to take advantage of VA education 
benefits such as the GI Bill.
    Previously, I testified before this body regarding the 
ongoing practice of near-blanket enrollment of new recruits and 
officer candidates into the Montgomery GI Bill. In response, 
this Committee took swift and thoughtful action to address our 
concerns, proposing draft legislation to extend the time period 
under which an election must be made for entitlement for 
educational assistance under that program. I would like to 
focus the balance of my time on this issue.
    The Montgomery GI Bill served our Nation's veterans well 
for many years; however, with the advent of the Chapter 33 
Post-9/11 GI Bill, the older program is now little more than a 
superfluous tax on troops. Except for a few niche scenarios, 
the Post-9/11 GI Bill provides more general resources and 
better overall value than the Montgomery. Despite this, it 
lingers on through the automatic enrollment of new 
servicemembers who are not fully informed of the differences of 
these education programs.
    A recent Politico article put a fine point on the issue, 
noting the clear disparities. I shared, ``At this point, it is 
just a vestige of a bygone policy determination. They are 
paying into it for essentially no reason at all.''
    Why does this matter? Consider that the average paycheck 
for an E1, a brand new private in the military, is just over 
$800, and that is before taxes and deductions. Further, these 
troops are also subject to the new blended retirement system, 
making financial strains a very real prospect.
    Of the $160 million collected from new recruits each year, 
over $140 million goes unused and un-refunded. To put this $140 
million into perspective, that amount could fund 10,305 
students for a free ride at UC San Diego at the in-state 
tuition rate, nearly a third of the entire 35,000-student 
population, every single year. Yet, these funds continue to be 
collected for essentially no reason at all.
    When presented time to review information on their options, 
servicemembers quickly discern which benefit is for them. From 
fiscal year 2014 to 2018, a combined 94 percent of veterans 
made the understandable choice to use the Post-9/11 GI Bill 
over the Montgomery GI Bill.
    For visual comparison, this is approximately what the GI 
Bill looks like today. Overall, the antiquated program is on 
track to represent barely 2 percent of VA education benefits 
next year, a figure which has steadily declined as the Post-9/
11 GI Bill, now the Forever GI Bill, rose in popularity due to 
the much more general resources afforded to student veterans. 
Yet, due to current policies, new servicemembers are often 
automatically enrolled in the Montgomery GI Bill unless within 
a few days of entering initial training they submit a written 
request to opt out. And, just to add to the confusion, public-
facing Web sites from the different service branches also make 
it nearly impossible to get clear information about the nuances 
of the different options.
    In one example, one of the Web sites reads, ``If you sign 
up and do not want it, there are no refunds.'' Another states, 
``Monies reduced are not taxable and not refundable; monies 
reduced cannot be stopped or suspended.''
    We thank the Chairman, the Ranking Member, and the 
Committee Members for your time, attention, and devotion to the 
cause of veterans in higher education, and I look forward to 
your questions.

    [The prepared statement of William Hubbard appears in the 
Appendix]

    Mr. Levin. Thank you, Mr. Hubbard. And, without objection, 
we will add the visuals that you took the time to prepare to 
the record. Thank you for that.
    Mr. Levin. With that, I would like to recognize Mr. 
Villanueva for 5 minutes.

               STATEMENT OF JEREMY M. VILLANUEVA

    Mr. Villanueva. Chairman Levin, Ranking Member Bilirakis, 
and Members of the Subcommittee, thank you for inviting DAV to 
testify at this legislative hearing of the Subcommittee on 
Economic Opportunity. DAV, a non-profit veterans service 
organization comprised of over one million wartime service-
disabled veterans, is dedicated to a single purpose: empowering 
veterans to lead high-quality lives with respect and dignity.
    I am pleased to provide our views on the legislation before 
the Subcommittee today that directly impacts the service-
disabled veteran community. My full written testimony addresses 
the entirety of the bills on today's agenda, but, for brevity's 
sake, I would like to highlight four.
    DAV has a long-standing resolution which supports the 
investigation, prevention, and monitoring controls over the 
Service-Disabled Veteran-Owned Small Business, or SDVOSB 
Program, and seeks to ensure that fraud is prosecuted and 
companies that commit fraud are suspended or otherwise held 
accountable. And also Resolution No. 303, which calls for 
simplification of the verification process for SDVOSBs and 
Veteran-Owned Small Business, or VOSBs. For this reason, DAV 
supports H.R. 561, Protecting Business Opportunities for 
Veterans Act of 2019; and H.R. 1615, VA-SBA Act.
    H.R. 561 would correct a persistent problem in contracting 
under the Vets First Program by directing the VA to work with 
the Office of the Inspector General to identify and penalize 
small businesses who take advantage of the program by utilizing 
pass-through contracts, which occur when a small business wins 
its contract based on a designated preference and then 
subcontracts most of the work to a non-similarly-situated firm. 
These pass-through contracts violate the principle and 
rationale of these programs, which is to benefit the SDVOSB 
community.
    In a 2018 report, the GAO found persistent problems in 
contracting under the Vets First Program by small businesses 
who disregarded these subcontracting limitations.
    H.R. 1615 would move the VA's verification of SDVOSBs and 
VOSBs' responsibility to the Small Business Administration. The 
SBA will therefore fully take over the certification process 
government-wide and VA's separate verification program will 
sunset.
    Currently, SBA certifies small businesses that participate 
in most Federal contracting preference programs, the exception 
is SDVOSBs that are verified by VA to qualify for VA contracts. 
GAO noted in its 2012 report on the SDVOSB programs, ``No 
action has been taken by agencies to improve fraud prevention 
controls. Relying almost solely on firms' self-certification, 
the program continues to lack controls to prevent fraud and 
abuse.''
    The VA-SBA Act seeks to address this problem by instituting 
an affirmative certification requirement for SDVOSB throughout 
the Federal Government, to be implemented and maintained by the 
SBA. To accomplish this, the Act transfers responsibility for 
certification from the VA to the SBA and eliminates the option 
to self-certify.
    Finally, this bill guarantees that no self-certified SDVOSB 
will be excluded from a contracting opportunity if the SBA is 
slow to process its certification application and preserves the 
unique VOSB contracting preference in VA.
    DAV supports H.R. 561 and H.R. 1615, and we look forward to 
working with this Committee to ensure their passage.
    Mr. Chairman, the collaborative efforts made by the VA and 
its Federal partners to end veteran homelessness have shown 
significant progress in the decade since the U.S. established 
the goal to eliminate it; however, there are still challenges. 
A 2016 point-in-time census showed that 9.2 percent of the 
adult homeless population are veterans and, while this is a 
dramatic decrease since 2009, veterans are still over-
represented.
    For this reason, we support H.R. 716, the Homeless Veterans 
Legal Services Act, and the draft bill, Legal Services for 
Homeless Veterans Act, and would like to thank Congressman 
Panetta and Congresswoman Beatty for introducing these bills 
that would authorize VA to provide grants or enter into 
cooperative agreements with community entities to provide legal 
services to veterans experiencing homelessness and veterans who 
are at risk for becoming homeless.
    In its most recent CHALENG report, male homeless veterans 
stated that some of the top unmet needs were legal issues, to 
include child support, prevention of eviction or foreclosure, 
restoration of driver's licenses, outstanding warrants and 
fines, and also discharge upgrades. Female homeless veterans 
identified legal assistance in three different areas, including 
child support, prevention of eviction or foreclosure, and 
discharge upgrades.
    These legal issues are often significant barriers in 
obtaining employment, reuniting families, maintaining or 
obtaining permanent housing, or seeking benefits or child 
support to stabilize family income. By addressing these issues, 
a veteran has a significantly better chance of ending their 
cycle of homelessness.
    Mr. Chairman, this concludes my testimony, and I would be 
happy to answer any questions you or the Subcommittee might 
have.

    [The prepared statement of Jeremy M. Villanueva appears in 
the Appendix]

    Mr. Levin. Thank you, Mr. Villanueva.
    I would now like to recognize Mr. McMahon for 5 minutes.

                  STATEMENT OF TIMOTHY MCMAHON

    Mr. McMahon. Chairman Levin, Ranking Member, and Members of 
the Subcommittee, my name is Tim McMahon. I am U.S. Air Force 
veteran, proud of that, and I am here today representing my 
schools, Triangle Tech, the Career Education Colleges and 
Universities, and Veterans for Career Education.
    I service as president of Triangle Tech, a nationally-
accredited career school with six campuses throughout 
Pennsylvania. We enroll over 200 veterans currently, that is 
around 20 percent of our student population. For every student 
veteran and every student enrolled at our schools, we assign a 
career advisor, a financial advisor, and an economic advisor to 
every student throughout their entire enrollment. We try to 
make sure that every student has the necessary support over the 
2-year degree program in order to reach their potential 
throughout their enrollment to graduate and to become employed.
    All students at Triangle Tech have free repeat privileges. 
By that I mean, if a student fails a course, we offer them a 
repeat of that course free of charge. We also provide a free 
refresher program for our graduates. If our graduates change 
careers or change direction in a career and need refresher in a 
technical skill that we've taught them, they're welcome to come 
back and get that refresher training free.
    We also offer a guarantee to every employer that hires one 
of our graduates. By that I mean that if you hire one of my 
students and they are deficient in any area for which we have 
trained them, you may send them back to us and we will retrain 
those students free.
    I tell you this because much of the rhetoric points a 
finger at what are known as fraudulent career schools. I have 
been doing this 46 years; I have trained over 10,000 veterans 
and placed over 10,000 veterans in job-related training--in 
jobs related to their training. My veterans and my other 
students earn an associate in specialized technology degree in 
just 16 months. They attend school six and a half hours a day, 
5 days a week, and they have a career advisor that connects 
them with employers upon graduation. I don't consider myself a 
predatory, tax-paying career school. I am fairly typical of 
most tax-paying career schools.
    I also serve on the board of directors of the Career 
Education Colleges and Universities, a national association of 
career colleges and schools consisting of nearly 500 campus 
locations across the United States.
    I am proud to be among the nearly 100 veterans that 
traveled from across the country to Washington, D.C. just 
before Memorial Day and helped to found the Veterans for Career 
Education. We veterans founded VCE to support the right of 
veterans to use their earned veterans' benefits, like the GI 
Bill, to gain career skills at the college or institution of 
their choice. In 2 weeks, VCE will begin a Let Vets Choose Tour 
across America. We will be visiting over 20 career schools in 
more than ten states for the purpose of listening to the voices 
of the veterans enrolled in those schools, so that they can 
tell us what their opinion of those schools are, and so they 
can tell us how to make their experience better. We look 
forward to sharing the views of those veterans once we have 
accomplished that trip and we will be happy to forward the 
results of that back to the Committee.
    In a recent Gallup study, 71 percent of the veterans and 
servicemembers who graduated from CECU member schools said they 
were satisfied with their education, and 76 percent said their 
employment is directly related to their degree or their 
certificate earned at the career school. Our schools remain 
committed to provide career-relevant education to those in and 
out of uniform.
    Regarding the draft legislation being discussed today, I 
will limit my oral remarks to those bills that may have the 
greatest impact on student veterans and career schools, 
especially the veterans that choose our schools year in and 
year out.
    First, the draft bill to change the 90/10 rule to include 
military and veteran education benefits in the 90 percent side 
of the equation will certainly do more harm than good to our 
Nation's student veterans. CECU commissioned research to 
determine the impact that changing the 90/10 rule for tax-
paying career institutions and found that, at a minimum, 100 
schools currently teaching veterans would close, and, in that 
100 schools, the estimate is that over 100,000 veterans would 
lose their opportunity for education that they chose.
    This may seem to be a proper way to impact school closings, 
but I would say that the biggest impact on student closings 
caused by 90/10 would be to cause more of them unnecessarily.
    The research also shows that over 400 public and private 
non-profit schools would fail if they were subjected to the 
expanded version of the 90/10 rule. The vast majority of GI 
Bill beneficiaries attend those schools.
    As a veteran and an educator, I urge Congress to advance 
and ensure objective enforcements to the draft Principles of 
Excellence bill instead of changing 90/10.
    Future education policy must hold all schools accountable 
if the true goal is to protect all veterans. It seems, based on 
the rhetoric here in Washington, some advocates and Members of 
Congress believe that veterans are being aggressively targeted 
by tax-paying schools and that, by changing the 90/10 rule, the 
issue will be mitigated. Simply put, that is just not true; it 
won't happen that way.

    [The prepared statement of Timothy McMahon appears in the 
Appendix]

    Mr. Levin. Mr. McMahon, I'm sorry, but your time is up. I 
appreciate your comments.
    Mr. McMahon. Thank you.
    Mr. Levin. Thank you all for your comments.
    With that, I would like to recognize myself for 5 minutes. 
Everybody will have an opportunity to address what was 
discussed. And I would like to continue to be focused on the 
90/10 loophole, and I appreciated the comments and concerns of 
both the VA and some of the for-profit university industry.
    And, look, this is very simple. I hear from folks that are 
dealing with this loophole, there are far too many of our 
veterans that we are poaching to take advantage of them in 
order to get the other 90 percent. I am not saying all for-
profit universities are bad, far from it, there are plenty of 
people doing very good things, but to deny that this is an 
issue, one that we must work together in a bipartisan manner to 
address, completely dismisses the voices of countless veterans 
that I have heard--and I have only been at this job for 7 
months--I have heard their stories, we have got to fix this 
issue. Let's roll up our sleeves, let's get to work, and let's 
get it done. We owe our veterans no less. All due respect to 
those in the industry, you know we can do better than what we 
are doing today for our veterans.
    So, with that in mind, I want to get into the text that we 
are considering and my specific bill to address it. It does not 
provide the VA with any authority to waive 90/10 requirements 
for certain institutions in extenuating circumstances. Mr. 
Kamin, Mr. Murray, Colonel Norton, I would like to hear from 
all of you on this. Would you support the addition of waiver 
authority? If so, how should that be structured to ensure we 
don't create a new loophole?
    Mr. Murray. Sir, we would support some kind of a waiver in 
extreme circumstances. Obviously, flexibility is always an 
important thing. In previous bills, there have been the 
Secretary has the ability to waive this clause if such-and-such 
might happen, and we would be supportive of that.
    Mr. Levin. Thanks.
    Mr. Kamin. Mr. Chairman, quite frankly, we are not really 
experts when it comes to this type of issue of waiver. We would 
defer to our for-profit colleagues and say, how can we make 
this work for you?
    The idea that there is rhetoric associated with this that 
we are anti-for-profit is simply inconsistent with the efforts 
that we have tried to do to reach out to them to make it 
accommodating. The simple fact is, there have got to be 
guardrails on Title 38, the same way it is for Title 10. It is 
not 85/15. If 85/15 worked, they would have included it in HEA 
when it first passed. They knew there were ways to easily get 
around that. It needed to be based on 90/10 for payments.
    So, however we can accommodate so that the schools don't 
immediately close, that it matches the guidelines for industry 
to reach, we would be looking forward to that discussion.
    Mr. Levin. Thank you.
    Colonel *Norton.* Thank you, Mr. Chairman. I think we would 
be delighted to see language concerning a waiver authority. I 
would just like to point out that, as you know, DeVry 
University has on its own--it is a large for-profit 
institution, has on its own declared that it will follow the 
90/10 in terms of its own business model.
    So this is not something that is an outlier situation. 
Schools should be able to attract any student that needs to go 
there, wants to go there, and provide a quality education with 
outcomes that will enable them to have a successful future. So 
we would be pleased to work with the Subcommittee and your 
staff on waiver language.
    Thank you.
    Mr. Levin. Thank you.
    Mr. Hubbard, anything to add?
    Mr. Hubbard. I appreciate the interest and discussion of 
this in this hearing, Mr. Chairman. I think it has a place in 
this Committee, in this hearing room, in the fact that the 
taxpayers who are veterans, who have served, are the folks on 
the end of this discussion who are affected.
    So, though I think largely it does have a place also within 
the Department of Education and Title IV funds, we have to 
understand the audience of this hearing, which is veterans, and 
they are affected by this in a very negative manner. So I 
appreciate you addressing that in this Committee.
    In terms of the waiver, I think annual SAA monitoring would 
be one step that might be considered, understanding the 
importance of risk-based reviews. I think, if we are going to 
grant a waiver, also following up on an annual basis to ensure 
it is not being abused is one manner to potentially make sure 
it is safeguarded.
    Mr. Levin. I appreciate that. And, again, this is not 
intended to be a condemnation of all for-profit institutions. 
One of my very dear friends, a Marine Corps veteran, runs the 
legal clinics, including the Veterans Law Clinic, at a for-
profit institution, the University of San Diego. And when I ask 
him what is the number one reason veterans come to you for 
help, it is to deal with student loan debt and, specifically, a 
lot of issues pertaining to this 90/10 loophole. He is the one 
that told me about it many years ago.
    So we have got to fix it and, again, we want to work with 
the community to come to a consensus about the best way to do 
it.
    I want to in the brief time I have left shift to the 
legislation mandating that institutions agree to the principles 
of excellence, some of you have addressed that, in order to 
receive GI Bill funding. Colonel Norton and Mr. Hubbard--and I 
would ask you to go fairly quickly in the interest of time--do 
you think that state approving agencies are capable of 
enforcing these principles of excellence?
    Colonel *Norton.* Yes, I do, if properly resourced and with 
the proper training.
    Mr. Hubbard. I would echo that. I think they have a lot on 
their plate, but they are definitely capable and have the 
expertise to do so.
    Mr. Levin. Thank you both. And I am out of time, for my 5 
minutes anyway, but I would like to recognize Mr. Bergman, who 
is filling in for Mr. Bilirakis. It is nice to see you up here, 
sir.
    Mr. Bergman. Thanks, Mr. Chairman. And let's face it, what 
we are talking about here is doing the right thing for men and 
women who have served their country, pure and simple.
    I am going to tell you from personal experience, because we 
are all a product of our experiences, during my 4 and a half 
years in command of the Marine Corps Reserve, one of the 
biggest challenges I had within our service specific was 
getting our Reservists into schools controlled by the Marine 
Corps, because--and this is not about the Marine Corps, this is 
just an example that I believe transcends the philosophy of an 
educational institution that it is about them, as opposed to 
potentially being about their students--is an education an end 
game or is it a stepping stone? It is a stepping stone, because 
of the fact you don't become a student to become a student for 
life, you become a student to get whatever certificate or 
degree or training that is going to springboard you into the 
next step of your career and your working career.
    So, when you think about in some cases the inflexibility of 
educational institutions, because it likes its product, we can 
see the results in our education system across the country that 
has yielded 18-year-olds who are not ready to take the next 
step. I know it sounds like I'm preaching here a little bit, 
but the fact of the matter is--by the way, my daughter is a 
career elementary teacher and has been so for 20-plus years, 
and works part-time with the University of Illinois to evaluate 
student teachers going into elementary education, so I get 
feedback on a daily basis. The education starts early on in all 
our lives.
    So the point is, as we look at education systems now for 
veterans who, are they going to go into an educational system 
right after they finish their active duty, or are they going to 
go out and work for a while? Maybe in some cases even start 
their own business first. That is why when we talk about--and I 
am not going to spend much time on the bill that I talked about 
earlier, the H.R. 561 that talks about the pass-throughs--you 
are going to have some veterans who go right into the 
workforce. They have hatched a business idea with some of their 
buddies while they have been serving and they are going to go 
out and start it right away. Only afterwards will they 
potentially then go seek some certification, whether it be to 
change their business or to upgrade their business model, 
because now they have become successful and they need more 
training.
    So my concern as what we do as a body here, if we agree 
that the GI Bill works, how do we make sure it continues to 
work? Well, the bottom line is--and I am going to ask you a 
question now--do you agree that by ensuring that the GI Bill 
academic programs are Title IV eligible we would--you know, by 
ensuring that, that we would meet the goals of the draft bills 
that would integrate the 90/10 rule letters of credit and 
program integrity rules into Title 38?
    Mr. Hubbard. Congressman, I would love to answer that 
question, I think it is very relevant for this discussion and, 
as a fellow Marine, I think we both understand the importance 
that all of our branches place on serving our servicemembers. 
The point that you made that students come first is, without a 
doubt, absolutely true in 100 percent of the cases with good 
schools and so we applaud those. Some of them are represented 
here today. And I think, ultimately, we do have to recall that 
nearly 74 percent of servicemembers within 7 months of 
separating from active duty will go to school. You are 
absolutely right that some don't do that. So understanding that 
dichotomy and finding a way to best serve them is something 
that we are focused on.
    I think, ultimately, the future of the workforce is going 
to be dependent upon the ability to have these degrees and in 
some cases advanced degrees as our society progresses. So we 
appreciate your comments on that and would look forward to 
working with you on it.
    Mr. Kamin. If I can also add that, General, I really 
appreciate those remarks and a very sagely perspective on the 
role of education in our country.
    I think, number one, the GI Bill actually, it does have 
baked into it more room for innovation than Title IV funds, 
that is absolutely correct. Both--not just 90/10, but also the 
fact that we can do OJT, apprentice programs, credentialing, 
and I think we do believe that that could be valuable for us to 
be on the cutting edge of innovation. That carries with its 
inherent risks. The Servicemen's Readjustment Act of 1944 did 
not--this was before education as we know it, so you could use 
your money for anything, and when it was done, General Omar 
Bradley, who had overseen the VA said, no mas, there is too 
much corruption here, get rid of it. So the Korean GI Bill came 
out and it was much less benefits, and we saw this trickle down 
of benefits because of these concerns that innovation bred 
corruption when it comes to how it was used.
    So we need to be isolated and careful, but also take into 
account that there are a potential for going beyond just the 
spectrum of Title IV.
    Mr. Bergman. And I see my--thank you and I appreciate it--I 
am over my time. But the bottom line is, when you think about 
serving in uniform, you have to be flexible, you have to be 
willing to adapt, and my concern is that an education system 
that exists for itself is not very adaptable.
    So, thank you very much, Mr. Chairman.
    Mr. Levin. Thank you, Mr. Bergman. I appreciate your 
thoughtful remarks.
    I would like to recognize Ms. Lee for 5 minutes.
    Ms. Lee. Okay, Mr. Hubbard, now I get to talk to you.
    [Laughter.]
    Mr. Hubbard. I am getting ready for you.
    Ms. Lee. Yes, just one question. SVA said you support the 
intent of my legislation, the GI Bill Evaluation Act, but you 
had some changes. Could you address the proposed changes you 
would make?
    Mr. Hubbard. Yes. And, before I go into that, I also want 
to thank you for your leadership with the launch of the 
Veterans Education Caucus. I think that a launch of that sort 
and the attendance that we had was representative of the 
interest in the issue of veterans in higher education. So, 
thank you again for your leadership on that and we look forward 
to working with you on many issues, including the ones that you 
proposed.
    Is there any specific questions that you had about those? I 
would love to dive into them in detail.
    Ms. Lee. I don't have any specific, I just wanted you for 
the record to talk about what--I mean, you can be pretty brief 
on what changes you would propose.
    Mr. Hubbard. Fair enough. So, for starters, one of the 
things that we have seen with regards to the GI Bill is 
largely, when those programs were developed, particularly in 
2008, there wasn't necessarily a focus on evaluating the 
overall program. Much like the Department of Education has 
rigorous evaluations that they do tied to all of Title IV 
funds, unfortunately, the GI Bill does not necessarily have 
that same mind set. And so, if you were to ask our friends and 
colleagues at the VA certain nuances about these programs, they 
don't necessarily have the capability to dive into those 
details, because they are not necessarily collecting that 
information.
    So evaluating these programs is of the utmost importance. 
If we are not able to evaluate them, then ultimately, we are 
not able to show the return on investment that the American 
taxpayer has made and, therefore, it puts the program in the 
cross-hairs. So to be able to have that level of understanding 
and capability is ultimately most important for the long term 
and specifically for future generations.
    Ms. Lee. So, you know, the bill is really intended to focus 
on the payment and making sure that the VA is not paying for 
classes that veterans eventually drop out of, and there is sort 
of a disconnect between the timing and just really setting a 
standard is really what the intention of the bill is about. You 
know, I am all for us evaluating programs and making sure that 
we are investing in programs that actually lead to economic 
security for our veterans.
    So, is there anything else in particular with respect to 
that 14-day window?
    Mr. Hubbard. Well, over the years we have seen things like 
claw backs. There was over the last couple years some instances 
of nearly over 200,000 individuals having money taken back from 
them, because the way the program is set up currently it 
doesn't afford the ability to assess whether or not they are 
staying in that program. I think, if you look at things like 
the Montgomery GI Bill, which still to this day affords the 
opportunity for students to themselves certify, things like 
that would potentially be worth considering, because it makes 
sure that individuals are not in programs or program changes 
that don't catch up to them for a long time and then force 
people to be in a position where they are actually having money 
taken back from them.
    Ms. Lee. Great. Thank you very much.
    Colonel?
    Colonel *Norton.* Yes, Congresswoman, I would just like to 
add that one suggestion we have regarding overpayments, since 
the VA pays the tuition directly to the school, we believe the 
overpayment should be--if there is an authorized recovery paid 
back to the Government, that it should be done by the school 
and not the burden put into the rucksack of the veteran.
    Ms. Lee. Great. Yeah, I believe that is the intent. Thank 
you. And thank you for your support of the Veterans Education 
Caucus as well.
    And I yield the remainder of my time. Thanks.
    Mr. Levin. Thank you, Ms. Lee. And, if there are no more 
questions, we can conclude the hearing.
    I thank our witnesses for their expertise and my colleagues 
for their interest.
    All Members will have 5 legislative days to revise and 
extend their remarks, and include extraneous material. And, 
without objection, the Subcommittee stands adjourned.

    [Whereupon, at 11:31 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

                  Prepared Statement of Charmain Bogue
    Good afternoon, Chairman Levin, Ranking Member Bilirakis, and 
Members of the Subcommittee. I appreciate the opportunity to appear 
before you today to discuss several bills on the agenda. Unfortunately, 
due to the late notice of several of the bills, VA will only be able to 
provide limited testimony. VA will provide the remaining views in a 
follow up letter after the hearing. Accompanying me today are Jeffrey 
London, Executive Director, Loan Guaranty Service (VBA); David Carroll, 
Executive Director, Mental Health Operations (VHA); and Sean Clark, 
National Director, Veterans Justice Programs (VHA).
   (1) Unnumbered Bill - Require proprietary for-profit educational 
institutions to comply with Federal revenue limits to participate in VA 
                    educational assistance programs
    The proposed legislation would prohibit VA or a State Approving 
Agency (SAA) from approving a course of education offered by a for-
profit educational institution if the school does not receive a minimum 
of 10 percent of its revenues from sources other than Federal funds. 
Federal funding would be defined in the proposed legislation as any 
Federal financial assistance referenced under title 38, United States 
Code (U.S.C.), the Higher Education Act of 1965 (HEA) (20 U.S.C. 
Sec. Sec.  1001 et seq.), or any other Federal law, through a grant, 
contract, subsidy, loan, guarantee, insurance, or other means to a 
proprietary institution, including Federal financial assistance that is 
paid to an institution on behalf of a student or to a student to be 
used to attend an institution. This does not include any monthly 
housing stipends under 38 U.S.C. chapter 33. The proposed legislation 
is effective 180 days after the date of the enactment.
    We have significant concerns regarding the implementation and 
administration of the requirements and cannot support the legislation 
as proposed.
    First, the proposed legislation would require SAAs and/or VA to 
calculate the overall ``revenue'' of for-profit educational 
institutions. Based on the definition of Federal funds, VA believes the 
term ``revenue'' is comprised of much more than tuition and fee 
payments. The Department would need to have the proper resources to 
review business accounts concerning all revenue across an entire 
business operation to verify compliance with the proposed requirement 
and is aware of no SAA with such capacity.
    Second, the proposed definition of ``Federal funds'' is 
comprehensive, which would create potential problems with 
implementation. VA is not aware of any existing data source detailing 
every Federal law that provides financial assistance to an educational 
institution, on behalf of a student, or to a student ``through a grant, 
contract, subsidy, loan, guarantee, insurance, or other means.'' 
Verifying such Federal funding would, therefore, be difficult. 
Moreover, this definition includes many sources of funding that are not 
included in the Department of Education's 90/10 rule, which only looks 
at Federal funds provided under Title IV. See 20 U.S.C. Sec.  
1094(a)(24), (d)(1), and (d)(2). VA's 85/15 rule (38 U.S.C. Sec.  
3680A(d)), which restricts assistance provided by VA based on the ratio 
of students utilizing VA benefits and is not limited to for-profit 
schools, is similarly much narrower than the proposed rule. Based on 
the proposed legislation, VA and the SAAs would have to gather an 
excessive amount of data regarding Federal funds paid to educational 
institutions to determine the initial and continued approval of 
educational programs; doing so in 180 days would be immensely 
challenging. VA believes that the bill as currently written would 
impose a heavy burden on the SAAs or VA in attempting to verify 
reporting by for-profit schools. VA funds SAAs via contract, with 
statute capping the funds available. See 38 U.S.C. Sec.  3674(a). Given 
the highly detailed and unique information required to be assessed by 
the proposed statute, VA anticipates that SAAs will not have sufficient 
resources based on current funding to enforce the proposed statute.
    Third, the 85/15 rule already limits which educational institutions 
(without regard to for-profit status) may take advantage of GI Bill 
funding, also addressing the apparent concern of schools that are over-
reliant on Federal funds. The proposed legislation does not include a 
provision to allow currently enrolled students to finish their programs 
that parallels the 85-15 rule and would provide no authority to waive 
the requirements. Consequently, VA beneficiaries who may be enrolled in 
an institution that does not satisfy the criteria in the proposed 
statute would undergo a significant disruption, one that may prevent 
Veteran students and eligible dependents from completing their chosen 
programs due to a lack of alternatives, or because their GI Bill 
benefits are exhausted prior to graduation because all credits 
previously earned do not transfer to a new school.
    Finally, the proposed legislation would apply equally to all types 
of programs offered by for-profit educational institutions, including 
degree, non-degree, flight, and on-the-job and apprenticeship training 
programs. We note that some of these programs do not involve 
traditional tuition and fee charges and/or do not primarily operate as 
classroom education. Given the scope of the inquiry into school revenue 
and school receipt of Federal funding, VA cannot provide an estimate 
regarding the likelihood that any institution would, or would not, 
currently meet the proposed requirements. The Department would be happy 
to work with the Subcommittee to provide technical assistance on the 
draft bill.
    No benefits or administrative costs are associated with this bill.
     (2) Unnumbered Bill - ``Forever GI Bill Class Evaluation Act''
    Section 2 of the proposed legislation would provide the findings 
and sense of Congress, including that:

    <bullet>  VA provided $10.8 billion in Post-9/11 GI Bill education 
benefits to almost 800,000 Veterans in Fiscal Year (FY) 2014.
    <bullet>  According to the Government Accountability Office's (GAO) 
October 2015 report, VA made $416 million in Post-9/11 GI Bill 
overpayments in FY 2014, affecting one in four educational 
beneficiaries and about 6,000 schools.
    <bullet>  According to the report, Veterans using other VA 
education programs must verify their enrollment each month, but VA does 
not require those using the Post-9/11 GI Bill to do the same. VA not 
requiring Veterans using the Post-9/11 GI Bill to verify their 
enrollment every month can cause significant time to lapse between when 
Veterans drop courses and when this is reported, according to the 
report, meaning VA's process allows Veterans to incur thousands of 
dollars in overpayments and increases the program's costs associated 
with collecting these debts.

    Section 3 of the proposed legislation would amend 38 U.S.C. Sec.  
3313(d)(1) to provide a limitation on when VA can issue a tuition and 
fee payment for a program of education leading to a degree pursued at 
an Institution of Higher Learning (IHL). Specifically, it would 
prohibit VA from making the lump sum payment for tuition and fees prior 
to 14 days after the start of the quarter, semester or term, unless the 
Secretary provides for a waiver. Additionally, if an individual 
withdraws during the first 14 days of the quarter, semester, or term, 
VA ``shall not'' issue a tuition and fee payment to the IHL. The 
proposed legislation would apply to a quarter, semester, or term that 
begins on or after the date that is 14 days after the date of 
enactment.
    While VA supports the intent of the proposed legislation, we cannot 
support this bill due to the potential impact on Veterans and other VA 
education beneficiaries. While the proposed change could possibly 
decrease some overpayments and debts owed to VA, we believe such 
legislation would inadvertently shift the tuition and fee debt to the 
Veteran as certain schools would still require payment for the period 
of enrollment. VA's Post-9/11 GI Bill claims processing system, the 
Long-Term Solution (LTS), is currently programmed to release awards for 
tuition and fees no earlier than 14 days prior to the beginning of an 
enrollment period. As such, VA would need to make modifications to the 
LTS to implement the proposed legislation.
    The proposed legislation would also require that VA not make 
payment for tuition and fees if an individual withdraws from a program 
of education during the first 14 days of the quarter, semester, or 
term. As drafted, it is clear that VA should not pay retroactive 
benefits for individuals if they withdraw during the first 14 days of 
the term and benefits have not yet been paid. However, VA notes that it 
is unclear how the statutory provisions in 38 U.S.C. Sec.  3680(a), 
which are generally applicable to benefit payments under the Post-9/11 
GI Bill, and the proposed legislation would interact. Specifically, the 
proposed legislation is arguably inconsistent with section 
3680(a)(1)(C), which creates an exception to the general prohibition on 
payment for withdrawals (regardless of timing) if mitigating 
circumstances exist. Section 3680(a)(1)(C)(ii) dictates that mitigating 
circumstances shall be considered to exist for initial withdrawals 
totaling not more than 6 semester hours.
    Section 2 also identifies GAO concerns with Post-9/11 GI Bill 
students not having to verify enrollment each month, but the proposed 
legislation does not make any statutory change relevant to this 
finding. VA currently has a process to assist schools in avoiding 
overpayments and minimizing student debts while also ensuring 
educational beneficiaries can receive their monthly benefits payment in 
a timely manner. Educational institutions are required to submit 
certifications to VA within 30 days of the beginning of the term. VA 
encourages schools to submit enrollment certifications prior to this 
deadline through VA's dual certification process: initially certifying 
$0 for tuition and fees, and then subsequently certifying the net 
charges for tuition and fees. This process assists schools in avoiding 
school overpayments by allowing them to certify enrollments as early as 
possible with the term dates, credit hours, and other pertinent 
information while leaving the tuition and fees field blank. Once the 
school's drop-and-add period or another specified time by the school is 
complete, the educational institution can submit the updated tuition 
and fees amount. Through this process, schools benefit by submitting an 
accurate tuition and fees amount to VA while also ensuring the 
educational beneficiary receives their books and supplies stipend and 
monthly housing allowance payments without delay.
    VA also notes that the proposed legislation as written would apply 
only to eligible individuals under the Post-9/11 GI Bill who are 
pursuing a program of education leading to a degree at an IHL. This 
change would not include eligible individuals pursuing a program of 
education at non-degree granting institutions. In addition, this change 
would also not apply to individuals pursuing a program of education 
leading to degree while on active duty. VA would be happy to work with 
the Subcommittee to provide technical assistance on the proposed 
legislation.
 (3 ) Unnumbered Bill - Require that educational institutions abide by 
Principles of Excellence (POE) as a condition of approval for purposes 
               of the VA educational assistance programs
    This bill would amend 38 U.S.C. Sec.  3679 to require disapproval 
of courses at educational institutions that do not agree to abide by 
the POE set forth in Executive Order (EO) 13607 or at those 
institutions that have agreed to abide by such POE but are in violation 
of those POE. This bill would essentially codify the POE established in 
EO 13607.
    In addition, this bill would expand the POE by requiring 
educational institutions and any third-party lead generator, marketing 
firm, or company that owns and operates educational institutions to 
comply with the Department of Education's regulations in 34 C.F.R. 
Sec. Sec.  668.71 through 668.75 and 668.14. This bill would also do 
the following:

    <bullet>  Prohibit these entities from inducements, including any 
gratuity, favor, etc. to employees or contractors for the purpose of 
securing enrollments of Veteran students, with the exception of 
scholarships, grants, and tuition reductions provided by the 
educational institution;
    <bullet>  Require refrainment from providing any commission, bonus, 
or other incentive payment based directly or indirectly on securing 
enrollments or Federal financial aid (including educational assistance 
under this title) to any person or entity engaged in student 
recruiting, admission activities, etc.; and
    <bullet>  Require refrainment from high-pressure recruitment 
tactics, including making three or more unsolicited contacts for the 
purpose of securing Veteran student enrollments.

    While VA supports the intent of this proposed legislation of making 
the POE a part of the approval requirements for educational 
institutions and thereby ensuring Veterans, Servicemembers, and their 
families receive the information and protections they deserve as 
intended by EO 13607, VA cannot support this bill due to our concerns 
with the potential impact on degree programs at public IHLs and other 
programs that are currently exempt.
    First, there are currently 2,176 programs at IHLs that, although 
eligible to participate in POE, have chosen not to do so (6,404 IHLs 
eligible; 4,228 have POE agreements - 66 percent; 2,176 without a POE 
agreement - 34 percent). Of these 2,176 non-signatory IHLs, 579 are 
public IHLs. From the beginning of the POE program, many public IHLs 
have expressed an inability to commit to POE due to the requirement 
that they provide a personalized form covering the total cost of the 
entire education program. For a standard bachelor's degree, a school 
must provide the student with a cost worksheet outlining tuition and 
fee charges for the entire 4 to 5 years of the program. Since many 
public IHLs do not directly control their own tuition charges (which 
are often dictated by a Board of Regents, state legislature, or some 
other outside advisory and oversight body), many schools have stated 
they cannot guarantee tuition charges for years in advance and are 
afraid of being accused of operating bait-and-switch schemes, and, 
consequently, many have chosen not to be POE signatories. Under the 
proposed legislation, if a public IHL is externally forced to raise 
tuition charges during a student's program of education, it could 
potentially be found in violation of the POE and face disapproval.
    Second, VA considers the requirements of the POE to be incompatible 
with some types of training programs, for example, foreign schools, 
apprenticeship and on-the-job training programs, and other programs 
that do not charge tuition and fees. However, the proposed amendment 
would not include any provisions to exclude such incompatible programs. 
Therefore, VA would encourage Congress to work with VA to determine a 
list of excluded programs for explicit exemption in the statute or to 
include a provision that would allow the Secretary of Veterans Affairs 
to establish a list of program types that would be exempt from the 
proposed rule.
    Third, VA is extremely concerned that adequate enforcement of 
proposed section 3679(f)(2)(B) would be beyond the administrative 
capabilities of SAAs. As currently written, the proposed prohibitions 
are far-reaching (applying to third parties and associated companies), 
require gathering of evidence to determine whether a violation of 
subjective standards has occurred, and appear to require adjudications 
that are highly complex, potentially contentious, and extremely 
resource intensive by the SAA and/or VA that are independent of any 
such determinations already made by the Department of Education. Since 
the proposed requirements would apply to third-party and parent 
companies, verification of compliance could significantly increase the 
volume of corporate records that an SAA would have to review. 
Implementation of these rules may overload existing SAA resources. VA 
funds SAAs via contract, with statute capping the funds available. See 
38 U.S.C. Sec.  3674(a). Given the highly detailed and unique 
information required to be assessed by the proposed statute, VA 
anticipates that SAAs would not have sufficient resources based on 
current funding to enforce the proposed statute. Proposed subsection 
(f)(2)(B)(ii)(II) also appears to be partially duplicative of 38 U.S.C. 
Sec.  3696(d)(1), which already prohibits VA from approving enrollments 
and paying benefits based on courses offered by educational 
institutions providing commissions, bonuses, or other incentive 
payments related to recruiting success.
    Fourth, VA opposes the direct incorporation of another agency's 
regulations into a statutory limitation on participation in VA 
benefits. Regulations codified in title 34, C.F.R., implement 
Department of Education requirements, not VA requirements. This means 
that title 34 rules may be changed by the Department of Education 
without consultation or oversight by VA and could lead to a situation 
in which Department of Education's unilateral actions lead to the de 
facto disapprovals for purposes of GI Bill programs. Furthermore, SAAs 
have no expertise regarding the title 34 requirements and, therefore, 
the incorporation of these novel requirements would create a larger 
administrative burden.
    Fifth, the specific title 34 regulations incorporated would appear 
to effectively eliminate GI Bill benefits for unaccredited courses. 
Currently, statute allows for GI Bill benefits to be used for courses 
that are accredited and unaccredited. 38 U.S.C. Sec. Sec.  3675 
(detailing approval requirements for accredited courses), 3676 
(detailing approval requirements for unaccredited courses). Congress 
does not appear to have afforded such discretion for participation in 
Title IV programs, instead requiring the Department of Education to 
recognize accrediting bodies, 20 U.S.C. Sec.  1099b, enter into 
agreements with schools that will provide adequate information to 
accreditors, 20 U.S.C. Sec.  1094(a)(3)(C), and verify that schools are 
accredited, 20 U.S.C. Sec.  1099c(a). One of the title 34 regulations 
that the proposed law incorporates into the POE that would become 
mandatory for GI Bill participation appears to implement the statutory 
requirement that schools enter into an agreement with the Department of 
Education. See 34 C.F.R. Sec.  668.14. Therefore, it appears that the 
proposed statute would create standards that could only be met by 
schools that have met Department of Education requirements, including 
accreditation, which would effectively eliminate VA's ability to pay 
benefits pursuant to 38 U.S.C. Sec.  3676. VA is unaware of any 
indication that this is the intent of the proposed statute and would be 
happy to work with the Subcommittee to provide technical assistance on 
the draft bill.
    Finally, VA would recommend that the POE requirements be codified 
in title 38, U.S.C. Otherwise, educational institutions, SAAs, and 
other stakeholders will have to separately search out those statutorily 
imposed requirements and may have concerns regarding the official or 
authoritative source for the statutory requirements and/or confusion as 
to whether or not a version of the POE they find is the one that was 
effective on the date of enactment of the subsection.
    As a technical matter, VA also notes that the words ``Executive 
Order 13607'' appear to have been inadvertently omitted after the word 
``under'' in proposed section 3679(f)(1)(A).
 (4) Unnumbered Bill - Authorize State Approving Agencies to carry out 
                          outreach activities
    The draft legislation would add a new subsection (f) in 38 U.S.C. 
Sec.  3673, which would authorize an SAA to carry out outreach 
activities. No additional amounts would be appropriated to perform the 
outreach activities.
    VA supports the intent of the proposed legislation; however, we do 
not support the bill because we believe it is unnecessary as the SAAs 
are currently required to perform outreach activities. Section 
3672(d)(2) specifies that, in conjunction with outreach services 
provided by VA under 38 U.S.C. chapter 77 for education and training 
benefits, each SAA shall conduct outreach programs and provide outreach 
services to eligible persons and Veterans about education and training 
benefits available under Federal and State law. VA's cooperative 
agreement with SAAs includes tasks such as providing technical 
assistance, training, and outreach as a function and allots a 
percentage of time to perform those functions.
    VA believes the SAAs are currently fulfilling their compliance and 
oversight role with educational institutions and have limited funding 
to engage with individuals for expanded outreach responsibilities. VA 
currently reimburses SAAs for their work related to outreach events and 
functions and the travel associated with them. While VA cannot directly 
pay for outreach materials itself, VA pays an administrative funding 
based on salary reimbursement under 38 U.S.C. Sec.  3674(b) and these 
funds may be used for printing, marketing materials, mailings, 
information technology services, web platforms, etc. It is unclear what 
additional outreach duties SAAs are being asked to fulfill within this 
proposed legislation. VA is unsure if the SAAs' current cooperative 
agreement funding will support the additional costs to enhance outreach 
efforts to eligible VA educational assistance students, nor do we 
believe the SAA offices have the additional manpower to perform an 
expanded outreach effort.
    As a technical matter, we note that this bill would add a new 
subsection (f) to section 3673. However, the last subsection under 
section 3673 is currently subsection (d).
    No benefits or administrative costs are associated with this bill.
     (5) Unnumbered Bill - Legal Services for Homeless Veterans Act
    The draft bill would create new 38 U.S.C. Sec.  2022A, which would 
require VA, subject to the availability of appropriations for such 
purpose, to make grants or enter into cooperative agreements to 
eligible entities that provide legal services to homeless Veterans and 
Veterans at risk for homelessness. VA would have to establish criteria 
and requirements for grants and cooperative agreements and publish 
those criteria and requirements in the Federal Register. VA would be 
required to consult with organizations that have experience in 
providing services to homeless Veterans in establishing these criteria 
and requirements. VA could only make grants or enter into cooperative 
agreements with entities if they (1) are a public or non-profit private 
entity with the capacity (as determined by VA) to effectively 
administer a grant or cooperative agreement; (2) demonstrate that 
adequate financial support will be available to carry out the services 
for which the grant or cooperative agreement is sought; and (3) agree 
to meet the applicable criteria and requirements established by VA and 
have demonstrated the capacity to meet such criteria and requirements. 
Funds provided under grants or cooperative agreements would have to be 
used to provide legal services to homeless Veterans and Veterans at 
risk for homelessness to address legal matters that contribute to the 
risk of becoming and remaining homeless. VA would have to report once 
every 2 years on grants and cooperative agreements under this section. 
To the extent feasible, each report would have to identify the number 
of homeless Veterans assisted; a description of the legal services 
provided; a description of the legal matters addressed; and an analysis 
by VA of the operational effectiveness and cost-effectiveness of the 
services provided. Subsection (c) would require VA, within 90 days of 
the date of the enactment of this Act, to establish in the Federal 
Register the criteria and requirements for grants and cooperative 
agreements.
    As we note in our discussion of H.R. 716, infra, legal services 
remain a crucial but largely unmet need for homeless and at-risk 
Veterans and generally speaking, we welcome the opportunity to support 
the provision of legal services to homeless and at-risk Veterans. 
However, VA recommends technical edits to the bill language.
    First, the bill would authorize VA to make grants to or enter into 
cooperative agreements with eligible entities to provide legal services 
to homeless Veterans or at-risk Veterans. We note that VA has not 
established parameters under which cooperative agreements would be 
used, so we recommend against including language suggesting this 
program would be anything other than a grant program. VA has 
significant expertise in administering grant programs, particularly as 
a means of assisting homeless or at-risk Veterans. Second, the bill 
would direct VA to establish criteria and requirements within 90 days 
of enactment. We believe VA would need to issue regulations to 
implement this authority appropriately, and 90 days would be an 
inadequate amount of time to develop effective regulations. We are 
concerned that if VA were forced to attempt to issue regulations within 
90 days, we would be unable to design and build an effective program. 
We are also concerned about the requirement to consult with 
organizations that have experience in providing services to homeless 
Veterans within this timeframe. If VA were provided additional time-for 
example, 1 year from enactment-VA could consult with such organizations 
through the standard regulatory process. This also would ensure the 
general public's awareness and participation in the development of the 
program, as well as the participation of a broad spectrum of 
organizations with experience in providing services to homeless 
Veterans. There are other technical amendments we would recommend, and 
we would welcome the opportunity to discuss these with the 
Subcommittee.
    We note that H.R. 716 and the draft ``Legal Services for Homeless 
Veterans Act'' both address the same issue with slightly different 
approaches, and we appreciate the Committee's and the sponsors' 
interest and commitment. While both bills, with the modifications 
identified in our testimony, could be supported by VA, we prefer H.R. 
716 and recommend the Committee advance that bill if it chooses to 
assist homeless and at-risk Veterans.
    We estimate the draft bill would cost $750,000 in FY 2021, $779,250 
in FY 2022, $4.05 million over 5 years, and $8.96 million over 10 
years.
         (6) Unnumbered Bill - VA Economic Hardship Report Act
    This draft bill would require VA to submit to Congress within 1 
year of enactment a report on the economic factors that contribute to 
Veteran suicides. The report would have to identify the number of 
Veterans: who are homeless; who are housing insecure; living in 
poverty; who are food insecure; who earn at or below minimum wage; and 
who have died by suicide or attempted suicide and who are, or were at 
the time of such suicide or attempted suicide, homeless, in poverty, or 
food insecure. Not later than 180 days after submitting the report, VA 
would be required to conduct a study on the link between poverty, food 
insecurity, housing insecurity, and Veteran suicide.
    We fully support the principles and intended result of the bill, 
because it is consistent with VA's goals and current efforts. The more 
information we have in terms of the factors that result in Veterans 
attempting suicide or dying by suicide, the better we can develop 
effective public health and individual interventions to reduce 
suicidality. However, we do not support the bill as written. Initially, 
we note that VA already has the authority to provide information to 
Congress or conduct research studies, so the bill would provide no new 
authority in that regard. Additionally, several of the terms used in 
the draft bill are undefined and several of the provisions in this bill 
would require information that is not available to VA. We further note 
that, among the issues identified in the bill, several are not 
currently available in a timely fashion, and multiple years' worth of 
information may need to be combined to facilitate appropriate analyses 
to examine potential associations between the required data elements 
and the risk of suicide. Similarly, the data sources for socioeconomic 
factors listed in the bill are de-identified and available only at a 
population level or as part of a standardized survey; they are not 
tracked at the individual level. Therefore, any potential association 
between these factors and Veteran suicide could be examined at a 
population level but not individually. We note that it is unclear 
whether the requirement in subsection (b) to ``conduct'' a ``study'' 
means that VA must commence a study or complete a study. If the intent 
of the bill is for VA to complete a study within 180 days of submitting 
the report required by subsection (a), this would require either that 
VA delay the submission of that report or rush a study through the 
process, compromising its validity and reliability. Also, VA is already 
supporting research that will improve our understanding of risk factors 
associated with suicidality, and we are concerned that the approach 
suggested here could be too narrow to produce meaningful results.
    We do not have a cost estimate for this bill.
 (7) Unnumbered Bill - Authorize the Secretary to collect overpayments 
             of Specially Adapted Housing (SAH) assistance
    The unnumbered bill would provide express authority for the 
Secretary to collect overpayments made in connection with SAH grants 
awarded under 38 U.S.C. chapter 21. The SAH program provides grants to 
eligible Veterans so that they can acquire housing adaptations made 
necessary by the nature of certain service-connected disabilities. VA's 
Loan Guaranty Service (LGY) administers the SAH program.
    Most eligible Veterans receive SAH grants under 38 U.S.C. Sec.  
2101(a) or (b). Grants authorized under section 2101(a) are most 
commonly used for making homes wheelchair accessible. Grants authorized 
under section 2101(b) are generally used to mitigate other mobility-
related issues throughout homes. Temporary Residence Adaptation (TRA) 
grants, authorized under 38 U.S.C. Sec.  2102A, are available to 
Veterans who reside temporarily with family members and need to adapt a 
family member's home to meet the Veteran's needs. Under 38 U.S.C. Sec.  
2102B, housing adaptations necessitated by a Vocational Rehabilitation 
and Employment (VR&E) rehabilitation plan must be furnished under the 
SAH program. Since 2016, VA has made SAH Assistive Technology (SAHAT) 
grant funding available to individuals, researchers, and organizations 
to develop new technology that will expand home modification options 
for Veterans and enhance their ability to live in specially adapted 
homes.
    The chapter 21 statutes set forth Veterans' eligibility standards, 
which include criteria relating to entitlement for compensation under 
38 U.S.C. chapter 11, term of military service, nature of disability, 
legal right to occupy the home, and ability to afford the home. 
Congress established maximum aggregate amounts of assistance available 
under section 2101(a) and (b) grants and directed VA to increase such 
limits to correspond with increases in the residential home cost-of-
construction index.
    If a Veteran meets the eligibility criteria, it is feasible that 
the Veteran can live in an adapted home, the property is suitable for 
adaptation, and the Veteran has not exceeded the usage or dollar 
limitations, LGY can conditionally approve SAH assistance. Upon 
conditional approval, a Veteran may incur certain preconstruction 
costs, e.g., necessary architectural services, land surveys, and legal 
fees. If construction plans demonstrate compliance with SAH standards 
and the Veteran enjoys the requisite property interest in the home, LGY 
can issue a final approval of the SAH grant. In many cases, upon final 
approval, LGY disburses the grant funds to a third-party escrow agent, 
as authorized by 38 C.F.R. Sec.  36.4406(b). Also, upon final approval, 
the Veteran enters into a private contract with a builder to implement 
the adaptations.
    Throughout construction, the SAH Agent continues to assist the 
Veteran as needed. The SAH Agent also approves the disbursement of 
grant funds from escrow as the builder completes certain construction 
milestones. In cases where disputes arise between the Veteran and the 
builder, the SAH Agent and other LGY personnel attempt to coordinate 
with both parties such that a favorable result can be accomplished for 
the Veteran. However, in some cases, Veterans must resort to retaining 
private counsel to pursue claims against builders. LGY has also 
encountered other cases where Veterans are unsatisfied with the quality 
of work provided by builders at early stages of construction. In one 
such case, a Veteran would not allow the builder to re-enter the home 
to remedy purported deficiencies and complete the project. In these 
dispute cases, some portion of SAH grant funds might have already been 
disbursed to builders or to Veterans. For example, VA's regulation at 
38 C.F.R. Sec.  36.4406(b) allows payment of SAH funds directly to a 
Veteran who incurs certain preconstruction costs. In another case, a 
builder might receive a disbursement from escrow at the midpoint of a 
construction process, only to abscond with the funds and never finish 
the project.
    Currently, LGY lacks explicit authority to recover misappropriated 
SAH funds. In cases where LGY determines that a builder has performed 
substandard work or absconded with grant funds, LGY can record a 
Veteran's complaint in the SAH system of record and can also exclude 
the builder from further participation in SAH projects by issuing a 
Limited Denial of Participation (LDP) under 2 C.F.R. Sec.  801.1100. 
LGY can also refer the case to VA's Office of Inspector General and the 
U.S. Department of Justice. These actions can help to mitigate the risk 
that such builders will harm other Veterans. However, given the private 
nature of the contracts between Veterans, builders, and escrow agents, 
and depending on which entity holds the funds at the time of a dispute, 
LGY cannot easily recover the grant funds. This is true even in cases 
where LGY is relatively certain that, for example, a builder performed 
shoddy work and damaged a Veteran's home.
    The unnumbered bill would add a new subsection (f) to 38 U.S.C. 
Sec.  2102 to authorize the Secretary to collect overpayments when they 
occur. Subsection (f)(1) would authorize the Secretary to determine 
whether an overpayment has been made to a person described by 
subsection (f)(2), as a result of a breach of contract. Subsection 
(f)(1) would also establish that such overpayments constitute a 
liability of such persons to the United States. Subsection (f)(2) lists 
such persons as (A) an individual who applied for SAH assistance, (B) 
an owner or seller of real estate associated with SAH assistance, (C) a 
builder, contractor, supplier, tradesperson, corporation, partnership, 
or person related to or associated with delivery of SAH assistance, (D) 
an attorney, escrow agent, or financial institution that receives, or 
holds in escrow, funds directly or indirectly relating to SAH 
assistance, and (E) a surviving spouse, heir, assignee, or successor in 
interest of or to, any person described above. Subsection (f)(3) would 
allow for any overpayment to be recovered in the same manner as any 
other debt due the United States. Subsection (f)(4) would authorize the 
Secretary to waive any overpayment as to an individual who applied for 
SAH assistance. However, such waiver would not release any other person 
described in subsection (f)(2) from liability. Subsection (f)(5) would 
expressly provide that recovery of overpayments under subsection (f) 
would not preclude the imposition of any civil or criminal liability 
under any other law. Subsection (f)(6) would require that the Secretary 
define in regulations what constitutes an overpayment under subsection 
(f), to include, at a minimum, the failure of any person to perform or 
allow to be performed any SAH work or the failure to compensate any 
party performing services or supplying goods associated with SAH. 
Subsection (f)(6) would also require that such regulations include in 
the definition of ``overpayment'' any disbursement of SAH funds that, 
in the sole discretion of the Secretary, constitutes a misuse of such 
funds. Subsection (f)(7) would require the Secretary to notify a person 
to which an overpayment was made of the Secretary's finding of such 
overpayment and to provide a reasonable opportunity for such person to 
cure or remedy the breach, error, or circumstance that effectuated the 
overpayment.
    While VA suggests several technical amendments to the bill as 
drafted, generally, VA supports the bill. VA believes that authorizing 
the Secretary to hold a person listed by proposed 38 U.S.C. Sec.  
2102(f)(2) liable for overpayments would deter such parties from 
unilaterally terminating contracts involving SAH assistance, or 
otherwise expending grant funds for improper or unauthorized purposes. 
Currently, VA has little authority to deter such persons from 
unreasonably breaching contracts involving SAH funds and has no overt 
statutory authority to recoup such funds. VA's LGY service has 
encountered several cases where grant funds were misused by SAH 
participants. For example, in one case a contractor received a 
disbursement of SAH funds but failed to pay his suppliers, which 
resulted in a supplier's lien against a Veteran's home and raised the 
threat of a foreclosure. In another case, a Veteran decided that he no 
longer wanted to purchase a yet-to-be fully constructed adapted home, 
after closing the purchase contract and commencement of construction. 
In that case, approximately $30,000 had been disbursed from escrow to 
the builder. The builder had expended some portion of those funds 
during construction, before the Veteran breached the contract.
    The Veterans Benefit Administration's education programs have a 
clear statutory authorization under 38 U.S.C. Sec.  3685 to collect 
overpayments made in such programs. Section 3685 provides that whenever 
the Secretary finds that an overpayment has been made to a Veteran, 
eligible person, or educational institution, that such overpayment 
shall constitute a liability to the United States and may be recovered 
in the same manner as any debt owed to the United States. This bill 
would provide similar statutory authorization for the SAH program and 
would enable VA to recoup funds that may otherwise be non-recoverable 
program costs.
    The bill does pose a few issues from a technical perspective. Under 
proposed section 2102(f)(1), the Secretary's authority to find that an 
overpayment has been made would be limited to cases involving a breach 
of contract or administrative error. There could be cases where LGY 
might seek to recover misappropriated SAH funds where a breach of 
contract might not have occurred in a strict legal sense. For example, 
unbeknownst to VA or a Veteran, an SAH builder might purchase building 
supplies from a supplier on credit. The supplier might attempt to 
attach a lien to the Veteran's home until the builder repays the supply 
debt in full, raising the danger of foreclosure. In such a case, the 
builder would not necessarily be in breach of his informal contract 
with the supplier, yet the Veteran could be subjected to an elevated 
foreclosure risk. Additionally, VA is not a party to contracts between 
the Veteran and the entity that is implementing the SAH assistance, 
i.e. selling, building, or adapting a home. In cases where VA sees 
evidence that SAH funds are being misused, VA might not be in a 
position to know whether a breach of contract has occurred in a strict 
legal sense. Proposed subsection (f)(6) would mandate that the 
Secretary prescribe in regulations what constitutes an overpayment. VA 
suggests amending proposed section 2102(f)(1) to allow the Secretary 
discretion to define ``overpayment'' as including cases beyond those 
involving breach of contract and administrative error.
    As drafted, proposed section 2102(f)(2)(A) would limit the 
Secretary's authority to collect overpayments from, in relevant part, 
an individual who applied for assistance under chapter 21, title 38, 
U.S.C. However, under 38 U.S.C. Sec.  2102B, implementation of certain 
VR&E rehabilitation projects, initiated via applications submitted 
under chapter 31, are provided as SAH assistance under chapter 21. VA 
suggests an edit that would also allow the Secretary to collect 
overpayments from individuals who applied for assistance under chapter 
31, where such assistance is being furnished under the SAH program.
    The bill, as presented, contained a question relating to proposed 
section 2102(f)(2), namely, whether VA deemed it necessary to 
explicitly list the persons and entities set forth by subsection 
(f)(2). VA recommends that the bill specifically enumerates the 
entities from which VA can collect an SAH overpayment, to avoid an 
interpretation that such authority is limited to collection efforts 
against Veterans and builders who misuse SAH funds. In addition to 
adding the individuals who applied for assistance under chapter 31 as 
discussed above, VA recommends amending proposed subsection (f)(2)(C) 
to include builders, contractors, suppliers, tradespersons, 
corporations, trusts, partnerships, or other persons related to 
delivery of SAH assistance. The bill also contained a question asking 
whether VA disburses SAH funds directly to third parties. As mentioned 
above, in certain cases, VA has authority to disburse SAH funds into an 
escrow account, managed by a third-party escrow agent. The escrow agent 
could be, for example, an attorney or a financial institution. Escrowed 
funds can be disbursed incrementally to Veterans, builders, sellers of 
real property, or other stakeholders. VA recommends that the bill 
retain the express authority for VA to collect overpayments from, for 
example, attorneys, escrow agents, and financial institutions.
    Proposed section 2102(f)(4) would provide that the Secretary may 
waive recovery of any overpayment made to an individual who applied for 
assistance under 38 U.S.C. chapter 21. VA recommends expanding the 
waiver authority to cover all persons listed by subsection (f)(2), 
including Veterans who initially applied for assistance under chapter 
31. VA appreciates the opportunity to work with the Committee to 
address any other technical issues with the draft bill.
    Benefit savings associated with this bill are insignificant. No 
administrative costs are associated with this bill.
(8) Unnumbered Bill - Authorize the Secretary to assist blind Veterans 
 who have not lost use of a leg in acquiring Specially Adapted Housing 
                                 (SAH)
    The unnumbered bill would amend 38 U.S.C. Sec.  2101(a)(2)(B)(ii) 
to expand eligibility for SAH assistance under section 2101(a) to 
certain Veterans whose service-connected disability is due to blindness 
in both eyes, having only light perception. As mentioned above, SAH 
assistance under section 2101(a) is most commonly used for making homes 
wheelchair accessible. Assistance under section 2101(b) is generally 
used to mitigate other mobility-related issues throughout homes.
    Under current law, a Veteran can be eligible for section 2101(a) 
assistance, in relevant part, provided that the Veteran is receiving 
compensation under chapter 11, title 38, U.S.C., for a permanent and 
total service-connected disability that is due to (i) blindness in both 
eyes, having only light perception, and (ii) loss or loss of use of one 
lower extremity, e.g., a leg. In contrast, a Veteran can be eligible 
for section 2101(b) assistance, in relevant part, if the Veteran is 
receiving such compensation for a disability that is due to blindness 
in both eyes, having central visual acuity of 20/200 or less in the 
better eye with the use of a standard correcting lens.
    If enacted, the bill would expand eligibility for section 2101(a) 
SAH assistance to certain Veterans whose disability meets the first 
criterion discussed above, i.e. blindness in both eyes, having only 
light perception, but does not meet the second, i.e. loss or loss of 
use of one lower extremity. In other words, a Veteran whose disability 
is caused solely by blindness in both eyes, having only light 
perception, could qualify for section 2101(a) SAH assistance, provided 
that other statutory criteria are met.
    VA does not object to the general purpose of the bill. Under 
current law, a Veteran with blindness in both eyes, having only light 
perception, but without loss of or loss of use of one lower extremity, 
might be eligible for SAH assistance under section 2101(b) but might 
not be eligible for assistance under section 2101(a). The current 
aggregate dollar limit under section 2101(a) is $85,645, and the 
current limit under section 2101(b) is $17,130. VA's data suggests that 
certain Veterans who qualify for assistance under section 2101(b) but 
not section 2101(a) are unable to adapt their homes to meet all the 
needs caused by their service-connected disabilities. VA believes that 
such Veterans would benefit from expanded access to section 2101(a) 
grants. VA's review of section 2101(b) grant data for FYs 2016 through 
2018 reveals that 155 individual Veterans would have met the expanded 
criteria for section 2101(a) grants, as proposed by the bill. Of those 
155 Veterans, 115 Veterans (74 percent) utilized section 2101(b) grants 
for the first time. Of those 115 first-use Veterans, 79 Veterans 
obtained grants in amounts that were within $1,000 of the aggregate 
dollar limit for the relevant fiscal year.
    As mentioned, the bill would allow certain Veterans with blindness 
in both eyes, having only light perception, to qualify for SAH 
assistance under the higher dollar limit of section 2101(a). This would 
increase the amount of available assistance for such Veterans by 
$68,515.
    While VA supports increasing the aggregate limits for section 
2101(b) grants to assist Veterans with severe blindness, VA is 
concerned that expanding access under section 2101(a) might be 
unnecessary. The bill, if enacted, would result in a nearly 500 percent 
increase in the amount of available SAH assistance for certain Veterans 
discussed above. VA's data evidences that many blind Veterans, i.e. 76 
of the 155 cited above, were able to complete section 2101(b) 
adaptation projects for less than the current aggregate limit of 
$17,130. For those that could not, VA does not yet have data as to the 
additional amount of funds such Veterans would have needed to fully 
adapt their homes. However, VA believes that the average difference 
would be far less than $68,515, i.e. the amount by which the bill would 
expand section 2101(a) access for certain Veterans who are blind.
    VA supports increasing the amount of SAH assistance available to 
Veterans with blindness in both eyes, having only light perception, but 
believes that expanding eligibility under section 2101(a)(2)(B)(ii) is 
not necessary to accomplish that goal. Rather, VA believes increasing 
the aggregate dollar limit under section 2101(b) would help ensure that 
such Veterans are able to fully adapt their homes. VA also finds that 
more data is necessary to determine the appropriate amount of such an 
increase and welcomes the opportunity work with the Committee to 
provide technical assistance relating to this bill.
    Benefit costs associated with this bill are estimated to be $4.1 
million in 2020, $23.0 million over five years, and $39.8 million over 
ten years. No administrative costs are associated with this bill.
          (9) H.R. 716 - Homeless Veterans Legal Services Act
    H.R. 716 would require VA, subject to the availability of 
appropriations for such purpose, to enter into partnerships with public 
or private entities to provide general legal services to Veterans who 
are homeless or at risk of homelessness. The bill further specifies 
that VA is only authorized to fund a portion of the cost of legal 
services.
    VA supports this bill if amended, as this bill is similar to a 
legislative proposal in VA's FY 2020 budget request. Each year, the 
CHALENG survey consistently reveals that many of the top ten unmet 
needs among homeless Veterans are legal needs. Veterans' lack of access 
to legal representation to address outstanding warrants or fines, child 
support matters, driver's license revocation, and other legal matters 
continues to contribute to their risk of homelessness. As background, 
we note that the Supportive Services for Veteran Families (SSVF) 
Program currently allows grantees to enter into partnerships with legal 
service providers to address legal needs that pose barriers to housing 
stability. However, this is not a required service under the SSVF 
regulations and is currently only provided to Veterans through 28 
percent of grantees in the SSVF Program.
    The consistency of legal issues arising in the CHALENG survey 
strongly suggests a relationship between Veterans' unmet legal needs 
and the risk of becoming homeless. The risk of homelessness posed by 
eviction and foreclosure proceedings is obvious and direct, but other 
unmet legal needs identified by CHALENG relate to Veterans' 
homelessness, as well. The inability to obtain a driver's license may 
render a Veteran unemployable, particularly in communities with few or 
nonexistent public transportation options. If employed, a Veteran with 
unpaid child support obligations may receive wages garnished at a rate 
that threatens his or her ability to retain housing. Child support 
arrearages can also lead to arrest warrants, and incarceration, even 
for a brief period, has been shown to be the most powerful predictor of 
homelessness among adult men. These legal problems can threaten 
Veterans' mental and physical health, as well as their housing 
stability, and it is not within VA clinicians' training, scope of 
practice, or authority to address them directly. The ability to fund 
the provision of legal services for Veterans would enable VA to take a 
more holistic approach to serving Veterans who are homeless or at risk 
for homelessness; however, we recommend technical edits to the bill 
language.
    Rather than requiring VA to enter into partnerships, H.R. 716 
should authorize VA to provide grants to ensure the language reflects a 
viable funding mechanism that VA could use to execute this new 
authority; Government funding is typically distributed through grants, 
contracts, or cooperative agreements. Furthermore, VA recommends 
removing the phrase ``a portion of'' from proposed 20 U.S.C. Sec.  
2022A(a). This change would allow VA to fund a portion or the entirety 
of the legal services provided under the partnership, thereby providing 
VA greater flexibility to support these efforts. VA would like to work 
with the Committee to make additional minor improvements to H.R. 716.
    We estimate this bill would cost $750,000 in FY 2021, $779,250 in 
FY 2022, $4.05 million over 5 years, and $8.96 million over 10 years.
    Mr. Chairman, this concludes my statement. Thank you for the 
opportunity to appear before you today. We would be pleased to respond 
to questions you or other Members of the Subcommittee may have.

                                 <F-dash>
                  Prepared Statement of Patrick Murray
    Chairman Levin, Ranking Member Bilirakis, and members of the 
Subcommittee, on behalf of the men and women of the Veterans of Foreign 
Wars of the United States (VFW) and its Auxiliary, thank you for the 
opportunity to present our views on these important pieces of 
legislation.

H.R. 716, Homeless Veterans Legal Services Act

    This legislation would require the Department of Veterans Affairs 
(VA) to enter into partnerships with public and private entities that 
provide legal services to homeless veterans. The VFW agrees with the 
intent of this bill, but cannot offer its support at this time.
    While the VFW recognizes that legal issues are often a significant 
barrier to homeless reintegration and must be addressed, we are 
concerned that some for-profit legal entities would view this program 
as an opportunity to exploit the availability of government resources 
in exchange for poor or inadequate services. For this reason, we 
suggest that the language in this section be changed to allow VA to 
enter into partnerships with only public or nonprofit private legal 
entities that provide services to homeless veterans.
    Furthermore, this initiative would be duplicative of other 
federally funded programs. The AmeriCorps Equal Justice Works program, 
funded by the Corporation for National and Community Service, provides 
legal services to low-income and homeless veterans across the United 
States. Equal Justice Works has partnered with numerous nonprofit 
organizations and educational institutions that provide these legal 
services. The VFW urges Congress to increase funding for AmeriCorps 
legal services programs that specifically benefit homeless veterans, 
and to require coordination between VA and AmeriCorps to improve 
outreach to homeless veterans.

H.R. 1615, Verification Alignment and Service-Disabled Business 
    Adjustment Act

    This legislation would transfer the responsibility of certifying 
veteran-owned small businesses from VA to the Small Business 
Administration (SBA). The VFW supports this legislation and has a 
recommendation to improve it.
    Currently, Service-Disabled Veteran-Owned Small Businesses (SDVOSB) 
are subject to two different certification procedures, depending on the 
agency with which they contract. To qualify for contracts with VA, 
SDVOSB must first be verified by VA, which requires a rigorous 
verification process that has placed onerous regulatory burdens on 
SDVOSB. However, for the SBA contracts with all other Federal agencies, 
SDVOSB are allowed to self-certify. Self-certification has permitted 
businesses not owned by service-disabled veterans to fraudulently 
receive Federal contracts, which reduces the number of contracts 
available to bona fide SDVOSB. The Verification Alignment-Service-
Disabled Business Adjustment Act would require SBA to certify all 
SDVOSB applications, which would alleviate regulatory burdens for 
contracts with VA and help preserve SDVOSB preference for contracts 
with all Federal agencies.
    The verification of service-disabled veteran status by VA required 
by this bill is unnecessary and could result in delay. It would require 
VA to first verify an individual's status as a veteran or service-
disabled veteran before the SBA can certify a small business. The SBA 
would then have access to such verifications in a system created by VA. 
The creation of this system could require costly technology upgrades to 
permit communication between these agencies. Furthermore, similar 
existing inter-agency verification systems have proven unwieldy and 
cause unreasonable delay for veterans seeking to use VA benefits. 
Instead of requiring VA to verify an individual's veteran or service-
disabled veteran status, applicants seeking small business 
certification should be permitted to provide SBA with a copy of their 
Certificate of Release from Active Duty (DD Form 214) and/or VA 
Benefits Award Summary letter.

H.R. 2924, Housing for Women Veterans Act

    The VFW supports reauthorizing the Supportive Services for Veteran 
Families Grant Program (SSVF). The SSVF program is an incredibly 
valuable tool in helping veterans get off the streets and stay off the 
streets. Providing these services is an important way to make sure 
veterans are afforded the opportunity to maintain a healthy and 
productive life after service. Reauthorizing the SSVF through 2022 is a 
common-sense proposal that the VFW wholeheartedly endorses.

H.R. 2227, Gold Star Spouses and Spouses of Injured Servicemembers 
    Leasing Relief Expansion Act of 2019

    The VFW supports H.R. 2227 to improve benefits for spouses of 
injured and fallen servicemembers. This bill would extend home and 
automobile leasing protections in the Servicemembers Civil Relief Act 
to ensure spouses of servicemembers who are catastrophically injured or 
killed in the line of duty are able to terminate their residential, 
property, and automotive leases without penalty. This bill gives Gold 
Star spouses and spouses of injured servicemembers the flexibility to 
move and be with their family members, and reduces the financial burden 
when a catastrophic event occurs.

H.R. 2618, Portable Certification of Spouses (PCS) Act of 2019

    A consistent problem facing military spouses is the recertification 
for occupational licenses, which can be a lengthy and expensive 
process. Every two to three years military spouses move to different 
states and have to be recertified. This has detrimental effects on 
their promotions, 401Ks, and careers. More than 34 percent of military 
spouses work in occupations that require state licenses in order to 
practice. Of those, 56 percent are in health-related occupations, and 
another 29 percent are in education. The VFW supports this proposal 
which would amend the Servicemembers Civil Relief Act to provide a 
guarantee of residency for registration of businesses, improve 
occupational license portability for military spouses through 
interstate compacts, and allow the Department of Defense (DoD) to use 
Federal funds to assist states in generating new universal standards 
for occupational licenses.

H.R. 561, Protecting Business Opportunities for Veterans Act of 2019

    The VFW supports this legislation, which would place certain 
restrictions on the use of subcontractors by veteran-owned small 
businesses for procurement contracts with VA. This legislation would 
merely create parity between veteran-owned small businesses and other 
small businesses that enter into procurement contracts with the Federal 
government.

Draft Bill to Amend the Period to Elect to Participate in Chapter 30 
    Benefits

    The VFW supports this proposal to move back the timeline for 
enrollment in the Montgomery GI Bill. The first few days of recruit 
training is a chaotic period, and it is not the time to discuss the 
specific differences between education benefits. According to the DoD, 
approximately 80 percent of all new servicemembers paid into the 
Montgomery GI Bill program in 2018. Of those servicemembers, only a 
fraction utilize the benefit they pay into. The Forever GI Bill is 
earned through time in service and does not require any money to be 
paid out of pocket to receive this incredible benefit. While the 
Montgomery GI Bill can be beneficial to some veterans, it requires a 
$1,200 buy-in and in many cases is not nearly as robust a benefit as 
the Forever GI Bill. Many VFW members have stated if they knew more 
about the Montgomery GI Bill they may not have opted to pay $1,200 for 
a program they would never use. This proposal would allow 
servicemembers additional time to understand the nuances between the 
two chapters of the GI Bill, and if they should opt in for both.

Draft Bill to Authorize the Secretary of Veterans Affairs to Collect 
    Overpayments of Specially Adapted Housing Assistance

    The VFW understands this proposal to allow for the collection of 
overpayments made for the Specially Adapted Housing Assistance (SAH) 
program, if overpayments are made due to breach of contract. The 
government should be able to recoup the overpaid funds due to breach of 
contract in the same manner as any other debt due to the United States. 
However, we oppose the idea of collecting from veterans due to VA 
administrative errors. If VA is responsible for the error, then 
veterans should not be penalized for its mistakes.

Draft Bill to Increase the Housing Stipend for Online Students

    The VFW supports the intent of this bill and does not think online 
students should receive only half of the Basic Allowance for Housing 
(BAH) stipend. However, while we agree with the problem, we do not 
think this is the best solution. Once the final changes for the Forever 
GI Bill are implemented, housing stipends will be calculated based on 
the facility codes for each institution. This proposal could lead to 
institutions with higher BAH rates targeting military members, 
veterans, and their families with the offer of more money rather than 
better instruction. Predatory institutions could set up locations in 
major cities with the intent of continuing deceptive practices with an 
offer of higher housing stipends.
    We agree that online students only receiving half the housing 
stipend is arbitrary and unfair, and we have a suggested alternative. 
The VFW proposes an option to raise the rates for online students that 
would be a standard rate based on the national average BAH. This would 
provide a more standardized rate, and work toward parity for all 
student veterans.

Draft Bill, GI Bill Access to Career Credentials Act

    The VFW supports expanding eligibility of the GI Bill for licensing 
and credential courses. Tests and preparatory courses to attain certain 
licenses or credits should be covered under GI Bill eligibility just 
the same as other vocational or specialty courses.

Draft Bill to Grant Authority of State Approving Agencies to Carry Out 
    Outreach Activities

    The VFW supports this proposal to grant the State Approving 
Agencies (SAA) authority to conduct outreach. The SAAs play a vital 
role in ensuring compliance and integrity for institutions providing 
education and instruction to veterans. The SAAs conduct quality checks 
of programs for usage of veteran benefits, and stay vigilant that 
institutions continue to provide quality instruction.
    Outreach by the SAAs is incredibly important as it informs 
institutions about the eligibility of VA beneficiaries to attend their 
programs. We feel SAAs should be able to conduct outreach and bill VA 
for these efforts. However, while we support allowing SAAs to conduct 
outreach, we do not feel this goes far enough. We feel there should be 
a dedicated effort within VA and the SAAs to make this a priority, so 
individual SAAs can still perform their day-to-day tasks and build up a 
standing office to conduct outreach and be the liaison between VA and 
the SAAs.

Draft Bill to Require Educational Institutions to Abide by Principles 
    of Excellence

    The VFW supports many provisions within the Principles of 
Excellence, however, we cannot support this bill as written. This 
proposal would force underperforming schools to increase their support 
of student veterans and improve their curriculums. It would also put 
restrictions on recruiting and false advertising toward servicemembers, 
veterans, and their families. The VFW encourages every single 
institution to adopt the Principles of Excellence, but making it a 
requirement could have unintended consequences. Major institutions that 
have not adopted these principles, such as Harvard University, 
University of Florida, Louisiana State University, and others, would 
lose the ability to enroll GI Bill beneficiaries. The thousands of 
students enrolled at these high-quality institutions would suddenly not 
be able to use their benefits to attend school. The Principles of 
Excellence is something schools should strive toward, but not be 
mandated.

Draft Bill to Require Certain Educational Institutions Have Letters of 
    Credit

    The VFW supports requiring educational institutions facing 
financial instability to provide letters of credit for Title 38 
students. In the past few years, multiple schools attended by thousands 
of student veterans closed due to financial instability. Institutions 
deemed financially instable shall provide letters of credit for Title 
4, but not Title 38. The VFW believes there should be parity for 
students attending institutions at risk of closure. It should not be 
the sole job of VA and the tax payers to make whole students who were 
failed by their institutions. The burden should also be placed upon the 
institution itself.

Draft Bill to Revise Federal Revenue Limits for Proprietary For-Profit 
    Institutions

    The VFW supports this proposal to set limits on Federal funds 
allowed to be received by for-profit institutions. The 90/10 loophole 
has existed for years, and the VFW believes closing this loophole is a 
great step in the right direction to help protect servicemembers, 
veterans, and their families. Currently, schools accepting Title 4 Pell 
Grants have to abide by the 90/10 ratio of funding from students using 
Federal funds versus students paying on their own. This bill would 
close the 90/10 loophole by defining Federal funds to include payments 
from the GI Bill. The VFW believes this is a straight forward change 
that aligns all Federal funding for the purpose of the 90/10 ratio.

Draft Bill, Student Veteran Empowerment Act of 2019

    The VFW supports sections 2, 4, and 5 of this draft bill, but 
cannot support section 3.
    Section 2 would provide restoration of any months of eligibility 
lost at an institution that closed if the student cannot transfer 
credits to another school. A similar measure was included in the 
Forever GI Bill, but it covered only a certain time period and does not 
cover current and future students. The VFW supports making this a 
permanent protection for all student veterans and their families who 
face school closures.
    Section 3 would mandate schools adhere to the Principles of 
Excellence, and we do not support making that a requirement. At a 
minimum, we would suggest allowing some lead time for schools to come 
into compliance, rather than making this requirement effective as of 
the date of enactment.
    Section 4 would require additional oversight of educational 
institutions placed on heightened cash monitoring status. Requiring the 
SAAs to perform risk-based investigations would help determine the 
potential vulnerabilities that student veterans may face while 
attending these institutions. The VFW thinks this is a good addition to 
the roles and responsibilities performed by the SAAs, and we support 
this proposal.
    Section 5 would require monthly verification of enrollment for 
students using Chapter 38 benefits. This would prevent overpayments of 
BAH and hopefully limit the amount of debt incurred by student 
veterans. The VFW supports this section of this proposal.

Draft Bill, VA Economic Hardship Report Act

    The VFW supports this legislation to require VA to report on 
economic factors that contribute to veteran suicides. We all must do 
what is necessary to save the 20 veterans who die by suicide every day. 
Economic insecurity is a leading cause of suicide among servicemembers 
and veterans. It is important to review and address such economic 
factors.

Draft Bill, Forever GI Bill Class Evaluation Act

    The VFW supports this proposal to prevent overpayments to schools. 
Currently, if the school receives payment and a student drops classes, 
the student is responsible for making sure VA recoups the extra tuition 
and fees. This proposal would help mitigate that problem by 
establishing payment schedules and verification dates, and cease 
payments to students who withdraw.
    Mr. Chairman, this concludes my testimony. Again, the VFW thanks 
you and the Ranking Member for the opportunity to testify on these 
important issues before this Subcommittee. I am prepared to take any 
questions you or the Subcommittee members may have.

                                 <F-dash>
                  Prepared Statement of John J. Kamin
    Chairman Levin, Ranking Member Bilirakis, and distinguished members 
of the Committee, on behalf of our National Commander, Brett P. Reistad 
and our nearly 2 million members, we thank you for inviting The 
American Legion to testify today.
    The American Legion is directed by millions of active Legionnaires 
who dedicate their time and resources to the continued service of 
veterans and their families. As a resolution-based organization, our 
positions are guided by nearly 100 years of advocacy and resolutions 
that originate at the grassroots level of our organization. Every time 
The American Legion testifies, we offer a direct voice from the veteran 
community to congress.
  H.R. 561 - ``Protecting Business Opportunities for Veterans Act of 
                                 2017"
    To amend title 38, United States Code, to improve the oversight of 
contracts awarded by the Secretary of Veterans Affairs to small 
business concerns owned and controlled by veterans, and for other 
purposes.

    When a Service-Disabled Veteran-Owned Small Business (SDVOSB) or 
Veteran-Owned Small Business (VOSB) is awarded a contract under VA's 
Vets First Program, they are required to perform a certain percentage 
of the work. However, there is a longstanding problem of improper 
``pass-throughs'' in the program where businesses profit from the 
contracts while performing little or no because they are subcontracting 
the work to other companies to complete.
    H.R. 561 would require participants in the Vets First Program to 
certify that they are performing the required percentage of work and 
directs VA to refer suspected violators to the Office of the Inspector 
General (OIG) for investigation. Making this a more explicit part of 
OIG's mission should encourage them to devote more resources to it. 
This is crucial in light of the Supreme Court decision in Kingdomware 
because essentially every VA small business contract is now set aside 
for VOSBs/SDVOSBs.
    H.R. 561 also directs the VA Secretary to consider whether existing 
administrative and criminal penalties for fraudulent representation 
would apply in each case. By protecting VOSBs and SDVOSBs that play by 
the rules from bad actors that are abusing the system, this bill would 
improve opportunities for our Nation's veterans. Resolution No. 21: 
Support Reasonable Set-Aside of Federal Procurements and Contracts for 
Businesses Owned and Operated by Veterans,\1\ supports legislation that 
will provide assistance to all veterans, including disabled veterans 
and members of Reserve Components of the United States military to 
ensure equal opportunity for veterans to start or grow a small 
business, including establishing numerical goals for all veterans to 
compete in government procurement.
---------------------------------------------------------------------------
    \1\ https://www.archive.legion.org/handle/20.500.12203/9916

---------------------------------------------------------------------------
The American Legion supports H.R. 561 as currently written.

          H.R. 716 - ``Homeless Veterans Legal Services Act''
    To amend title 38, United States Code, to authorize the Secretary 
of Veterans Affairs to enter into partnerships with public and private 
entities to provide legal services to homeless veterans and veterans at 
risk of homelessness.

    The causes of homelessness can be grouped into three categories: 
health issues, lack of affordable housing, and economic hardships. The 
complexity of issues affecting homeless veterans requires a variety of 
expertise. A full continuum of care - housing, employment training and 
placement, healthcare, substance abuse treatment, and follow-up case 
management - depends on many organizations working together to provide 
services and adequate funding. This diverse network of providers is 
necessary to address the complicated multifaceted issues associated 
with homelessness.
    Legal issues are often symptomatic of homelessness and the fees 
associated with them add to an already complicated economic situation 
for many of our veterans. A variety of relatively routine legal issues 
can often compound to form seemingly insurmountable reentry obstacles 
to housing or reemployment.
    This legislation, if enacted, would direct the Secretary of the VA 
to enter into partnerships with entities that provide legal services to 
veterans. Therefore, extending the network of providers that ensure 
legal services are made available to this vulnerable veteran 
population.
    The American Legion, through resolution, supports this 
comprehensive approach to combating veteran homelessness. The American 
Legion Resolution No. 324: Support Funding for Homeless Veterans, calls 
for the continued support of public and private sector agencies and 
organizations that aid homeless veterans and their families.\2\
---------------------------------------------------------------------------
    \2\ https://archive.legion.org/handle/20.500.12203/5640

---------------------------------------------------------------------------
The American Legion supports H.R. 716 as currently written.

  H.R. 1615 - ``Verification Alignment and Service-disabled Business 
                 Adjustment Act'' or the ``VA-SBA Act''
    To transfer the responsibility of verifying small business concerns 
owned and controlled by veterans or service-disabled veterans to the 
Small Business Administration, and for other purposes.

    The National Defense Authorization Act for Fiscal Year 2017 
included Sec. 1832 and Sec. 1833, mandating the Federal government 
adopt streamlined definitions for a service-disabled veteran owned 
small business (SDVOSB) along with mandating the Small Business 
Administration (SBA) take regulatory responsibility for matters of 
certification. Further, President Trump's Administration also signaled 
the desire to streamline all certification processes by providing a 
``one-stop shop'' within SBA.\3\ The president's proposal follows The 
House Small Business Committee's work to reconcile the language in 38 
CFR Sec. 74 and 13 CFR Sec. 125 to protect the integrity of the SDVOSB 
program. The regulations are aligned, but the processes for veteran 
small business certification differ between the Department of Veterans 
Affairs (VA) and the rest of the agencies across the Federal 
government. This is creating confusion for contracting officers and 
veteran business owners.
---------------------------------------------------------------------------
    \3\ Delivering Government Solutions in the 21st Century: Reform 
Plan and Reorganization Recommendations
---------------------------------------------------------------------------
    With the streamlining of the regulatory definition and standards 
for SDVOSBs, The American Legion agrees that SBA should absorb the 
respective responsibilities of the VA's CVE. The American Legion 
Resolution No. 155: Support Verification Improvements for Veterans' 
Business, supports legislation that calls for SBA to assume 
responsibilities for the verification of service-disabled veteran-owned 
businesses and veteran-owned small businesses, based on the agency's 
expertise.\4\
---------------------------------------------------------------------------
    \4\ https://archive.legion.org/handle/20.500.12203/5497
---------------------------------------------------------------------------
    The American Legion believes Congress should finish the work that 
it began when Congress moved towards a single set of SDVOSB definitions 
by consolidating the accrediting process to a singular-certifying-
agency and end the current form of self-certification at SBA. Lastly, 
The American Legion believes SBA already possesses the capabilities to 
have businesses apply for certification through certify.sba.gov. The 
American Legion calls on Congress to examine using SBA's existing 
system rather than developing a new system at the cost of millions of 
dollars to the taxpayer.
    Finally, in 2017, SBA wrote in the Federal Register, ``In response 
to the NDAA 2017 changes, SBA is proposing to amend the definitions in 
Sec. 125.11 by incorporating language from VA's regulations and also 
from SBA's 8(a) Business Development (BD) program regulations.'' 
Currently, the SDVOSB program is a set-aside program and not a BD 
program. In comparison, 8(a) is a business development program where 
SBA assists small businesses by ensuring they maintain program 
eligibility. Comparatively, Vets First takes the form of a 
certification program, where CVE's role is the gatekeeper, determining 
who is eligible. The two programs may serve similar purposes, but they 
have different goals. The alignment of the regulations now hold the 
veteran small business set-aside program to the same standards as the 
BD programs. As such, veteran small businesses will be subject to that 
same standard and rigor, but receive none of the benefits and 
assistance of the BD programs. The American Legion believes that if the 
standards are the same across the board, then SDVOSBs should receive 
the same type of assistance as the BD programs. The incorporation of BD 
elements into the SDVOSB programs is the logical next step and is 
consistent with regulation alignment with 8(a) language and moving 
verification to SBA.

The American Legion supports H.R. 1615 as currently written.

 H.R. 2227- ``Gold Star Spouses and Spouses of Injured Servicemembers 
                 Leasing Relief Expansion Act of 2019"
    To amend the Servicemembers Civil Relief Act to authorize spouses 
of servicemembers who incur a catastrophic injury or illness or die 
while in military service to terminate leases of premises and motor 
vehicles, and for other purposes.

    The Servicemembers Civil Relief Act (SCRA) established financial 
and legal protections for active-duty servicemembers, including 
National Guard and reserve members, and their families. It covers a 
wide range of issues including rental agreements, security deposits, 
prepaid rent, evictions, installment contracts, credit card interest 
rates, mortgage interest rates, mortgage foreclosures, civil judicial 
proceedings, automobile leases, life insurance, health insurance and 
income tax payments. SCRA was intended to allow servicemembers to 
postpone or suspend financial or civil obligations to prevent them from 
being taken advantage of while on active duty or deployment. However, 
SCRA failed to extend these protections to include the family of the 
servicemembers should the military member pass away or be severely 
injured in the line of duty. This would leave these families bound to 
leases or other agreements made before the loss of their loved ones.
    The American Legion strives to ensure that servicemembers and their 
families receive the proper care they deserve, especially when the 
military member has made the ultimate sacrifice for this country. H.R. 
2227, The Gold Star Spouses and Spouses of Injured Servicemembers 
Leasing Relief Expansion Act of 2019, would authorize these Gold Star 
families to terminate leases and other agreements by extending these 
financial and legal protections to these families, which they 
previously had under SCRA while the servicemember was still alive. The 
American Legion Resolution No. 342: Support and Strengthen the 
Servicemembers Civil Relief Act urges Congress to amend the SCRA to 
include protections for members of the Armed Forces and their 
families.\5\ The Gold Star Spouses and Spouses of Injured 
Servicemembers Leasing Relief Expansion Act of 2019 is in line with 
this resolution and the American Legion supports this legislation.
---------------------------------------------------------------------------
    \5\ https://archive.legion.org/handle/20.500.12203/5660

---------------------------------------------------------------------------
The American Legion supports H.R. 2227 as currently written.

             H.R. 2924 - ``Housing for Women Veterans Act''
    To amend title 38, United States Code, to reauthorize the 
Supportive Services for Veteran Families Grant Program, and for other 
purposes.

    Since its inception in 2012, the Supportive Services for Veteran 
Families (SSVF) Program has played an instrumental role in assisting 
veterans and their families in exiting or avoiding homelessness. 
Through the granting of funds, the SSVF ensures that private non-profit 
organizations that provide supportive housing services to low-income 
veterans are properly resourced. From FY 2012 to FY 2017, the program 
assisted 419,338 homeless veterans and at-risk veteran families.\6\
---------------------------------------------------------------------------
    \6\ https://www.va.gov/homeless/ssvf/docs/SSVF--FY2017--
AnnualReport--508.pdf
---------------------------------------------------------------------------
    This bill, if enacted into law, would reauthorize the SSVF Grant 
Program for three years, adding an additional 20,000,000 to 2019 levels 
that is specifically intended for grants to organizations that focus on 
assisting women veterans and their families. Additionally, the bill 
directs the Secretary of Veterans Affairs to complete a gap analysis of 
programs that are designed to provide assistance to women veterans who 
are homeless and identify potential areas in where these programs are 
not having their intended effect.
    The American Legion, through resolution, has been a firm supporter 
of the SSVF Program. The American Legion Resolution No. 340: Support 
Permanent Authorization for the Supportive Services for Veteran 
Families program calls on Congress to not only reauthorize the program, 
but to do so permanently.\7\
---------------------------------------------------------------------------
    \7\ https://archive.legion.org/handle/20.500.12203/5658
---------------------------------------------------------------------------
    According to recent studies, among homeless veterans, ``9% of men 
and 30% of women had children in custody.''\8\ As a result, it is 
essential that efforts are made to ensure that the proper resources 
continue to be allocated to veterans and their families who are 
homeless, or at-risk of being homeless. Additionally, as the percentage 
of women veterans grow, it is imperative that studies, like the one 
being directed in H.R. 2924, are done to ensure that the needs of these 
veterans are being met.
---------------------------------------------------------------------------
    \8\ https://www.ncbi.nlm.nih.gov/pubmed/25975888

---------------------------------------------------------------------------
The American Legion supports H.R. 2924 as currently written.

        H.R. 2934 - ``GI Bill Access to Career Credentials Act''
    To amend title 38, United States Code, to authorize the use of 
educational assistance under chapter 33 of that title to pay for 
preparatory courses for professional licenses and certifications, and 
for other purposes.

    Currently, the GI Bill can reimburse the costs of fees associated 
with licensing and certification exams that are required to enter into, 
maintain, or advance in a given vocation or profession (e.g., State bar 
exams, medical board exams, electrician exams, COMPTIA certifications, 
etc.). However, the GI Bill cannot reimburse the cost of preparatory 
courses to take such exams, even though the GI Bill reimburses fees for 
both preparatory courses and reimbursement of tests admissions exams 
(e.g., SAT, ACT, GRE, LSAT, etc.).
    Through Resolution No. 338: Support Licensure and Certification of 
Servicemembers, Veterans and Spouses, The American Legion supports any 
effort to lower the credentialing and licensing barriers between 
military and civilian sectors.\9\ However we cannot support this bill 
due to its lack of articulated training standards. While the 
legislation would build a new section for preparatory courses for 
licensure, certification, or national tests (Sec. 3315B), it lacks any 
definitions for approved training providers. This lack of quality 
control will invite bad actors to exploit the provision by marketing 
worthless preparatory courses that leave veterans ill equipped for 
licensing exams.
---------------------------------------------------------------------------
    \9\ https://archive.legion.org/bitstream/handle/20.500.12203/5656/
2016N338.pdf?sequence=1&isAllowed=y
---------------------------------------------------------------------------
    The American Legion opposes H.R. 2934, and encourages Committee 
review of the Department of Defense Voluntary Education training 
provider requirements articulated in 10 U.S.C Sec.  2006a for guidance 
on established quality control standards.

The American Legion opposes H.R. 2934.

    Draft Legislation - ``Legal Services for Homeless Veterans Act''
    To amend title 38, United States Code, to direct the Secretary of 
Veterans Affairs to make grants to entities that provide legal services 
for homeless veterans and veterans at risk for homelessness.

    Homeless veterans, and those at risk of being homeless, often lack 
the most basic essentials: safe and affordable housing, healthcare, 
subsistence income, and protection from exploitation or violence. Many 
of their problems have legal dimensions and can be alleviated or 
resolved with the help of a lawyer.
    In 2009, the VA instituted the Veterans Justice Outreach (VJO) 
Program to reduce and prevent criminal justice recidivism and 
homelessness among justice involved veterans. As a part of this 
program, VJO specialists ``provide direct outreach, assessment and case 
management for justice-involved Veterans in local courts and jails and 
liaison with local justice system partners.''\10\
---------------------------------------------------------------------------
    \10\ https://www.va.gov/homeless/vjo.asp#contact
---------------------------------------------------------------------------
    Recent studies have indicated that veterans who accessed free legal 
services at VA facilities showed improvements in housing status and 
community integration.\11\ Some of the most common legal issues that 
were addressed on behalf of the 950 veterans that participated in the 
study included housing and VA benefits issues. Providing veterans with 
a pathway to rectify problems that restrict access to housing and VA 
benefits is crucial to ensuring that they are on a sustainable 
trajectory to improved housing conditions.
---------------------------------------------------------------------------
    \11\ https://www.healthaffairs.org/doi/10.1377/hlthaff.2017.0759
---------------------------------------------------------------------------
    This legislation, if enacted, directs the Secretary of the Veterans 
Affairs to make grants to public or non-profit entities that provides 
legal services to homeless veterans or those at risk of being homeless. 
38 U.S.C. Sec.  2022 (c) sets the condition for the establishment of 
cooperative outreach related partnerships with entities outside of the 
VA as a part of the Secretary's outreach plan for homeless veterans. 
The aforementioned legislation identifies legal services as a key 
component of cooperative outreach, while this draft legislation works 
to expand the availability of those services.
    The American Legion Resolution No. 324: Support Funding for 
Homeless Veterans calls on Congress to support ``efforts of public and 
private sector agencies and organizations with the resources necessary 
to aid homeless veterans and their families.''\12\ Providing grants to 
organizations that provide legal services to justice involved veterans 
is in keeping with this intent.
---------------------------------------------------------------------------
    \12\ https://archive.legion.org/handle/20.500.12203/5640

The American Legion supports this draft legislation as currently 
---------------------------------------------------------------------------
    written.

                           Draft Legislation
    To authorize the Secretary of Veterans Affairs to collect 
overpayments of specially adapted housing assistance.

    The Department of Veterans Affairs provides grants to 
servicemembers and veterans with certain permanent and total service-
connected disabilities to help purchase, construct, or modify homes to 
accommodate their disabilities. One of these grants is the Specially 
Adapted Housing Grant which was established for veterans who have a 
service-connected disability such as a loss, or loss the use of, both 
legs or the loss of one leg combined with other additional 
disabilities. In several instances, the Special Adaptive Housing 
payment program has overpaid veterans who are enrolled in the program. 
These errors have led to inefficiency in the program and diverted 
resources which could be otherwise used for additional recipients.
    The American Legion supports good accountability and stewardship of 
American tax dollars and resources. The American Legion also desires a 
system that increases efficiency and accountability while providing 
timely and quality benefits to all veterans. However, the American 
Legion does not support policies that cause financial burdens on 
veterans and their families. This draft legislation would authorize the 
government to recoup excess payments made to veterans, spouses, 
contractors, and builders participating in the Special Adaptive Housing 
program. It would also require the Secretary of VA to provide a notice 
to the veteran regarding the overpayments and provide a reasonable 
opportunity for the person in question to remedy the issue. The 
American Legion Resolution No. 342: Automatic Waiver for Over-Payment 
of $300 or Less supports legislation to allow the Department of 
Veterans Affairs to grant an automatic waiver for those overpayments of 
$300 or less if the claimant requests one and there is no obvious 
indication of fraud or misrepresentation.\13\
---------------------------------------------------------------------------
    \13\ https://archive.legion.org/handle/20.500.12203/9865
---------------------------------------------------------------------------
    The American Legion supports this draft legislation with changes. 
The American Legion supports the automatic recoupment of overpayments 
made of $300 or less. However, the recoupment of any overpayment to a 
veteran approved of the Special Adapted Housing should not cause 
additional financial burden on a veteran if the veteran in question 
received an overpayment they could not prevent. Therefore, veterans 
should be provided a reasonable plan to re-pay the overpayment. In 
addition, they should be notified of their rights to an administrative 
hearing.

The American Legion supports this draft legislation with the 
    recommended changes.

                           Draft Legislation
    To amend title 38, United States Code, to require proprietary for-
profit educational institutions to comply with Federal revenue limits 
to participate in educational assistance programs of the Department of 
Veterans Affairs.

    The American Legion has grown increasingly concerned over for-
profit institutions disproportionately recruiting veterans, and recent 
numbers from the National Student Clearinghouse have put these numbers 
in context. Estimated national enrollment at 4-year institutions by 
sector now shows that only 6% of all American students are attending 
for-profit institutions, while the VA estimates that for-profit Post-9/
11 GI Bill enrollment is over triple this amount, with proprietary 
institutions accounting for 18.8 percent of all GI Bill 
beneficiaries.\14\ The primary explanation for this disparity is that 
for-profits are incentivized to target veterans.
---------------------------------------------------------------------------
    \14\ https://nscresearchcenter.org/wp-content/uploads/
CurrentTermEnrollmentReport-Spring-2019.pdf pg. 3
---------------------------------------------------------------------------
    Under current law, the percentage of revenue that for-profit 
schools can receive from Federal financial aid is capped at 90%. The 
intent was to ensure that for-profits meet a market interest and are 
not entirely reliant on Federal funding, however, the Post-9/11 GI Bill 
has provided them a lucrative loophole. Since GI Bill benefits are a 
Title 38 benefit, they are counted on the ``10-side'' of the 90/10 
calculation. This has been defined as the ``90/10 Loophole'', allowing 
schools to collect Federal funds classified as private revenue.
    The American Legion, through Resolution No. 78: Support Greater GI 
Bill Outcomes by Closing 90-10 Loophole, has expressed support for 
excluding Department of Defense and VA funds from the 90/10 calculation 
in order to ensure better quality and student outcomes.\15\
---------------------------------------------------------------------------
    \15\ https://archive.legion.org/handle/20.500.12203/6929
---------------------------------------------------------------------------
    This bill provides a common sense solution to this is by 
calculating Title 38 benefits alongside Title IV student aid in order 
to eliminate the incentive for for-profit institutions to aggressively 
target veterans for enrollment.

The American Legion supports this draft legislation as currently 
    written.

        Draft Legislation - ``Student Veteran Empowerment Act''
    To amend title 38, United States Code, to make certain improvements 
in the educational assistance programs of the Department of Veterans 
Affairs, and for other purposes.

    Section 2. Charge to Entitlement to Educational Assistance for 
Individuals who do not Transfer Credits from Certain Disapproved 
Programs of Education

    When a school closes, non-veteran students have Federal protections 
to support them. Affected students with Federal student loans have the 
ability to discharge their loans. Students who received Pell Grants can 
have their eligibility periods reset for the time spent at a closed 
institution. Through Resolution No. 21: Education Benefit Forgiveness 
and Relief for Displaced Student-Veterans, the American Legion strongly 
believes that student veterans should be afforded the same protections 
as their non-veteran counterparts.
    While the Harry W. Colmery Veterans Education Assistance Act of 
2017 provided relief to over 6,000 student veterans who were attending 
ITT Tech and Corinthian Colleges when they abruptly shut down their 
campuses, the legislation limited relief to only schools that closed 
between 2015 and 2017. This section would provide benefits 
reinstatement to all veterans who may be affected by abrupt school 
closures and VA program disapproval.

The American Legion supports this section.

    Section 3. Additional Requirements for Approval of Educational 
Institutions for Purposes of the Educational Assistance Programs of the 
Department of Veterans Affairs

    This section would mandate that all schools agree to abide by the 
Principles of Excellence (POE) enumerated by Executive Order 13607, 
issued by President Obama in 2012 and still in effect. Like the 
Discussion Draft requiring educational institutions abide by POE, this 
section would mandate as a condition of approval institutions meet its 
six criteria.
    While the American Legion agrees that the POE needs to be improved 
to ensure adequate compliance, the immediate affect or POE requirements 
for all institutions remain concerning. POE has not been difficult for 
poor-performing schools to sign onto; indeed Argosy University, one of 
the most recent for-profit school closures was a Principles of 
Excellence school up until the day its doors shut. While the American 
Legion advocates for all schools to sign onto POE, it questions whether 
strong-arming all education institutions into signing is the most 
effective approach.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education\16\ 
resolves that The American Legion support legislation that improves 
education benefits so servicemembers, veterans, and their families can 
maximize its usage. The risk that an immediate requirement for all 
schools to sign onto POE will result in program withdrawals is not one 
that student veterans should have to bear.
---------------------------------------------------------------------------
    \16\ https://archive.legion.org/bitstream/handle/20.500.12203/5635/
2016N318.pdf?sequence=1&isAllowed=y

---------------------------------------------------------------------------
The American Legion does not support this section.

    Section 4. Oversight of Educational Institutions Placed on 
Heightened Cash Monitoring Status by Secretary of Education

    This section would mandate that if the Department of Education 
places an institution on heightened cash monitoring (HCM) status, the 
Secretary of Veterans Affairs shall provide notice to the corresponding 
State Approving Agency (SAA) for the purpose of conducting a risk-based 
oversight visit to the educational institution.
    These risk-based visits should not be construed as forensic 
accounting to supplement Department of Education HCM protocols. Rather 
the purpose is to leverage SAA expertise to determine if any academic 
improprieties may be present at the institutions under review.
    Resolution No. 304: Support Accountability for Institutions of 
Higher Learning articulates the need for State Approving Agencies to 
conduct substantive oversight on institutions of higher learning, and 
The American Legion applauds this common-sense solution to build inter-
department coordination between the Department of Education and the 
Department of Veterans Affairs.\17\
---------------------------------------------------------------------------
    \17\ https://archive.legion.org/bitstream/handle/20.500.12203/5619/
2016N304.pdf?sequence=1&isAllowed=y

---------------------------------------------------------------------------
The American Legion supports this section.

    Section 5. Verification of Enrollment for Purposes of Receipt of 
Post-9/11 Educational Assistance Benefits

    This section would mandate that each student veteran or dependent 
enrolled in the Post-9/11 GI Bill be required to submit to VA monthly 
verification of their enrollment status for purposes of ensuring 
accurate benefit processing.
    Like the Forever GI Bill Processing Act, this section is designed 
to lower the potential for education overpayments. Currently, student 
veterans are beholden to school certifying officials to send their 
enrollment information to VA on time and accurately. However if the 
certifying official submits incorrect information overstating credit 
hours, it will be the veteran who VA targets for overpayment debt 
collection.
    By requiring students to verify their enrollment every month, VA 
can have close to real-time information on student enrollment status, 
cutting out the certifying official from monthly reviews and affording 
them more time for initial certificate of eligibility processing.
    While this may be an inconvenience for student veterans, it is not 
without precedent; to this day the Montgomery GI Bill still requires 
monthly verification through its Web Automated Verification of 
Enrollment (WAVE) system.\18\ It is no surprise that MGIB has no 
comparable issues with overpayments.
---------------------------------------------------------------------------
    \18\ https://gibill.custhelp.va.gov/app/answers/detail/a--id/7//
how-do-i-verify-my-enrollment%3F
---------------------------------------------------------------------------
    Through Resolution No. 318: Ensuring the Quality of Servicemember 
and Veteran Student's Education at Institutions of Higher Education, 
The American Legion supports legislation to improve the GI Bill so 
servicemembers, veterans and their families can maximize its usage.\19\
---------------------------------------------------------------------------
    \19\ https://archive.legion.org/bitstream/handle/20.500.12203/5635/
2016N318.pdf?sequence=1&isAllowed=y

---------------------------------------------------------------------------
The American Legion supports this section.

                           Draft Legislation
    To amend title 38, United States Code, to authorize State approving 
agencies to carry out outreach activities.

    State Approving Agencies (SAAs) were established to ensure veterans 
and servicemembers have access to a range of high-quality education and 
training program options while utilizing their GI Bill benefits. The 
American Legion has championed greater funding for SAAs for many years 
through American Legion Resolution No. 304: Support Accountability for 
Institutions of Higher Learning, and was proud to insist on funding 
increases for them in the Forever GI Bill.\20\
---------------------------------------------------------------------------
    \20\ https://archive.legion.org/bitstream/handle/20.500.12203/5619/
2016N304.pdf?sequence=1&isAllowed=y
---------------------------------------------------------------------------
    This draft legislation would amend existing statute to allow SAAs 
to use funds that are already appropriated to conduct outreach to 
prospective students, schools and businesses to raise awareness of the 
benefits of the Post-9/11 GI Bill, with special attention paid to its 
underutilized apprenticeship and on-the-job-training (OJT) portions. 
Since 2015, the National Association of State Approving Agencies 
reports that the number of SAA outreach actions has fallen from 48,075 
to only 5,275 in 2018.\21\ This drop corresponds with the VA 
notifications to SAAs throughout 2015 that clarified outreach was not 
in statute, and that activities such as visits to military bases and 
hiring fairs could not be billed. While outreach for GI Bill 
apprenticeship and OJT programs is commendable, The American Legion is 
concerned that without additional increases in funding this outreach 
will be at the expense of potential risk-based program reviews and SAA 
management.
---------------------------------------------------------------------------
    \21\ http://nasaa-vetseducation.com/getattachment/Home/NASAA-2018-
Annual-Report.pdf.aspx
---------------------------------------------------------------------------
    The nuance of these concerns is expressed succinctly in Resolution 
No. 304: Support Accountability for Institutions of higher Learning, 
which resolves to ``support legislation to provide additional resources 
and increased funding for state approving agencies, ensuring 
continuation of its primary responsibility with focus in reviewing, 
evaluating, and approving quality programs of education and training, 
while providing oversight to institutions of higher learning.''\22\ 
With the emphasized portions in mind, The American Legion cannot 
support a bill that establishes outreach authority for SAAs due to the 
risks it may pose to diverting energy from their established primary 
responsibilities.
---------------------------------------------------------------------------
    \22\ https://archive.legion.org/bitstream/handle/20.500.12203/5619/
2016N304.pdf?sequence=1&isAllowed=y

---------------------------------------------------------------------------
The American Legion opposes this draft legislation.

                           Draft Legislation
    To amend title 38, United States Code, to extend the time period 
under which an election must be made for entitlement to educational 
assistance under the All-Volunteer Educational Assistance Program of 
Department of Veterans Affairs.

    While the Post-9/11 GI Bill is automatically earned over the course 
of active duty service, new recruits are still provided the option to 
establish monthly payments to gain eligibility for the legacy 
Montgomery GI Bill. Despite the Montgomery GI Bill being significantly 
less generous than the Post 9/11 GI Bill, information from the Consumer 
Financial Protection Bureau in 2017 revealed that 70% of new Army 
recruits were opting into the Montgomery GI Bill; and paying $1,200 for 
the privilege\23\. Currently, recruits are making the decision over the 
course of initial entry training (IET) with little to no counseling. 
The base salary for a recruit is only $20,170, and opting into the 
Montgomery Bill may not be in their best financial interest.
---------------------------------------------------------------------------
    \23\ https://www.consumerfinance.gov/about-us/blog/what-does-coast-
guard-know-about-gi-bill-other-services-do-not/
---------------------------------------------------------------------------
    This draft legislation would forego the decision to opt in or out 
of the Montgomery GI Bill until 180 days after IET, providing our 
servicemembers ample time to make informed decisions on their education 
benefit options. American Legion Resolution No. 335: Support Major 
Enhancements for the Montgomery GI Bill acknowledges that the current 
structure and management of the Montgomery GI Bill causes 
administrative confusion and inequitable allocation of benefits, with 
the inability of recruits to opt out being the latest example.\24\ This 
bill provides a common sense solution to improving the Montgomery GI 
Bill and the American Legion supports the proposed legislation.
---------------------------------------------------------------------------
    \24\ https://archive.legion.org/handle/20.500.12203/5652

The American Legion supports this draft legislation as currently 
---------------------------------------------------------------------------
    written.

                           Draft Legislation
    To amend title 38, United States Code, to increase the monthly 
housing stipend under the Post-9/11 Educational Assistance Program for 
individuals who pursue programs of education solely through distance 
learning on more than a half-time basis.

    While the Post-9/11 GI Bill has undergone numerous improvements to 
meet the educational demands of our modern armed forces, it has yet to 
take into account the proliferation of online learning. While in person 
training is awarded with a basic housing allowance consistent with 
localized housing rates, online learning is currently set at $849.50, 
regardless of locale.
    Despite the education landscape shifting into more online learning, 
this reduction in BAH clearly incentivizes in-person learning. Many 
student veterans with family and job commitments do not have the option 
to attend classes in person, and should not be penalized for fulfilling 
their family and work obligations. As long as the veterans are meeting 
their school's requirements for full-time learning, the VA must honor 
this commitment with a full-time basic allowance for housing.
    This bill would remedy this inconsistency by striking the entirety 
of clause (iii) of 3313(c)(1)(B), which articulates the half-time 
payment rate for online learning, thereby reverting online payments to 
the same standards established for in-person learning.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
resolves that The American Legion support legislative proposals that 
improve the Post-9/11 GI Bill so servicemembers, veterans and their 
families can maximize its usage.\25\
---------------------------------------------------------------------------
    \25\ https://archive.legion.org/bitstream/handle/20.500.12203/5635/
2016N318.pdf?sequence=1&isAllowed=y

---------------------------------------------------------------------------
The American Legion supports this Draft Bill.

        Draft Legislation - ``Forever GI Bill Class Evaluation''
    To amend title 38, United States Code, to provide for a requirement 
relating to the timing of the payment of educational assistance under 
the Post-9/11 Educational Assistance Program of the Department of 
Veterans Affairs, and for other purposes.

    A landmark 2015 GAO Report found that out of $10.8 billion in Post-
9/11 GI Bill Benefits dispersed to 800,000 recipients in 2014, over 
$416 million was identified in overpayments affecting nearly 200,000 
recipients.\26\ The VA and Congress have diligently worked to address 
knowledge gaps in school certifying officials that may lead to improper 
payments, including investing IT funds into training for school 
certifying officials through the Forever GI Bill, but the potential for 
continued overpayments is still active due to changes in the veteran's 
course load between the start of the semester and the school's add/drop 
date.
---------------------------------------------------------------------------
    \26\ https://www.gao.gov/products/GAO-16-42
---------------------------------------------------------------------------
    This legislation would mandate that schools wait to certify the 
actual tuition and fee amounts until 14 days after the first day of the 
quarter, semester or term; the rough estimate for school add/drop 
dates. This has already been established as a best practice for most 
institutions in what is called ``dual-certification''. Under this 
practice schools initially pre-certify a veteran's enrollment for $0 
before the term begins, which allows VA to start paying housing 
benefits without delay. The school then recertifies the enrollment with 
the actual tuition and fees amount after the period to add or drop 
classes has ended.
    The American Legion applauds this prescriptive approach to 
codifying a best practice. In addition to guiding well intentioned 
school certifying officials, it also stops the incentive for recruiters 
at predatory institutions to enroll veterans for fake classes in order 
for schools to receive maximum tuition payments.
    American Legion Resolution No. 318: Ensuring the Quality of 
Servicemember and Veteran Student's Education at Institutions of Higher 
Education resolves support for any legislative proposal that improves 
the GI Bill so that servicemembers, veterans and their families can 
maximize its usage.\27\
---------------------------------------------------------------------------
    \27\ https://archive.legion.org/bitstream/handle/20.500.12203/5635/
2016N318.pdf?sequence=1&isAllowed=y

---------------------------------------------------------------------------
The American Legion supports this Draft Bill.

                           Draft Legislation
    To amend title 38, United States Code, to require that certain 
educational institutions have letters of credit as a condition of 
approval for purposes of the educational assistance programs of the 
Department of Veterans Affairs, and for other purposes.

    Currently, section 498(c) of the Higher Education Act of 1965 
requires institutions to submit financial statements to the Department 
of Education when applying to start participation, to determine 
compliance annually with the standards of financial responsibility, or 
to continue participation after a change in ownership, in the various 
Title IV programs. The common reason why an institution is required to 
remit a letter of credit is for the Secretary of the Department of 
Education to gauge the fiscal responsibility of the institutions that 
receive Federal student aid.
    This bill would provide the authority to the VA and state approving 
agencies to disapprove courses of education at schools that fail to 
provide letters of credit ensuring institutional financial 
responsibility. The American Legion holds that the Secretary of the 
Department of Veterans Affairs should be afforded the same authority 
for Title 38 benefits. The American Legion Resolution No. 304: Support 
Accountability for Institutions of Higher Learning supports legislation 
which provides or improves oversight over institutions of higher 
education to provide accountably and ensure quality services for 
veterans and servicemembers.\28\ This draft legislation is in line with 
this resolution and the American Legion supports this bill.
---------------------------------------------------------------------------
    \28\ https://archive.legion.org/handle/20.500.12203/5619

The American Legion supports this draft legislation as currently 
---------------------------------------------------------------------------
    written.

                           Draft Legislation
    To amend title 38, United States Code, to require that educational 
institutions abide by Principles of Excellence as a condition of 
approval for purposes of the educational assistance programs of the 
Department of Veterans Affairs, and for other purposes.

    In 2015, President Obama introduced the Principle of Excellence 
through Executive Order 13607. This order established best-practice 
criteria for schools to ensure that Federal military and veterans 
educational benefits programs provide servicemembers, veterans, 
spouses, and other family members with the information, support, and 
protections they deserve. The educational institutions opting in agreed 
to abide by the following guidelines:

    <bullet>  Provide students with a personalized form covering the 
total cost of an education program.
    <bullet>  Provide educational plans for all military and Veteran 
education beneficiaries.
    <bullet>  End fraudulent and aggressive recruiting techniques and 
misrepresentations.
    <bullet>  Accommodate servicemembers and reservists absent due to 
service requirements.
    <bullet>  Designate a point of contact to provide academic and 
financial advice.
    <bullet>  Ensure accreditation of all new programs prior to 
enrolling students.
    <bullet>  Align institutional refund policies with those under 
Title IV, which governs the administration of Federal student financial 
aid programs.

    This threshold has not been hard to meet for schools; currently 58% 
of all institutions have agreed to it.
    This draft legislation would vest disapproval of education programs 
to State Approving Agencies for institutions that have not agreed to 
abide by the Principles of Excellence. The American Legion is 
encouraged by the adaptation of the Principles of Excellence, however 
concerns over adaptation for the remaining 42% of schools preclude our 
endorsement of these principles serving as a baseline standard for 
Post-9/11 GI Bill approval. According to the VA's GI Bill comparison 
tool, 116,782 students attend non-POE schools.\29\ The American Legion 
Resolution No. 318: Ensuring the Quality of Servicemember and Veteran 
Student's Education at Institutions of Higher Education supports 
legislation or administrative proposals that allows servicemembers, 
veterans, and their families to maximize the usage of their well-earned 
educational benefits.\30\ They should not bear the punishment for 
attending schools that have not committed to Principles of Excellence. 
Therefore, the American Legion does not support this bill.
---------------------------------------------------------------------------
    \29\ https://www.va.gov/gi-bill-comparison-tool/
    \30\ https://archive.legion.org/handle/20.500.12203/5635

---------------------------------------------------------------------------
The American Legion does not support this draft legislation.

        Draft Legislation - ``VA Economic Hardship Report Act''
    To direct the Secretary of Veterans Affairs to study the link 
between certain economic factors and veteran suicides.

    Veteran suicide is a severe problem facing the United States today. 
The latest Department of Veterans Affairs National Suicide Data Report 
found that more than 6,000 veterans have died by suicide every year 
from 2008 to 2016. In 2016, the suicide rate was 1.5 times greater for 
veterans than non-veteran adults.\31\ The Defense Suicide Prevention 
Office, has published a list of negative life events that increase the 
risk of suicide. Factors listed include: loss of job, home, money, 
self-esteem, personal security, being faced with a situation of 
humiliation or failure, placement into a new and/or unfamiliar 
environment. These factors are all applicable and may have a profound 
effect of suicide ideation.\32\
---------------------------------------------------------------------------
    \31\ https://www.legion.org/legislative/testimony/245512/tragic-
trends-suicide-prevention-among-veterans#--ftnref1
    \32\ https://www.dspo.mil/About-Suicide/Risk-Factors/
---------------------------------------------------------------------------
    The American Legion strives to ensure that our nation's veterans 
receive the support and assistance they deserve. The American Legion 
has taken several steps to help combat this crisis and reduce veteran 
suicide including establishing a Suicide Prevention Program on May 9, 
2018 to study, develop, and encourage best practices in veteran 
programs. The American Legion's Veterans Affairs & Rehabilitation 
Division also published a white paper report titled, ``Veteran 
Suicide''.\33\ This report describes causes, risk factors, and 
protective factors of veteran suicide, as well as the American Legion's 
concerns and recommendations regarding this tragic national issue.
---------------------------------------------------------------------------
    \33\ https://www.legion.org/publications/242424/veteran-suicide-
white-paper
---------------------------------------------------------------------------
    The VA Economic Hardship Report Act would require the Secretary of 
Veterans Affairs to submit a report detailing the economic factors 
which contribute to veteran suicides to include poverty, food 
insecurity, and housing insecurity. This would be followed by a study 
between these economic factors and their correlations with veteran 
suicides. The American Legion Resolution No. 20: Suicide Prevention 
Program urges the Legion to examine recent trends of veteran suicide 
and analyze best practices in order to encourage their adoption by 
government agencies.\34\ The VA Economic Hardship Report Act is in line 
with this resolution and the American Legion supports this draft 
legislation.
---------------------------------------------------------------------------
    \34\ https://archive.legion.org/handle/20.500.12203/9286

The American Legion supports this draft legislation as currently 
---------------------------------------------------------------------------
    written.

                               CONCLUSION
    Chairman Levin, Ranking Member Bilirakis, and distinguished members 
of the Subcommittee, The American Legion thanks you for your leadership 
on this matter and for allowing us the opportunity to explain the 
position of our nearly two million members. Questions concerning this 
testimony can be directed to Mr. Jeffrey Steele, Senior Legislative 
Associate, in The American Legion's Legislative Division at (202) 861-
2700, or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4329303726262f26032f26242a2c2d6d2c31246d">[email&#160;protected]</a>

                                 <F-dash>
             Prepared Statement of Colonel Robert F. Norton
    Chairman Levin, Ranking Member Bilirakis, and Members of the 
Committee:
    Thank you for the opportunity to provide input on pending 
legislation. Veterans Education Success (VES) is a non-profit 
organization that works to advance higher education success for all 
military-affiliated students, and provides free counseling and legal 
assistance to students using their GI Bill and military benefits.
    We greatly appreciate the dedication and hard-work the Subcommittee 
has put into these crucial pieces of legislation. We believe that many 
of these bills are excellent and vitally needed to help veterans, 
servicemembers, and their families successfully utilize their hard-
earned GI Bill benefits.
    We are pleased to offer the following comments regarding the bills 
being introduced:

Draft Legislation to require that educational institutions abide by 
    Principles of Excellence

    VES strongly supports this bill, which would align the Department 
of Veterans Affairs' (VA) with the Departments of Defense (DoD) and 
Department of Education (ED) by codifying VA's Principles of 
Excellence. This bill would give VA clear authority to ensure schools 
are abiding by VA's Principles of Excellence for institutions of higher 
education.
    Currently, VA's Principles of Excellence are only voluntary, making 
them unenforceable by VA. In contrast, DoD and ED currently have 
contractual power to cut off schools that fail to abide by their 
requirements. ED requires institutions receiving Federal student aid to 
sign a ``Program Participation Agreement.''\1\ Signing the agreement 
means a school certifies it will comply with statutes, regulations, and 
policies, including financial responsibility standards and program 
integrity rules such refraining from making ``substantial 
misrepresentations'' to recruit students. These agreements empower the 
Secretary of Education to revoke a school's eligibility or impose 
limitations on a school's participation in Title IV.
---------------------------------------------------------------------------
    \1\ U.S. Department of Education, Sec. 668.14 Program Participation 
Agreement, December 31, 1999, available at https://ifap.ed.gov/
regcomps/doc4072--bodyoftext.htm.
---------------------------------------------------------------------------
    Similarly, DoD requires institutions participating in Tuition 
Assistance to sign a ``Memorandum of Understanding'' (MOU). This MOU 
specifies rules and prohibitions related to deceptive recruiting and 
other practices, and explicitly incorporates ED's program integrity 
requirements. These requirements apply to the school itself, as well as 
to agents like third party lead generators, marketing firms, and 
companies that own or operate the school. DoD also prohibits aggressive 
recruiting, including prohibiting schools from making three or more 
unsolicited contacts (phone, email, in-person) to a servicemember or 
engaging in same-day recruitment and registration.
    We strongly support this bill and offer several suggestions for the 
Subcommittee to further improve this bill:

    <bullet>  Update the Principles of Excellence to include quality 
metrics and more current standards for schools to abide by, to ensure 
military-connected students using GI Bill benefits are provided 
sufficient value. (Alternatively, the Subcommittee could direct VA to 
undertake a process to update the Principles of Excellence in 
conjunction with input from stakeholders).
    <bullet>  Give VA guidance in determining what constitutes a 
violation of the Principles of Excellence, as many instances may be 
murky. For example, the Subcommittee could direct the VA Secretary to 
consider such factors as Federal or state agency punitive action or 
legal action against a school; the existence of a final court or 
administrative judgment against the school; whether a school's 
accrediting agency has taken punitive action against the school or 
raised questions about the school's validity (such as probation, a 
show-cause order, or requiring a teach-out plan for closing); whether 
the US Securities and Exchange Commission (SEC) has taken actions taken 
against a publicly traded college or de-listed its stock; and whether 
student complaints filed on the GI Bill Feedback system suggest a 
pattern of school violation of one of the Principles of Excellence.
    <bullet>  Give VA intermediate authority (cutting off new 
enrollments rather than both current and new enrollments) where the 
violation is not egregious. For example, the Subcommittee could add 
language authorizing VA to also ``suspend approval of new enrollments, 
depending on the Secretary's discretion.''
    <bullet>  Provide VA an implementation process, such as: ``VA shall 
post a caution flag and notify the institution it has 30 days to come 
into compliance; if the school is still not in compliance after 30 
days, VA shall suspend new enrollments; if the school is still not in 
compliance after 90 days, then the Secretary shall disapprove all 
enrollments.''
    <bullet>  Regarding lead generators, rewrite the language (at page 
3 line 1) to read ``has a contractual relationship with the 
institution,'' because lead generators do not ``own'' schools but 
rather have a contractual relationship with them. Similarly, we 
encourage the Subcommittee to address the problem of for-profit 
conversions by adding ``or any entity that owns an educational 
institution'' (on page 2, line 25).
    <bullet>  Section 2.B.ii.II, banning incentive compensation, may be 
superfluous because similar language was enacted by the Committee in 
2012 as PL 112-249, Sec. 2. But we defer to the Subcommittee on the 
necessity of including this provision.

    We suggest the Subcommittee work to merge this bill with section 3 
of the draft Student Veteran Empowerment Act, also before the 
Subcommittee today.

Draft Legislation: ``Student Veteran Empowerment Act''

    Veterans Education Success strongly supports this bill.
    Section 2: Restoration of GI Bill for Closed Schools:
    We strongly support this provision, which would give full GI Bill 
restoration to all veterans at closed schools and disapproved schools.
    Importantly, this bill would give GI Bill students parity with non-
veteran students. Veterans should have the same rights as their non-
veteran peers. At ED, students are entitled to reinstatement of their 
Pell Grants and forgiveness of their student loans if their school 
closed while they attended or within 120 days of their attendance.
    VES has the following suggestions to strengthen this section:

    <bullet>  Make restoration of benefits retroactive to cover 
veterans who might fall through the cracks because their schools closed 
between August 16, 2017 (the date the Colmery Forever GI Bill became 
law), and the enactment of this bill.
    <bullet>  Specify that GI Bill restoration is not available to 
veterans who transfer ``to a comparable course'' at a new school.
    <bullet>  As currently written, the bill implies the veteran loses 
out on GI Bill restoration if he transfers even one credit out of 30 
total credits. We suggest adding a threshold minimum number or percent 
of transferred credits before the veteran loses out on full 
restoration. The Subcommittee could also offer proportional restoration 
based on the number of credits transferred. We also suggest the 
Subcommittee add a time limit on the transfer window (e.g., if the 
veteran hasn't transferred credits within 6 months of the school 
closing).
    <bullet>  Give student veterans the same rights as those using ED's 
TItle IV funds by restoring GI Bill benefits for beneficiaries who were 
defrauded by their school. Significant law enforcement evidence exists 
documenting fraud against veterans by bad actor colleges.\2\ At ED, 
students receive forgiveness of their student loans if their school 
took out loans in their name without their permission or signed their 
name without their knowledge (``False Certification''), wrongly 
enrolled students in a program they could not benefit from (``Ability 
to Benefit''), or deceived them (``Borrower Defense'').
---------------------------------------------------------------------------
    \2\ See Law Enforcement Actions against Predatory Colleges, 
Veterans Education Success, available at https://
static1.squarespace.com/static/556718b2e4b02e470eb1b186/t/
5acba2540e2e72f4e5d5d067/1523294804610/Law+Enforcement+List.FINAL.pdf ; 
20 state Attorneys General letter to Chairman Bobby Scott detailing 
recent actions taken by the states, April 22, 2019, available at http:/
/www.marylandattorneygeneral.gov/News%20Documents/042419--Letter--for--
profit--colleges.pdf.

    Section 3: Additional Requirements for Approval of Educational 
Institutions:
    We strongly support this section, which would add additional 
requirements for VA approval of accredited educational institutions. 
This would keep GI Bill funds from flowing to schools that other 
Federal agencies have found to be acting in a fraudulent manner.
    We suggest the Subcommittee work to merge this bill with the 
Principles of Excellence bill also before the Subcommittee today.
    We have the following suggestions to strengthen this bill:

    <bullet>  Strengthen subparagraph (4) to require not only that the 
program be eligible for Title IV, but also that the program be actually 
approved by ED and operating under a Title IV Program Participation 
Agreement. This ensures helpful oversight by ED of the school's 
financial stability and program integrity. The Subcommittee could do 
this by mirroring Congress' language in 10 USC Sec.  2006a: ``and has 
entered into, and is complying with, a Program Participation Agreement 
under section 487 of such Act (20 U.S.C. Sec.  1094).''\3\ In addition, 
it would be prudent to mirror the DoD MOU for schools, which explicitly 
requires that an institution be in compliance with program integrity 
requirements consistent with sections 668.71 through 668.75 and 668.14 
of Title 34, Code of Federal Regulations ``..... and refrain from high-
pressure recruitment tactics such as making multiple unsolicited 
contacts (3 or more)... and engaging in same-day recruitment and 
registration.''\4\
---------------------------------------------------------------------------
    \3\ See 20 U.S.C. Sec.  1094.
    \4\ See DoD MOU Between DoD Office of the USD (P&R) and Educational 
Institution and Service-Specific Addendums, available at https://
s3.amazonaws.com/dodmou/dodmouWeb site/documents/DoDMOU+3+SAMPLE+July--
10--2015.pdf
---------------------------------------------------------------------------
    <bullet>  Strengthen subparagraph (5) by clarifying definitions and 
a process for VA to handle schools that violate the Principles of 
Excellence, as suggested above for the Principles of Excellence bill.
    <bullet>  We note that some of our Veteran Service Organizations 
(VSO) partners are worried that some high-quality schools may not sign 
on to the Principles of Excellence. We would not oppose the addition to 
subparagraph (5) of a timeline and process by which VA could 
collaborate with highly-regarded schools to ensure their participation. 
We also would support revisions to the substance of the Principles of 
Excellence, to ensure they protect student veterans and weed out 
predatory schools while not presenting obstacles to high-quality, 
highly-regarded schools.
    <bullet>  Consider requiring private schools to charge VA a tuition 
that is no more than double the amount the school spends on student 
instruction. Congress previously required public colleges to charge VA 
no more than the in-state tuition rate for all veterans - even out of 
state veterans. Similarly, the Subcommittee could require all private 
colleges (or simply all colleges) to cap the amount they charge VA for 
tuition to no more than double the amount the school actually spends on 
the student's instruction. Currently, some colleges redirect GI Bill 
dollars away from student education and towards unscrupulous spending 
on things like deceptive, late night TV ads. Of the ten colleges 
receiving the most Post 9/11 GI Bill tuition payments from Fiscal Years 
(FY) 2009-2017, totaling $5.4 billion, seven spent less than one-third 
of students' tuition and fees on education. These same schools produced 
graduation rates lower than 28% and only half of those who graduated 
earned more income than a high school graduate.\5\
---------------------------------------------------------------------------
    \5\ Veterans Education Success, Should Colleges Spend the GI Bill 
on Veterans' Education or Late Night TV Ads? And Which Colleges Offer 
the Best Instructional Bang for the GI Bill Buck?, April 19, 2019, 
available at https://vetsedsuccess.org/research-and-reports/ves/should-
colleges-spend-the-gi-bill-on-veterans-education-or-late-night-tv-ads-
and-which-colleges-offer-the-best-instructional-bang-for-the-gi-bill-
buck/.
---------------------------------------------------------------------------
    <bullet>  Close a loophole in 38 U.S.C., Sec.  3676 (``Career Ready 
Student Veterans Act'') by inserting ``specialized'' before 
``accrediting agency'' in paragraphs (14)(B) and (15)(B). The Career 
Ready Student Veterans Act forbids GI Bill approval of programs that 
leave graduates ineligible for licensing in occupations that require a 
license (such as registered nurses and electricians). Congress' goal 
was to ensure GI Bill benefits are not wasted on a program where the 
graduate is ineligible for the job he thought he trained for. A 2018 
VES report found that the Act's intended ban had a loophole regarding 
law schools not approved by the American Bar Association (ABA).\6\ Many 
such law schools operate in California, many of them online. GI Bill 
students who graduate from one of these law schools are generally not 
able to practice law in their state of residence. The General Counsel 
for California's State Approving Agency (SAA) concluded that the 
wording of the Career Ready Student Veterans Act did not specifically 
call for accreditation by a ``specialized'' accreditor, such as the 
ABA. Rather, the statute specifies only that a school must be 
accredited by an organization recognized by the Secretary of Education. 
Because law schools not recognized by the ABA may nevertheless be part 
of a larger university that has institutional accreditation by an 
organization recognized by the Secretary, the California SAA's General 
Counsel directed its SAA that the Career Ready Student Veterans Act ban 
was unenforceable against these unrecognized law schools.
---------------------------------------------------------------------------
    \6\ Veterans Education Success, Despite a 2016 Statute, the GI Bill 
Still Pays for Degrees that Do Not Lead to a Job, December 2018, 
available at https://vetsedsuccess.org/research-and-reports/ves/ves-
report-despite-a-2016-statute-the-gi-bill-still-pays-for-degrees-that-
do-not-lead-to-a-job/; see generally Veterans Education Success, The GI 
Bill Pays for Degrees that Do Not Lead to a Job, September 2015, 
available at https://vetsedsuccess.org/research-and-reports/ves/the-gi-
bill-pays-for-degrees-that-do-not-lead-to-job/.

    Section 4: Oversight of Educational Institutions Placed on 
Heightened Cash Monitoring Status by Secretary of Education:
    We strongly support this section, which would require SAAs to 
perform risk-based oversight of any school under Education Department 
monitoring or US Justice Department (DOJ) or Federal Trade Commission 
(FTC) legal action for misleading students. This bill is needed to 
ensure SAAs undertake proper risk-based program reviews, especially in 
the aftermath of high-profile DOJ and FTC legal action against schools 
in recent years, without proper review by SAAs of the appropriateness 
of continued VA approval of the schools.
    In December 2018, the VA Office of Inspector General (OIG) 
conducted an audit of the VA and SAAs, concluding VA could waste an 
estimated $2.3 billion over the next 5 years in GI Bill funds flowing 
to schools that should not be approved.\7\ The OIG highlighted the 
problem of colleges that utilize potentially misleading, deceptive, or 
erroneous advertising practices.\8\ Yale Law School raised similar 
concerns in its report, ``VA's Failure to Protect Veterans from 
Deceptive College Recruiting Practices.''\9\
---------------------------------------------------------------------------
    \7\ Department of Veterans Affairs, Office of the Inspector 
General, VA's Oversight of State Approving Agency Program Monitoring 
for Post-9/11 GI Bill Students, December 3, 2018, available at https://
www.va.gov/oig/pubs/VAOIG-16-00862-179.pdf.
    \8\ Id.
    \9\ Yale Law School Veterans Legal Services Clinic, Memorandum Re: 
VA's Failure to Protect Veterans from Deceptive Recruiting Practices, 
February 26, 2016, available at https://law.yale.edu/system/files/area/
clinic/document/vlsc--ves-memo.pdf.
---------------------------------------------------------------------------
    We offer the Subcommittee the following recommendations to 
strengthen the bill:

    <bullet>  Add time limits, to ensure there are not lengthy delays. 
For example, the Subcommittee could require the Secretary to alert SAAs 
``within 30 days'' and could require the SAA to complete the risk-based 
review ``within 90 days.''
    <bullet>  Clarify what is entailed in an SAA ``oversight visit'' to 
ensure the SAA undertakes a thorough review to protect GI Bill funds.
    <bullet>  Expand the triggers for SAA review beyond DOJ and FTC 
legal action for ``misleading marketing status.'' If DOJ sues a school 
for defrauding the Federal government (but not for misleading 
marketing), as it did in the case of Education Management 
Corporation,\10\ or if DOJ sends the owners of a college to jail for 
defrauding ED, as it did in the case of American Commercial 
College,\11\ or if ED cuts off a school entirely for stealing Federal 
student aid, as it recently did with Argosy, it would be prudent for 
the Subcommittee to require careful SAA review. None of these cases 
involved ``misleading marketing,'' but it would nevertheless be prudent 
for the Subcommittee to require careful examination of such colleges' 
trustworthiness to receive VA funds.
---------------------------------------------------------------------------
    \10\ UPI News, ``For-Profit College Must Pay $200M to Forgive 
Student Loans, Pay Settlement,'' (Nov. 17, 2015), available at https://
www.upi.com/Top--News/US/2015/11/17/For-profit-college-must-pay-200M-
to-forgive-loans-pay-settlement/7611447773298/
    \11\ Department of Justice Press Release, American Commercial 
Colleges, Inc. And Its President Sentenced On Federal Charges, October 
2, 2014, available at https://www.justice.gov/usao-ndtx/pr/american-
commercial-colleges-inc-and-its-president-sentenced-federal-charges.

    Similarly, it would be prudent for the Subcommittee to require 
careful examination following any official state or action against a 
school, such as when a state agency halts new enrollments or revokes 
the certificates of 22 programs offered by a school, as the Texas 
Workforce Commission did after finding American Technical College had 
willfully filed false job placement numbers.\12\ More recently, a 
bipartisan group of 49 state Attorneys General sued Career Education 
Corporation for operating colleges that defrauded students.\13\ 
Similarly, some states have cut off schools for fraud. State action, 
alone, should warrant at least some examination of a school's 
trustworthiness to receive VA funds.
---------------------------------------------------------------------------
    \12\ Forbes, ``For-loss education: How investors, lenders stand to 
lose everything in ATI Enterprises,'' January 17, 2013, available at 
https://www.forbes.com/sites/spleverage/2013/01/17/for-loss-education-
how-investors-lenders-stand-to-lose-everything-in-ati-enterprises/
#5da6453f374d; US Senate Committee on Health, Education, Labor and 
Pensions, ``For-Profit Higher Education: The Failure to Safeguard the 
Federal Investment and Ensure Student Success'' (2012).
    \13\ Iowa Attorney General Press Release, For-profit school to 
forgo collecting loans, change practices in agreement with Miller, 48 
AGs, January 3, 2019, available at https://www.iowaattorneygeneral.gov/
newsroom/for-profit-school-education-cec-career-ags-intercontinental/.
---------------------------------------------------------------------------
    We respectfully urge the Subcommittee to add the following triggers 
for careful oversight by SAAs:

    <bullet>  Law enforcement action against a school or its owners;
    <bullet>  Federal, state, or local government action against a 
school or its owners;
    <bullet>  Final court or administrative judgment against a school 
or its owners;
    <bullet>  Accrediting agency action against a school (e.g., 
probation, a show-cause order, or a teach-out plan);
    <bullet>  SEC action against a publicly traded school (including 
delisting its stock);
    <bullet>  VA OIG audit or investigation concerns;
    <bullet>  More than 50 student complaints on the GI Bill Feedback 
System;

    <bullet>  Poor outcomes for students, especially schools that leave 
students with abysmal job placement rates and earning less than a high 
school graduate; and
    <bullet>  Extremely low percent of tuition spent on actual student 
instruction, with most GI Bill funds being diverted away from veterans.
    <bullet>  Authorize the VA Secretary to act immediately to suspend 
enrollments, without SAA review, if there has been egregious behavior. 
For example, when ED determined that Argosy had stolen Title IV funds 
and immediately cut off the school, VA expressed that it lacked 
authority to act in the wake of the ED's action, thereby leaving VA 
funds at risk.
    <bullet>  Add caution flags on the GI Bill Comparison Tool so 
student veterans may be better informed. Ideally, the Subcommittee 
would also add a risk-index to the GI Bill Comparison Tool so that 
students are aware of schools that pose a risk to their benefits.
    <bullet>  Strengthen the existing ban on deceptive and misleading 
advertising and recruiting in 38 USC Sec.  3696. In December 2018, the 
VA's OIG reported that VA could waste an estimated $2.3 billion in 
improper payments to ineligible programs over the next 5 years.\14\ The 
risk was particularly high at schools that appeared to be in violation 
of 38 USC Sec.  3696, and the OIG expressed concern that VA is not 
adequately implementing Sec.  3696. Yale Law School raised the same 
concern in its report, ``VA's Failure to Protect Veterans from 
Deceptive College Recruiting Practices,'' as did VSOs and MSOs in two 
letters to the Secretary.\15\ The statute could be clarified and 
strengthened by amending it to:
---------------------------------------------------------------------------
    \14\ Department of Veterans Affairs, Oversight of State Approving 
Agency Program Monitoring for Post-9/11 GI Bill Students, December 3, 
2018, available at https://www.va.gov/oig/pubs/VAOIG-16-00862-179.pdf.
    \15\ See Letter to VA Secretary (Feb. 14, 2019), available at 
https://static1.squarespace.com/static/556718b2e4b02e470eb1b186/t/
5c6db4db1905f4690dd06f6f/1550693596300/VSO+Letter+to+VA+Secretary-
1.pdf; Letter to VA Secretary (May 16, 2016), available at: https://
static1.squarespace.com/static/556718b2e4b02e470eb1b186/t/
5744bdfc2eeb81f2ceb68358/1464122877006/
VSO+MSO+Letter+to+VA+Secretary+re+GI+Bill+oversight.Signed+%281%29.pdf.

    <bullet>  Define ``preliminary findings'' in 38 U.S.C. Sec.  
3696(c) as ``Any federal, state, or local government lawsuit, or any 
qui tam legal action'';
    <bullet>  Clarify ``erroneous, deceptive or misleading'' in 38 
U.S.C. Sec.  3696(a) by including automatic triggers (e.g., any Federal 
or state evidence of consumer protection violations; a final court or 
administrative judgment following a lawsuit for misleading or deceptive 
recruiting; or a threshold of student complaints filed);
    <bullet>  Provide VA with a strict timeline to act (e.g., ``must 
undertake review within 90 days of learning of a law enforcement 
investigation or receiving student complaints'');
    <bullet>  Address VA's fear of disrupting current student 
enrollments by adding an option for barring ``new enrollments'' (vs. 
current enrollments);
    <bullet>  Reassure VA about student relief by citing ``student 
relief shall be in accordance with Forever GI Bill Colmery Act''; and
    <bullet>  Explicitly empower SAAs to cut off schools that are in 
violation of 3696, as SAAs currently believe they lack authority to 
act.

    Section 5: Verification of Enrollment for Purposes of Receipt of 
Post-9/11 Educational Assistance
    We support this section of the bill that requires monthly 
verification of Post-9/11 GI Bill enrollment, as the Montgomery GI Bill 
(MGIB) already does. The US Government Accountability Office (GAO) 
recommended exactly this solution (monthly verification of Post-9/11), 
as one of its eight recommendations, to solve the problem of GI Bill 
overpayments, which cost $416 million in FY 2014, affecting one in four 
GI Bill students.\16\ Currently, veterans incur significant amounts of 
overpayments between the time the student drops a course and the 
verification occurs much later. This has a negative impact on veterans 
as well as on taxpayers.
---------------------------------------------------------------------------
    \16\ U.S. Government Accountability Office, Post 9/11 GI Bill: 
Additional Actions Needed to Help Reduce Overpayments and Increase 
Collections, October 2015, available at https://www.gao.gov/assets/680/
673230.pdf.
---------------------------------------------------------------------------
    We offer the following suggestion to strengthen this bill:

    <bullet>  Consider shifting the monthly reporting burden from 
students to the schools, a process schools already do regularly for 
students using Title IV student aid.

Draft Legislation authorizing VA to require Letters of Credit

    VES strongly supports this bill, which would give VA Letter of 
Credit authority similar to ED's, allowing VA to collect money from a 
failing school's line of credit, to help cover GI Bill restoration. 
This bill would thereby ease the burden on taxpayers to fund the cost 
of restoring GI Bill benefits to veterans at colleges that suddenly 
close or are disapproved.
    By enabling VA to have the funds to cover benefit restoration for 
VA students, this bill also would enable parity for VA students with 
students at ED. Currently, veterans at closed and disapproved schools 
are entitled to restoration of only the current (interrupted) term of 
GI Bill benefits (except for schools that closed from 2015 to August 
16, 2017, such as ITT Tech and Corinthian, for whom the Forever GI Bill 
provided full restoration of benefits).\17\
---------------------------------------------------------------------------
    \17\ See Department of Veterans Affairs, Restoration of Benefits 
After School Closure or if a School is Disapproved for GI Bill 
Benefits, available at https://www.benefits.va.gov/gibill/fgib/
restoration.asp.
---------------------------------------------------------------------------
    In contrast, ED provides the following protections to students 
receiving Federal student aid:

    <bullet>  Reinstatement of their Pell Grants;\18\
---------------------------------------------------------------------------
    \18\ See U.S. Department of Education, October 28, 2016, available 
at https://www.help.senate.gov/imo/media/doc/
ED%20response%20to%20Senator%20Murray.pdf.
---------------------------------------------------------------------------
    <bullet>  Forgiveness of their student loans if their school closed 
while they attended or closed within 120 days of their attendance and 
if they do not transfer their credits to a similar program;\19\
---------------------------------------------------------------------------
    \19\ See If your school closes while you're enrolled or soon after 
you withdraw, you may be eligible for discharge of your Federal 
student, available at https://studentaid.ed.gov/sa/repay-loans/
forgiveness-cancellation/closed-school.
---------------------------------------------------------------------------
    <bullet>  Forgiveness of their student loans if their school took 
out loans in their name without their permission or signed their name 
without their knowledge (``False Certification'') or wrongly enrolled 
them in a program they could not benefit from (``Ability to 
Benefit'');\20\ and
---------------------------------------------------------------------------
    \20\ See Department of Education, ``In certain situations, you can 
have your Federal student loan forgiven, canceled, or discharged,'' 
available at https://studentaid.ed.gov/sa/repay-loans/forgiveness-
cancellation#false-certification.
---------------------------------------------------------------------------
    <bullet>  Forgiveness of their student loans if their school 
deceived them (``Borrower Defense'').\21\
---------------------------------------------------------------------------
    \21\ See Department of Education, ``Borrowers may be eligible for 
forgiveness of the Federal student loans used to attend a school if 
that school misled them or engaged in other misconduct in violation of 
certain laws,'' available at https://studentaid.ed.gov/sa/repay-loans/
forgiveness-cancellation/borrower-defense.

    ED pays for these student protections, in part by requiring 
``Letters of Credit'' (guaranteed by a bank or financial institution) 
from colleges. ED requires such Letters of Credit for assorted reasons, 
including financial stability; letters of credit range in amount from 
10% of the Federal student aid received by the school to a higher 
percentage.\22\ The letters protect students and taxpayers from having 
to cover liabilities caused by a school. If the school closes, ED may 
draw funds from the credit to cover expenses, such as Pell Grant 
restoration and student loan cancellation costs.
---------------------------------------------------------------------------
    \22\ See Department of Education, ``Financial Responsibility 
Standards Requiring a Letter of Credit,'' available at https://
studentaid.ed.gov/sa/about/data-center/school/loc.
---------------------------------------------------------------------------
    VES has the following recommendation to strengthen this bill:

    <bullet>  As drafted, the bill requires VA to review schools' 
financial stability. We are concerned VA lacks the bandwidth and 
expertise to study school financial stability. In contrast, ED 
maintains a team of experts dedicated to studying the financial 
stability of schools. Therefore we urge the Subcommittee to remove the 
burden from VA by turning the bill into a simple trigger mechanism in 
which VA would be prompted by an ED decision: If ED has determined a 
school is not financially stable and should post a letter of credit 
worth 10% of Title IV funds received by the school, then VA should be 
automatically triggered to similarly require the school to post a 
letter of credit worth 10% of GI Bill funds received by the school. In 
this way, VA (and the taxpayers funding the GI Bill) would have the 
same authority as ED with access to bank-guaranteed funds to cover 
liabilities caused by a school closure.

Draft Legislation: ``Forever GI Bill Class Evaluation Act''

    VES supports this bill, which would defer disbursement of GI Bill 
payments until 14 days after the start of the academic term. This bill 
would address two problems: It would stop the incentive for recruiters 
at low-quality, predatory schools to target veterans, and it would 
address the problem of GI Bill overpayments.
    Currently, VA disburses GI Bill tuition to a school for the entire 
term after a student sits for just 1 day of class. If students drop out 
after the first day, the school still gets the tuition and fees for the 
entire term. This incentivizes predatory schools to use deceptive 
tactics to convince military-connected students to sit for just 1 day. 
This ``Just 1 Day'' mentality leads unscrupulous schools to focus 
primarily on convincing a veteran to enroll, rather than on the 
academic success of their students. Many such schools explicitly adopt 
a business model called ``churn,'' in which they plan for students to 
drop out quickly, so they focus on quick and short enrollments. This 
causes significant waste, fraud, and abuse of a student's hard-earned 
education benefits and taxpayer dollars. Passage of this bill would 
stop schools from receiving a veteran's entire term of GI Bill benefits 
after just one day of classes. It would require schools to demonstrate 
sufficient quality so that students do not drop out in the first 14 
days.
    This bill also would provide a grace period for students as they 
navigate the ``add/drop period'' at the beginning of a term so they can 
choose their classes and determine their course load. This would enable 
veterans to figure out how many classes they can manage during a 
semester, rather than signing up for too many credits. It would also 
help solve the problem of GI Bill ``overpayments,'' in which VA has 
paid out more in tuition and fees than the student's course load 
requires. GAO reported that GI Bill overpayments cost $416 million in 
FY 2014, affecting one in four GI Bill students.\23\ A major cause of 
GI Bill overpayments is the way VA pays out the full term of GI Bill 
after a veteran sits for just one day of class. Should a student using 
GI Bill benefits withdraw from classes after that first day, the school 
has already accrued the entire term of GI Bill funds, creating an 
``overpayment'' of GI Bill funds by VA.
---------------------------------------------------------------------------
    \23\ U.S. Government Accountability Office, Post 9/11 GI Bill: 
Additional Actions Needed to Help Reduce Overpayments and Increase 
Collections, October 2015, available at https://www.gao.gov/assets/680/
673230.pdf.
---------------------------------------------------------------------------
    In contrast, ED prorates the amount of tuition the school has 
``earned'' during the term, up until 60 percent of the semester has 
passed (after the 60 percent cutoff, a school is viewed as having 
earned 100 percent of the term of Title IV funds). ED handles 
overpayments by adjusting future disbursements to reflect past 
overpayments.
    VES has the following recommendation to strengthen the bill:

    <bullet>  To further address the problems of GI Bill overpayments 
identified by GAO: Because schools receive GI Bill tuition payments 
directly from VA, we urge the Subcommittee to direct VA to collect 
tuition overpayments from the schools, not the students. Currently, VA 
claws back GI Bill tuition overpayments from students, not from 
schools, even though the school received the tuition payments.\24\ This 
policy places the veteran in the position of having to come up with 
tens of thousands of dollars in cash to pay VA for an overpayment, even 
though the student never handled a dime of that tuition money. To 
recoup GI Bill overpayments from students, VA currently can garnish a 
veteran's tax returns and withhold a veteran's disability payments, as 
well as report debts to credit rating agencies. Such actions can cause 
unbelievable stress and hardship on veterans. For example, in 2017, 
Task and Purpose published a story about Lance Corporal Brian Easley 
who was killed by police in an armed stand-off.\25\ Easley was driven 
to this point in part because of his dependence on his disability check 
from the VA, which had been garnished due to overpayments for classes 
he had taken a year before. The school Easley attended was known for 
overcharging veterans and having abysmal outcomes for their programs. 
While veterans should be responsible for repaying any overpayment on 
the housing allowance they receive directly from VA, they should not be 
held responsible for any overpayments on tuition made directly to the 
schools.
---------------------------------------------------------------------------
    \24\ See 38 USC Sec.  3680 (e).
    \25\ Task and Purpose, They Didn't Have To Kill Him: The Death of 
Lance Corporal Bian Easley, Aaron Gell, April 9, 2019, available at 
https://taskandpurpose.com/didnt-kill-death-lance-corporal-brian-
easley.

Draft Legislation to extend the time period under which an election 
---------------------------------------------------------------------------
    must be made for Montgomery GI Bill Enrollment

    VES supports this bill, which would extend the amount of time 
available to servicemembers to consider their options before they are 
confronted with the choice of opting-out of the MGIB.
    We have two suggestions to further improve this bill:

    <bullet>  In 2015, The US Military Compensation and Retirement 
Modernization Commission recommended to Congress that the ``Montgomery 
GI Bill - Active Duty (Chap. 30, 38 U.S.C) should be sunset.''\26\ The 
Commission stated that ``duplicative education assistance programs 
should be sunset to reduce administrative costs and to simplify the 
education benefit system.''\27\ We agree, and encourage the 
Subcommittee to sunset the MGIB.
---------------------------------------------------------------------------
    \26\ VES Statement for the Record on Legislative Priorities for the 
115th Congress, March 22, 2017, available at https://vetsedsuccess.org/
wp-content/uploads/2019/01/march-2017-ves-legislative-priorities-
svac.pdf.
    \27\ Politico, Thousands in GI Bill fees paid by recruits for 
`essentially no reason at all,' Kimberly Hefling, July 10, 2019, 
available at https://www.politico.com/story/2019/07/10/thousands-in-gi-
bill-fees-paid-by-recruits-for-essentially-no-reason-at-all-1561175 
(quoting the 2015 Commission).
---------------------------------------------------------------------------
    <bullet>  We also urge the Subcommittee to strengthen the bill by 
changing the MGIB election from opt-out to opt-in, so that 
servicemembers have to actively opt-in if they want MGIB. Last fiscal 
year,70% of new recruits failed to opt-out of the MGIB.\28\ These 
servicemembers pay $100/month ($1200/year), but only 3% end up using 
MGIB, and only a small percentage who use Post-9/11 GI Bill are able to 
get their $1200 back because they must meet strict requirements.\29\ In 
essence, the $1,200 payroll reduction operates as a ``troop tax,'' 
whereby Uncle Sam is taking advantage of first-year servicemembers.
---------------------------------------------------------------------------
    \28\ US Consumer Financial Protection Bureau, What does the Coast 
Guard know about the GI Bill that the other services do not?, Patrick 
Campbell, December 12, 2017, available at https://
www.consumerfinance.gov/about-us/blog/what-does-coast-guard-know-about-
gi-bill-other-services-do-not/.
    \29\ Supra note 24.

---------------------------------------------------------------------------
Draft Legislation to authorize SAAs to carry out outreach activities

    We do not oppose SAA outreach activities, but question the 
importance of it, given the VA OIG's recent conclusion that SAAs will 
waste $2.3 billion over the next 5 years in GI Bill payments to schools 
that should not be approved for GI Bill, but nevertheless are. The VA 
OIG estimated 86% of SAAs ``did not adequately oversee the education 
and training programs.''
    SAAs have consistently expressed (including to this Subcommittee) 
that they are stretched too thin, with a heavy workload of compliance 
surveys, which has limited their ability to conduct robust college 
oversight and risk-based reviews. This has enabled fraudulent colleges 
to continue receiving GI Bill benefits, when they should not, including 
schools sued by DOJ for defrauding ED or cut off from ED for stealing 
Title IV funds. We urge the Subcommittee to encourage SAAs to dedicate 
their time and attention to risk-based program reviews and college 
oversight.

Draft Legislation: ``GI Bill Access to Career Credentials Act''

    This bill would authorize GI Bill funds to pay for preparatory 
classes for professional licenses and certifications. As currently 
drafted, this bill is vulnerable to abuse by subpar licensing prep 
companies. VES has the following suggestion to resolve this 
vulnerability:

    <bullet>  Add quality controls so that GI Bill benefits are not 
wasted on licensing and certification preparatory classes that do not 
meet government requirements for licensing and certification. We 
suggest the Subcommittee adopt the unanimous Congressional quality 
control language from 10 USC Sec.  2006a: ``and which meets the 
instructional curriculum licensure or certification requirements of the 
State or is a program approved or licensed by the State board or 
agency.''
    We would support this bill if such quality control language were 
added.

Draft Legislation to increase the monthly housing stipend for online 
    education

    We oppose this bill because it is likely to incentivize online 
colleges to push veterans into enrolling to get a higher monthly 
allowance for housing. Students should not be making decisions related 
to education based on how much housing allowance they will receive but 
on what works best for them.
    In addition, online schools do not always provide a strong return 
on investment for students and may not leave graduates eligible to work 
in licensed jobs. VES provides free assistance to thousands of veterans 
who have told us they experienced a subpar education at an online 
college. For example, one student veteran, Brandon T, said of his 
online program:

    ``[I] was told that I could get some credits online while I worked 
so that I could transfer to a local university when I was ready. I got 
33 credits [online] using a 18 months of benefits of my post/9-11 GI 
Bill. Finally transferred to the University of South Carolina and none 
of my credits transferred.''
    Another student veteran, Deandre A., expressed a fairly common 
student concern about hidden costs at an online program:

    ``I enrolled into the online BS Psychology program and have taken 
out Student Loans along with Financial Aid and that seems to never be 
able to cover the cost of the degree which I don't quite understand. It 
seems that the closer I get to completing my degree the more money that 
has to come out of my pocket because financial aid and student loans 
don't cover the cost of the classes.''
    VES also has the following suggestion:

    <bullet>  Close the current loophole in 38 U.S.C. Sec.  
3313(c)(1)(B)(iii), which provides that individuals eligible for the 
Post-9/11 GI Bill who are pursuing a program of education on more than 
a half-time basis ``solely'' through distance learning are eligible for 
50 percent of the BAH. By taking just one class required to earn a 
certificate or degree in an actual classroom, beneficiaries qualify for 
the full BAH. This loophole has allowed schools to game the GI Bill by 
offering essentially online programs with one class offered in a 
classroom setting. To close this loophole, the statute should be 
amended to specify that a full BAH is available only to beneficiaries 
enrolled in online education who take a specific percentage of classes 
in a brick and mortar setting, for example 25 percent or 30 percent of 
their classes. Congress closed a similar loophole in 2017 by requiring 
that BAH be based on the location of the campus where the individual 
physically participates in the majority of classes, rather than on the 
zip code of the institution of higher learning where the individual is 
enrolled. The change was a response to schools with a VA facility code 
located in a high-cost area, which was used to determine the amount of 
the BAH, even though instruction took place at a branch campus in an 
area with a lower cost of living. (The transition to this new basis for 
determining living stipends was delayed because the VA was unable to 
set up a new system that accurately calculated the monthly payments.)

Draft Legislation to require proprietary educational institutions to 
    comply with Federal revenue limits

    This bill would close the 90/10 loophole in the Higher Education 
Act (HEA) by creating and then closing the same loophole in Title 38. 
Thirty-seven Veterans and Military Service Organizations wrote to 
Congress this year to say our number one collective priority for HEA 
reauthorization is to close the 90/10 loophole: ``Closing the loophole 
creates parity for military-connected students using their education 
benefits with those students using Title IV funds. It is inconsistent 
to protect some Federal funds (Title IV) from low performing schools 
and not others (VA and DoD).''\30\
---------------------------------------------------------------------------
    \30\ Letter from Thirty-Seven VSOs/MSOs to Congress sharing 
priorities for Higher Education Act reauthorization, May 2, 2019, 
available at https://static1.squarespace.com/static/
556718b2e4b02e470eb1b186/t/5cca11f91905f41be87648f5/1556746746801/
VSO+MSO+HEA+Priorities.FINAL.2May2019.pdf.
---------------------------------------------------------------------------
    The HEA's 90/10 rule stipulates that a for-profit education 
business may derive no more than ninety percent of its revenues from 
the Title IV Federal student aid.\31\ The purpose of this revenue cap 
is to force schools to prove market viability, ensuring that Federal 
student aid isn't used to prop up low quality schools that are unable 
to attract at least 10% of their revenue from private sources, 
including employers, scholarship providers, and families. The Supreme 
Court wrote that the rule's precursor was ``a device intended by 
Congress to allow the free market mechanism to operate and weed out 
those institutions [which] could survive only by the heavy influx of 
Federal payments.''\32\
---------------------------------------------------------------------------
    \31\ Title IV of the Higher Education Act of 1965 [20 USC Sec.  
1094(a)(24)]: Sec.  487(a).
    \32\ See Cleland v. Nat'l College of Business, 435 US 213 (1978).
---------------------------------------------------------------------------
    The current loophole hurting veterans was created because the GI 
Bill and DoD's Tuition Assistance program were largely dormant when the 
Federal law was written and were not enumerated in the statute as 
sources of Federal student aid.\33\ Through an accounting gimmick 
roundly criticized by state Attorneys General, for-profit colleges are 
able to count the GI Bill and DoD tuition assistance as non-federal 
revenue; as a result, they can receive up to 100% of their revenues 
from Federal funds without demonstrating market viability by support 
from employers or individuals willing to pay with their own money,\34\ 
in violation of the law's rationale upheld by the Supreme Court.
---------------------------------------------------------------------------
    \33\ See Bloomberg, For-Profit Colleges Target the Military, Daniel 
Golden, December 30, 2009, available at https://www.bloomberg.com/news/
articles/2009-12-30/for-profit-colleges-target-the-military (quoting 
Sarah Flanagan, former Senate staffer: ``When the law was enacted, for-
profits hadn't yet moved into the military market, so the legislation's 
sponsors weren't focused on Defense Dept. tuition assistance.'').
    \34\ Veterans Education Success, What is the 90/10 Loophole, 
available at https://veteranseducationsuccess.org/90-10-loophole/.
---------------------------------------------------------------------------
    We are hopeful that a bipartisan agreement to close the 90/10 
loophole will emerge through the HEA this summer. If the House and 
Senate education Committees fail to close the 90/10 loophole this year, 
we would request the Veterans Affairs Committees step in to close it by 
creating and then closing the same loophole in Title 38.
    We appreciate the Subcommittee's creative approach to closing the 
90-10 loophole and we encourage Congress to continue work to finally 
close this loophole.
    The Subcommittee could also consider exempting colleges that 
dedicate at least half of tuition to student instruction and that 
produce graduates who earn more than a high school graduate, indicating 
that the college provided some benefit to those who enrolled.

116 HR 2618: Military Spouse Residency Requirements

    We support this bill that ensures military spouses are able to 
satisfy state residency requirements. We understand that many spouses 
struggle with license portability and state residency requirements 
while they move multiple times during their spouse's military career.

116 HR 2227: ``Gold Star Spouses and Spouses of Injured Servicemembers 
    Leasing Relief Expansion Act of 2019"

    This bill would give spouses the ability to get out of leases if 
the servicemember is killed or severely injured. We support this bill. 
We note that the Office of Servicemember Affairs at the US Consumer 
Financial Protection Bureau reports complaints from servicemembers' 
spouses who are negatively affected by the situation this bill would 
help solve.

Draft Legislation: ``VA Economic Hardship Report Act''

    VES does not have expertise on this bill, which would require VA to 
study the link between veteran poverty factors and suicide rates. 
However, we have noticed suicidal comments from veterans who were 
defrauded out of their one shot at the GI Bill by predatory colleges. 
We suggest the Subcommittee consider adding GI Bill usage and success 
as a factor to study in the correlation between poverty indicators and 
veteran suicide.

116 HR 2924: ``Housing for Women Veterans Act''

    We have no particular expertise on this bill.

Draft Legislation to authorize specially adapted housing for blind 
    veterans

    We have no particular expertise on this bill.

Draft Legislation to collect overpayments of specially adapted housing 
    assistance

    We have no particular expertise on this bill.

116 HR 561: ``Protecting Business Opportunities for Veterans Act''

    We have no particular expertise on this bill.

116 HR 1615: ``Verification Alignment and Service-disabled Business 
    Adjustment Act''

    We have no particular expertise on this bill.

116 HR 716ih: ``Homeless Veterans Legal Services Act''

    We have no particular expertise on this bill.

Draft Legislation: ``Legal Services for Homeless Veterans Act''

    We have no particular expertise on this bill.
    Veterans Education Success sincerely appreciates the opportunity to 
express our views on legislation before the Subcommittee today. 
Pursuant to Rule XI2(g)(4) of the House of Representatives, Veterans 
Education Success has received no Federal grants in Fiscal Year 2019, 
nor in the two previous fiscal years.

                                 <F-dash>
                 Prepared Statement of William Hubbard
    Chairman Levin, Ranking Member Bilirakis, and Members of the 
Subcommittee:

    Thank you for inviting Student Veterans of America (SVA) to submit 
testimony on the topic of pending legislation related to veteran 
transition and economic opportunity. Established in 2008, SVA is a 
national nonprofit founded with the mission of empowering student 
veterans as they transition to civilian life; we provide student 
veterans with the resources, network support, and advocacy needed to 
succeed in higher education.
    With over 1,500 campus chapters across the United States, and in 
four countries overseas, we serve more than 750,000 student veterans 
and military-connected students. We establish a lifelong commitment to 
each student's success through local leadership workshops, national 
conferences, and top-tier employer relations. As the largest chapter-
based student organization in America, we are a force and voice for the 
interests of veterans in higher education.
    Edward Everett, our nation's 20th Secretary of State, and the 
former President of Harvard University was famously quoted as stating, 
``Education is a better safeguard of liberty than a standing army.'' 
While we have the finest military that the world has ever known, the 
sentiment remains; the importance of education to our nation's national 
security remains of paramount importance.

Draft legislation, To extend the time period under which an election 
    must be made for entitlement for educational assistance under the 
    Montgomery GI Bill

    This bill proposes to extend the deadline new military recruits 
have to decide to opt-out of the Montgomery GI Bill (MGIB) Chapter 30 
educational assistance program. SVA is in full support of this 
proposal.
    The MGIB served our nation's veterans well for many years. However, 
with the advent of the Chapter 33 Post-9/11 GI Bill, the MGIB is now 
little more than a superfluous tax on our troops. Except for a few 
niche scenarios, the Post-9/11 GI Bill provides more generous resources 
and better overall value than the MGIB. Despite this, the MGIB lingers 
on through the automatic enrollment of new servicemembers who are not 
fully informed of the differences between the two programs. Indeed, 
many of the drill instructors counseling recruits on these programs are 
unclear about the differences themselves. These new servicemembers bear 
the brunt of the cost-twelve months of reduced pay-for a benefit the 
vast majority will never use or be refunded. Taken in the context of 
the recently implemented Blended Retirement System, new members of our 
military are facing multiple competing financial strains.\1\
---------------------------------------------------------------------------
    \1\ U.S. Department of Defense, Uniformed Services Blended 
Retirement System. https://militarypay.defense.govblendedretirement/
---------------------------------------------------------------------------
    When presented time to review information on the options, 
servicemembers quickly discern which benefit is better for them. 
Between FY2014 and FY2018, 94 percent of veterans made the 
understandable choice to use the Post-9/11 GI Bill over the MGIB.\2\ 
Yet due to current service-level policies, new servicemembers are often 
automatically enrolled in the MGIB unless they submit a written request 
to opt-out within a few days of entering initial training. In the Navy, 
that deadline is two days, and in the Army they get \3\three days\4\. 
Statutory requirements suggest a short period of time after entering 
the military to pay into the MGIB fund or not, though there is no 
requirement dictating that new enlistees are mandated to pay into this 
program as a matter of policy.\5\ For example, the Army does not 
automatically enroll new officers, who are otherwise given a similar 
timeframe, though with the option to opt-in versus opt-out 
requirements.\6\ Given the importance of this decision for the 
servicemember's future, it is imperative to provide all new 
servicemembers with adequate time to weigh the costs and benefits.
---------------------------------------------------------------------------
    \2\ U.S. Department of Veterans Affairs, Veterans Benefits 
Administration. Annual Benefits Reports. (FY2014-FY2018) https://
www.benefits.va.gov/REPORTS/abr/
    \3\ Gross, Natalie. Military Times. ``Wasting money? Most new 
recruits pay $1,200 for lesser education benefit.'' December 22, 2017. 
https://rebootcamp.militarytimes.com/education-transition/education/
2017/12/22/wasting-money-most-new-recruits-pay-1200-for-lesser-
education-benefit/
    \4\ U.S. Army Human Resources Command. Montgomery GI Bill - Active 
Duty. Accessed July 2019. https://www.hrc.army.mil/content/
Montgomery%20GI%20Bill%20--%20Active%20Duty
    \5\ Cornell Law School, Legal Information Institute. 38 U.S.C. 
Sec.  3011. https://www.law.cornell.edu/uscode/text/38/3011
    \6\ U.S. Army Human Resources Command. Montgomery GI Bill - Active 
Duty. Accessed July 2019. https://www.hrc.army.mil/content/
Montgomery%20GI%20Bill%20--%20Active%20Duty
---------------------------------------------------------------------------
    We strongly believe that servicemembers would choose to opt out of 
the MGIB in favor of the Post-9/11 GI Bill if given appropriate time to 
consider their options. In FY2017, the Department of Defense (DoD) 
reported 70 percent of new servicemembers enrolled in the MGIB 
program.\7\ Department of Veterans Affairs (VA) data from that year 
shows of all VA education benefit recipients, only 4 percent used MGIB, 
while over 90 percent used Post-9/11.\8\ That trend continued in the 
following year, with MGIB usage continuing to fall to just 3 
percent.\9\ When servicemembers have time to appropriately weigh the 
benefits available to them, the overwhelming majority choose to leave 
the MGIB behind.\10\
---------------------------------------------------------------------------
    \7\ Campbell, Patrick. Consumer Financial Protection Bureau. ``What 
does the Coast Guard know about the GI Bill that the other services do 
not?'' Dec. 12, 2017. https://www.consumerfinance.gov/about-us/blog/
what-does-coast-guard-know-about-gi-bill-other-services-do-not/
    \8\ U.S. Department of Veterans Affairs, Veterans Benefits 
Administration. Annual Benefits Reports. https://www.benefits.va.gov/
REPORTS/abr/
    \9\ Ibid.
    \10\ Ibid.
---------------------------------------------------------------------------
    We consistently hear from SVA chapter members that information 
conveyed to servicemembers regarding their education benefits while in 
entry-level training is misleading or outright inaccurate. In some 
cases, new servicemembers learn about these programs from military 
leaders who use the MGIB and Post-9/11 GI Bill names interchangeably, 
further complicating the situation. As noted in a recent POLITICO 
article, it is clear that the $1,200 fee is presented as a way to ``buy 
into GI Bill benefits,'' though generally without clear guidance on 
various education programs differ.\11\
---------------------------------------------------------------------------
    \11\ Hefling, Kimberly. Politico. ``Thousands in GI Bill fees paid 
by recruits `for essentially no reason at all'.'' July 7, 2019. https:/
/www.politico.com/story/2019/07/10/thousands-in-gi-bill-fees-paid-by-
recruits-for-essentially-no-reason-at-all-1561175
---------------------------------------------------------------------------
    Public-facing Web sites of the different service branches also make 
it nearly impossible to get clear information about the nuances of the 
different options. One example pulled from the sparse information 
provided on the Navy's page on the MGIB reads, ``If you sign up and do 
not want it, there are no refunds.''\12\ On the Army's Human Resources 
page, they state, ``Monies reduced are not taxable and not refundable. 
The Soldier agrees to a reduction in pay. According to the law, it was 
money that was never in the control of the individual. The ruling is 
you cannot get a refund of money you never earned. Monies reduced 
cannot be stopped or suspended.''\13\
---------------------------------------------------------------------------
    \12\ U.S. Navy Personnel Command. MGIB FAQs. https://
www.public.navy.mil/bupers-npc/career/education/GIBill/Pages/FAQs.aspx
    \13\ U.S. Army Human Resources Command. Montgomery GI Bill - Active 
Duty. Accessed July 2019. https://www.hrc.army.mil/content/
Montgomery%20GI%20Bill%20--%20Active%20Duty
---------------------------------------------------------------------------
    Yet, in direct contradiction to these statements, acknowledgement 
forms new servicemembers sign regarding their enrollment in the MGIB 
state an individual may, ``receive a refund of that pay reduction,'' 
and then go on to list the onerous criteria one must meet in order to 
receive that refund.\14\ Uninformed servicemembers who wish to know 
whether a refund is available should be properly informed a refund is 
possible, but only under very specific conditions. Servicemembers who 
pay into the MGIB, but do not exhaust their benefits, are eligible for 
a refund of their original payment.\15\ However, due to the high bar 
for refund eligibility, few \16\veterans \17\qualify.\18\
---------------------------------------------------------------------------
    \14\ Executive Services Directorate. Form DD-2366. https://
www.esd.whs.mil/Portals/54/Documents/DD/forms/dd/dd2366.pdf
    \15\ U.S. Department of Veterans Affairs. ``Refund of the 
Montgomery GI Bill $1,200.00 buy-in for Post-9/11 GI Bill recipients?'' 
https://gibill.custhelp.va.gov/app/answers/detail/a--id/949/kw/refund
    \16\ U.S. Department of Veterans Affairs. ``Can I get a refund of 
the money that I paid into the Montgomery GI Bill?'' https://
gibill.custhelp.va.gov/app/answers/detail/a--id/180/related/1
    \17\ U.S. Department of Veterans Affairs. ``Refund of the 
Montgomery GI Bill $1,200.00 buy-in for Post-9/11 GI Bill recipients?'' 
https://gibill.custhelp.va.gov/app/answers/detail/a--id/949//refund-of-
the-montgomery-gi-bill-%241%2C200.00-buy-in-for-post-9%2F11-gi-bill
    \18\ Department of Veterans Affairs, Veterans Benefits 
Administration, Annual Benefits Reports. https://www.benefits.va.gov/
REPORTS/abr/
---------------------------------------------------------------------------
    FY2016-FY2018 VA data shows the agency averaged an annual total of 
14,407 refunds at $1,105 each, representing less than one in ten 
veterans who contributed to the MGIB. In the same timeframe, the DoD 
reported an average of over 136,000 new enrollments into the MGIB 
annually, resulting in more than $160 million dollars of revenue. In 
effect, DoD generates approximately $145 million dollars each year 
directly from our servicemembers' pockets.
    We would also encourage the Committee to consider changing the 
language of the MGIB to make it an ``opt-in'' decision instead of an 
``opt-out'' option. An eventual 10-year sunset of the program will 
conclude this program in favor of the Forever GI Bill, the Forever GI 
Bill being a much more generous program with no expiration date.\19\ 
Our servicemembers should have the ability to reach their education 
goals once they transition out of service. Making Chapter 33 the 
functional default GI Bill is not only consistent with current data on 
rates of use between the programs, but also the better option for the 
vast majority of individuals. It's time we finally end this tax on 
troops.
---------------------------------------------------------------------------
    \19\ Gross, Natalie. Military Times. ``Trump signed the `Forever GI 
Bill.' Here are 11 things you should know''. August 16, 2017.

Draft legislation, To increase the monthly housing stipend under the 
    Post-9/11 GI Bill for individuals who pursue programs of education 
---------------------------------------------------------------------------
    solely through distance learning on more than a half-time basis

    This bill proposes to eliminate the 50 percent limit on the monthly 
housing allowance (MHA) for student veterans attending an entirely 
online program at more than half-time. As a matter of policy, SVA 
supports affording veterans and their families the resources needed to 
succeed in higher education. We appreciate the intent behind this bill 
and hope to work with legislators and the Committee on continuing to 
reduce barriers for student veterans. We maintain concerns that a 
change in this policy without appropriate safeguards would incentivize 
predatory schools to further target veterans and their families.
    Removing this limit, coupled with the recent changes to the Post-9/
11 GI Bill MHA calculation that base the payment rate on the zip code 
of the school provides a financial motivation for distance-learning 
programs in high-MHA areas to seek out and prey upon student veterans 
living in low-MHA areas.\20\ In a practical sense, if a student veteran 
can enter similar online programs anywhere in the country, an outsized 
MHA would be an attractive reason to choose one program over another. 
Many low-quality distance-learning programs are likely to seize on this 
change as an opportunity to maximize their enrollments.
---------------------------------------------------------------------------
    \20\ U.S. Department of Veterans Affairs, Veterans Benefits 
Administration, Education and Training. https://www.benefits.va.gov/
GIBILL/resources/benefits--resources/rates/ch33/
ch33rates080118.asp#HOUSING
---------------------------------------------------------------------------
    In the context of the existing higher education framework for 
student veterans, it is easy to see how the chain of abusive and 
predatory practices is given a new link. We will see distance-learning 
programs incentivizing higher-MHA to lower-MHA student veterans whose 
enrollment, resulting from the 90-10 loophole; this practice ultimately 
grants programs access to even greater Title IV funds. In turn, this 
will grow the bottom-line of these programs which, then provide further 
resources for targeted recruitment of student veterans. The end result 
is for bad actor programs having additional resources to repeat this 
predatory cycle. This cycle of abuse and predation is not beneficial 
for student veterans and their families, and we encourage the Committee 
to investigate other ways to better serve our student veterans' housing 
needs.

Draft legislation, To require that certain educational institutions 
    have letters of credit as a condition of approval for VA education 
    benefits

    This bill proposes to require a letter of credit (LOCs) from 
institutions of higher learning (IHLs) as a condition of approval for 
participation in VA's educational assistance programs. SVA is in strong 
support of this concept, and recommend several improvements to 
strengthen the proposal. We believe VA should be afforded additional 
authority to safeguard student veterans from institutions that display 
poor financial health. VA seemingly lacks the authority and funding to 
make all student veterans whole after a school closes, and is instead 
limited to providing restitution for the semester of closure.\21\ This 
stands in stark contrast to the Department of Education's \22\(ED) 
restitution\23\ authorities\24\. This bill would allow VA to collect 
funds from a failing institution, which is a time-tested model of 
fiscal stewardship that SVA would be glad to see properly implemented.
---------------------------------------------------------------------------
    \21\ U.S. Department of Veterans Affairs, Veterans Benefits 
Administration, Education and Training. https://www.benefits.va.gov/
gibill/fgib/restoration.asp
    \22\ U.S. Department of Veterans Affairs, Veterans Benefits 
Administration. Restoration of Benefits After School Closure of if a 
School is Disapproved for GI Bill Benefits. https://
www.benefits.va.gov/gibill/fgib/restoration.asp
    \23\ U.S. Department of Education, Office of Federal Student Aid. 
In certain situations, you can have your Federal student loan forgiven, 
canceled, or discharged. https://studentaid.ed.gov/sa/repay-loans/
forgiveness-cancellation#false-certification
    \24\ U.S. Department of Education, Office of Federal Student Aid. 
Borrowers may be eligible for forgiveness of the Federal student loans 
used to attend a school if that school misled them or engaged in other 
misconduct in violation of certain laws. https://studentaid.ed.gov/sa/
repay-loans/forgiveness-cancellation/borrower-defense
---------------------------------------------------------------------------
    We acknowledge concerns related to the resource constraints as VA 
in the potential development and maintenance of a financial monitoring 
system for all schools participating in VA education programs. VA is 
presently focused on numerous, substantial reforms of outdated 
infrastructure and processes and adding this task onto the pile could 
set the agency up for failure. We see this as an opportunity to 
encourage greater collaboration between VA and ED. Instead of creating 
new policies and procedures, duplicative of the ones ED has employed 
effectively for years, we believe the agency would be better served by 
utilizing ED's system to trigger its own enforcement mechanisms.
    ED currently requires a letter of credit from an institution for 
assorted reasons, including failing to meet financial benchmarks. The 
LOCs assure the availability of at least 10 percent of the Federal 
student aid received by the school. Ten percent was meant to be the 
floor and not the benchmark. Schools operating under letters of credit 
can continue participating in Title IV programs, but the letters 
protect students and taxpayers if institutions are unable to cover 
Federal student aid liabilities. ED may draw funds from the letter of 
credit for various reasons, including reimbursing the department for 
student refunds, loan cancellation costs, and teach-out expenses.
    To achieve intent of this proposal, SVA believes it would be better 
to have VA establish automatic triggers based on decisions ED makes 
regarding a school's financial health. By acting alongside ED, VA's 
enforcement authority is increased without adding a duplicative 
monitoring requirement for VA, an agency that has little experience in 
this area.
    VA would have the option of expanding the list of automatic 
triggers to include instances beyond LOCs, including Federal or state 
law enforcement investigation or penalties against the school, 
financial instability, low student graduation rate, high student 
indebtedness, failure to obey VA reporting requirements, defaults on 
lines of credit, and negative shareholder disclosures. If VA is 
required to develop their own monitoring and evaluation standards, we 
recommend that they include some of the recommendations from the GAO 
2017 report on potential improvements to ED's financial monitoring 
processes.\25\
---------------------------------------------------------------------------
    \25\ U.S. Government Accountability Office. ``Education Should 
Address Oversight and Communication Gaps in Its Monitoring of the 
Financial Condition of Schools.'' August 2017. https://www.gao.gov/
assets/690/686709.pdf

---------------------------------------------------------------------------
Draft legislation, GI Bill Access to Career Credentials Act

    This bill proposes authorizing GI Bill funding to be used for 
licensing preparation courses. SVA supports giving VA the authority to 
provide assistance for these tests, just as they currently do for 
higher education tests.\26\ VA also requested this change in their 
FY2020 Budget Request.\27\ We believe that bringing parity between 
vocational and higher education preparatory courses is a positive, 
commonsense step forward.
---------------------------------------------------------------------------
    \26\ Cornell Law School, Legal Information Institute. 38 U.S. Code 
Sec. ?3002. https://www.law.cornell.edu/uscode/text/38/3002
    \27\ U.S. Department of Veterans Affairs, Veterans Benefits 
Administration, Office of Budget, Annual Budget Submission FY2020. 
https://www.va.gov/budget/docs/summary/
fy2020VAbudgetVolumeIsupplementalInformationAndAppendices.pdf
---------------------------------------------------------------------------
    To protect student veterans and be faithful stewards of GI Bill 
resources, we also suggest adding guardrails around which preparatory 
courses qualify under this new authority. Specifically, we recommend 
adding language that requires qualifying preparatory courses to meet 
the standards of state designated licensing boards or agencies that 
seek to protect students from bad-actor schools. This is critical to 
protecting our student veterans and we encourage this Committee to 
adopt this small, but important adjustment.

Draft legislation, To amend title 38 United States Code to require 
    proprietary for-profit educational institutions to comply with 
    Federal revenue limits to participate in educational assistance 
    programs at VA

    This proposed legislation would prohibit for-profit educational 
institutions from participating in VA's educational assistance programs 
unless more than ten percent of their revenue is generated from non-
federal sources. SVA, along with 36 other Veteran Service Organizations 
(VSOs), sent a letter to congress earlier this year outlining our 
policy priorities.\28\ Chief among them was closing the 90-10 loophole 
in the Higher Education Reauthorization (HEA).
---------------------------------------------------------------------------
    \28\ Letter from Thirty-Seven VSOs to Congress sharing priorities 
for Higher Education Act reauthorization, May 2, 2019. https://
static1.squarespace.com/static/556718b2e4b02e470eb1b186/t/
5cca11f91905f41be87648f5/1556746746801/
VSO+MSO+HEA+Priorities.FINAL.2May2019.pdf
---------------------------------------------------------------------------
    The 90-10 rule is intended to prevent a proprietary institution 
from receiving more than 90 percent of their revenue from the Federal 
government. Essentially, it is a market viability test; if an 
institution is providing a high-quality education it should be able to 
recruit students willing to spend their own money to attend. This rule 
is rooted in what was originally the 85-15 rule, a response to rife 
predatory abuse of the Servicemen's Readjustment Act of 1944.\29\ 
However, a loophole exists in the rule: it does not count funds from VA 
or DoD educational benefits as Federal funds. The predatory practices 
this loophole incentivizes are well-documented and unacceptable. 
Veterans and other American taxpayers deserve better than allowing the 
bottom lines of institutions to prevail.\30\
---------------------------------------------------------------------------
    \29\ Skinner, Rebecca. ``Institutional Eligibility and the Higher 
Education Act: Legislative History of the 90/10 Rule and Its Current 
Status.'' January 2005. Congressional Research Service: Washington, 
D.C., Retrieved from: http://www.policyarchive.org/handle/10207/1904.
    \30\ U.S. Senate Committee on Health, Education, Labor, and 
Pensions. ``For Profit Higher Education: The Failure to Safeguard the 
Federal Investment and Ensure Student Success.'' July 2012. Washington 
D.C. Retrieved from: https://www.govinfo.gov/content/pkg/
CPRT112SPRT74931/pdf/CPRT-112SPRT74931.pdf.
---------------------------------------------------------------------------
    In the spirit of the original intent of the 90-10 rule, SVA 
strongly supports all VA and DoD education benefit funds be considered 
Federal funds under the 90-10 rule. GI Bill funds are paid for by the 
Federal government and should be considered as such. SVA supports the 
intent of this proposal, but we believe there may be more effective 
approaches to closing this loophole. The past few months have seen 
significant progress on a bipartisan solution to the 90-10 loophole 
through the HEA and we are hopeful that this encouraging progress 
continues.
    Creating and closing the loophole exclusively through VA 
jeopardizes that. Also, we maintain concern about closing the loophole 
solely through Title 38. As currently written, the bill appears to 
offer a simple, clean fix for the 90-10 loophole. However, it affords 
the risk of repeating the same mistake that led to the loophole in the 
first place; a failure to bring all relevant stakeholders to the table 
to produce a holistic solution. To strengthen the proposal, there 
should be additional procedural detail addressing how the language 
would function in application.
    It is unclear whether the proposal applies only to new programs and 
how currently approved programs will be reviewed for compliance, how it 
will be enforced, and exactly when and how funding is shut off. By 
contrast, the current system used at ED is much more explicit on these 
topics. SVA remains open to creative solutions that seek to close the 
90-10 loophole and we encourage congress to continue investigating ways 
to make this happen while minimizing the risk of creating similar 
issues in the future.

Draft legislation, Forever GI Bill Class Evaluation Act

    This legislation proposes to delay GI Bill payments to schools 
until fourteen days before a school term. As this bill makes clear in 
Section 2, VA has an ongoing issue with overpayments made on behalf of 
the GI Bill. The referenced Government Accountability Office (GAO) 
report makes clear that this problem is significant, directly impacts 
student veterans, and must be addressed.\31\ VA's methods of correcting 
overpayments compounds the problem. VA claws back GI Bill overpayments 
directly from students, even though the school received the tuition 
money.\32\ In previous testimony, we outlined the 200,000 overpayment 
notices VA sends out each year and the significant financial burden it 
places on veterans and their families.\33\ SVA fully supports the 
structural and procedural changes that must take place within VA to 
prevent these overpayments from occurring.
---------------------------------------------------------------------------
    \31\ U.S. Government Accountability Office. ``Post 9/11 GI Bill: 
Additional Actions Needed to Help Reduce Overpayments and Increase 
Collections.'' October 2015. https://www.gao.gov/assets/680/673230.pdf
    \32\ Cornell Law School, Legal Information Institute. 38 U.S. Code 
Sec.  3680. https://www.law.cornell.edu/uscode/text/38/3680
    \33\ Student Veterans of America. Testimony for Legislative Hearing 
on the Topic of ``Pending Legislation'' May 22, 2019. Senate Committee 
on Veterans' Affairs. https://www.veterans.senate.gov/imo/media/doc/
5.22.19%20-%20SVA.pdf
---------------------------------------------------------------------------
    While SVA supports this bill's intent, we believe that mandating a 
delay in GI Bill benefit payments might compound the VA's recent 
inability to make timely benefit payments to students. We encourage the 
Committee to continue having conversations with VA on the feasibility 
of implementing a batch payment model like ED has been using for 
decades. ED processes payments to schools prior to the start of the 
semester based on historical enrollment data from previous years. It is 
an effective process that allows schools and ED to operate without 
jeopardizing the financial situation of schools or students.
    We suggest studying the feasibility of incorporating lessons 
learned from the Department and its use of batch payments as a 
potential way of alleviating some of the front-end work VA must to do 
certify both MHA payments and tuition payments. We acknowledge there 
are foundational differences between how the ED and VA function, and 
that batch payments may not be the correct solution, but greater cross-
agency communication and collaboration can still provide valuable 
insight. Overpayments are a significant issue with the current model of 
payment VA employs and SVA encourages congress and VA to continue 
discussions on how best to serve our student veterans and educational 
institutions while still meeting the needs of VA.

Draft legislation, To require that educational institutions abide by 
    Principles of Excellence as a condition of approval for purposes of 
    the educational assistance programs of the Department of Veterans 
    Affairs

    This legislation proposes a requirement that educational 
institutions adhere to Executive Order (EO) 13607, also known as the 
Principles of Excellence (POE), in order to participate in VA's 
educational assistance programs.\34\ SVA supports giving VA enforcement 
authority to act when schools are not meeting standards that are meant 
to protect student veterans. As adherence to POE is voluntary, VA lacks 
sufficient authority to terminate educational benefits for bad actor 
schools in violation of the principles. This proposal brings VA into 
parity with ED and provides VA another tool to protect student veterans 
when educational institutions are not up to standard.\35\
---------------------------------------------------------------------------
    \34\ Exec. Order No. 13607, 3 C.F.R. 248-252 (2013) https://
www.govinfo.gov/content/pkg/CFR-2013-title3-vol1/pdf/CFR-2013-title3-
vol1.pdf
    \35\ U.S. Department of Education, Office of Federal Student Aid, 
Sec. 668.14 Program participation agreement. December 31, 1999. https:/
/ifap.ed.gov/regcomps/doc4072--bodyoftext.htm
---------------------------------------------------------------------------
    Of particular importance in executive order, it states that the POE 
should ``allow servicemembers and reservists to be readmitted to a 
program if they are temporarily unable to attend class or have to 
suspend their studies due to service requirements, and take additional 
steps to accommodate short absences due to service obligations, 
provided that satisfactory academic progress is being made by the 
servicemembers and reservists prior to suspending their studies''\36\
---------------------------------------------------------------------------
    \36\ Ibid.
---------------------------------------------------------------------------
    This is a significant point of contention and should be considered 
heavily. Clarification of the principles in tandem with this additional 
authority is necessary for the measure to be effective. We would also 
encourage consideration of better delineated enforcement options when 
an institution does not adhere to the Principles. Therefore, SVA 
supports this proposal with some reservations.

Draft legislation, Student Veteran Empowerment Act of 2019

    This legislation proposes several improvements to VA's educational 
assistance programs, such as requiring an agreement to abide by the 
POE, requiring monthly enrollment verification by student veterans, and 
extending the period of no charge for student veterans affected by 
school closure. SVA supports this bill, and we address additional 
specific points for consideration below.
    Section 2. Entitlement charge changes. We support this provision 
and offer some additional feedback for consideration. Student veterans 
affected by school closures are not protected in the same way title IV 
students are, and this change is a positive step in the right 
direction.\37\ Our recommendation would be to set a minimum number of 
transferred credits that disqualify student veterans from having their 
GI Bill benefits restored. This language sets that bar at a single 
credit which is unnecessarily restrictive.
---------------------------------------------------------------------------
    \37\ U.S. Department of Education, Office of Federal Student Aid. 
If your school closes while you're enrolled or soon after you withdraw, 
you may be eligible for discharge of your Federal student loan. https:/
/studentaid.ed.gov/sa/repay-loans/forgiveness-cancellation/closed-
school
---------------------------------------------------------------------------
    Section 3. Additional requirements for approval of institutions to 
participate in VA's educational assistance programs. We support this 
provision as an idea but have reservations with the language as 
written. Similar to our comments on the POE, we have concerns with 
legislating towards an EO instead of codifying the exact standards that 
institutions should meet.
    We believe there should be additional refinement with respect to 
defining the reviewers and enforcement of the principles. If that 
activity is delegated to State Approving Agencies (SAAs), we would like 
to see that codified along with a matching increase in funding to 
support such an important task. If SAAs are not intended to enforce the 
principles, the legislation should clearly state who is.
    Finally, upon the original release of this EO in 2012, there were 
several issues raised by concerned groups, and it brought to light a 
concerning difference between good actors and bad actors in the 
veterans' education space.\38\ Schools concerned with adhering to the 
letter and spirit of the EO had numerous clarifying questions to ask 
while those institutions who were less concerned with details and more 
concerned with signaling that they were complying rushed to sign up. 
This bill seems as if it would incorporate many of the same issues.
---------------------------------------------------------------------------
    \38\ American Council on Education. Letter to Congress Re: 
Executive Order 13607 - Establishing Principles of Excellence for 
Educational Institutions Serving Service Members, Veterans, Spouses, 
and Other Family Members. https://www.acenet.edu/news-room/Documents/
Letter-to-Obama-Administration-on-Principles-of-Excellence-for-Service-
Members,-Veterans-Education.pdf
---------------------------------------------------------------------------
    Section 4. Oversight of educational institutions placed on 
heightened cash monitoring status by ED. We support this section but 
encourage congress to increase resources for State Approving Agencies 
(SAAs) to match the increase in responsibilities. As we continue to add 
tasks to the SAAs workload, we encourage congress to be mindful of 
matching resources to responsibilities. Unfunded mandates cannot be 
achieved, and we risk setting SAAs up to fail by requiring too much of 
them without the financial undergirding they need for support.
    Section 5. Mandatory enrollment verification. We support this 
provision and humbly offer and additional recommendation. Overpayments 
due to delays in VA updating a student's enrollment status are a 
significant portion of annual overages and lead to student veterans 
incurring debt unbeknownst to them which is later clawed back 
aggressively.\39\ We fully support finding ways to improve the current 
system to prevent such burdens being placed on our students. To this 
end, we encourage reworking the language so that the burden of 
verification lies on the institution and not the student. As VA pays 
the school directly under the Post-9/11 GI Bill, it only makes sense 
that tuition overpayments and verifications of enrollment should be 
handled directly between the two institutions, without the student 
veteran in the middle.
---------------------------------------------------------------------------
    \39\ U.S. Government Accountability Office. ``POST-9/11 GI BILL: 
Additional Actions Needed to Help Reduce Overpayments and Increase 
Collections.'' October 21, 2015. https://www.gao.gov/products/GAO-16-42
---------------------------------------------------------------------------
    We are encouraged by this Committee's interest in finding ways to 
improve the service and quality of benefits we offer to our veterans 
and hope that continued conversations around the bills today will 
provide avenues upon which to build consensus.

Draft legislation, To amend title 38, United States Code, to authorize 
    State approving agencies to carry out outreach activities

    This legislation clarifies language in title 38 to allow State 
Approving Agencies (SAAs) to conduct outreach programs. In the roughly 
70 years prior to 2016, SAAs routinely engaged in outreach programs to 
educate our veterans about the benefits available to them. In 2016, VA 
informed these agencies that outreach activities were not explicitly 
established in statute and could no longer be supported. Since then, 
SAAs have been limited in their ability to conduct outreach and 
awareness programs and create new outreach materials. Data from the 
National Association of State Approving Agencies (NASAA) shows 
`outreach actions' declining by 90 percent since 2016 as result.\40\
---------------------------------------------------------------------------
    \40\ National Association of State Approving Agencies, NASAA Annual 
Report 2018. http://nasaa-vetseducation.com/getattachment/Home/NASAA-
2018-Annual-Report.pdf.aspx
---------------------------------------------------------------------------
    SVA supports this bill, but within the context of SAAs maintaining 
a primary focus on program evaluation. SAAs play an important role in 
the approval and oversight of the higher education institutions that 
serve our nation's veterans. Their mission is to safeguard quality 
education and training opportunities for veterans through program 
evaluation and monitoring, compliance training and review, outreach and 
awareness, and more. And while the agencies' primary focus will always 
be the evaluation and approval of educational institutions, their value 
as liaisons to the broader public, military bases, educators, and 
employers on the benefits of using the GI Bill cannot be understated.
    We must be cognizant of the need to provide them with adequate 
resources and authority to fully execute their mission. This is 
particularly important in light of recent legislation and programs, 
such as the Forever GI Bill, the VET TEC Program, and the VALOR Act. 
Expanding the oversight responsibilities of SAAs, and many of the draft 
bills under discussion today seeking to maintain a high level of 
program quality and integrity.
    The success of veterans in higher education is no coincidence or 
surprise. Research consistently demonstrates this unique population of 
non-traditional students is far outpacing their peers in many measures 
of academic performance.\28\ Further, this success in higher education 
begets success in careers, in communities, and promotes family 
financial stability, holistic well-being, and provides the all-
volunteer force with powerful tools for recruitment and retention when 
recruits know military service prepares them for success after service.
---------------------------------------------------------------------------
    \28\ Letter from Thirty-Seven VSOs to Congress sharing priorities 
for Higher Education Act reauthorization, May 2, 2019. https://
static1.squarespace.com/static/556718b2e4b02e470eb1b186/t/
5cca11f91905f41be87648f5/1556746746801/
VSO+MSO+HEA+Priorities.FINAL.2May2019.pdf
---------------------------------------------------------------------------
    We thank the Chairman, Ranking Member, and the Committee Members 
for your time, attention, and devotion to the cause of veterans in 
higher education.\41\ As always, we welcome your feedback and 
questions, and we look forward to continuing to work with this 
Committee, the House Veterans' Affairs Committee, and the entire 
congress to ensure the success of all generations of veterans through 
education.
---------------------------------------------------------------------------
    \41\ Cate, C.A., Lyon, J.S., Schmeling, J., & Bogue, B.Y. (2017). 
National Veteran Education Success Tracker: A Report on the Academic 
Success of Student Veterans Using the Post-9/11 GI Bill. Student 
Veterans of America, Washington, D.C., http://
nvest.studentveterans.org/wp-content/uploads/2017/03/NVEST-Report--
FINAL.pdf.

                                 <F-dash>
               Prepared Statement of Jeremy M. Villanueva
    Mr. Chairman and Members of the Subcommittee:

    Thank you for inviting DAV (Disabled American Veterans) to testify 
at this legislative hearing of the Economic Opportunity Subcommittee of 
the House Veterans' Affairs Committee. As you know, DAV is a non-profit 
veterans service organization comprised of more than one million 
wartime service-disabled veterans that is dedicated to a single 
purpose: empowering veterans to lead high-quality lives with respect 
and dignity. DAV is pleased to offer our views on the bills under 
consideration by the Subcommittee.
  H.R. 561, Protecting Business Opportunities for Veterans Act of 2019
    This legislation would correct a persistent problem in contracting 
under the Veterans First Contracting Program (Vets First Program) by 
directing the Department of Veterans Affairs (VA) to work with the 
Office of the Inspector General to identify and penalize small 
businesses who take advantage of the program, which is designed to 
benefit veterans by utilizing ``pass through'' contracts.
    The Vets First Program was created under Public Law 109-461 for 
Veteran-Owned Small Businesses (VOSBs) and expanded the Service-
Disabled Veteran contracting program for VA procurements in order for 
veteran business owners and the government to benefit mutually. The 
program's purpose is to ensure that legitimately owned and controlled 
VOSBs and Service-Disabled Veteran Owned Small Businesses (SDVOSBs) are 
able to compete for VA VOSB and SDVOSB set-asides, are credited by VA's 
large prime contractors for subcontract plan achievements, and help 
stimulate the small business community and create growth for the 
economy.
    However, the GAO found persistent problems in contracting under the 
Vets First Program of small business who take advantage of the program 
which is designed to benefit veterans by utilizing ``pass through'' 
contracts.\1\ In this instance, so-called ``pass through'' contracts 
occur when a small business wins its contract based on these designated 
preferences and then subcontracts most of the work to a non-similarly 
situated firm. These ``pass through'' contracts violate the principle 
and rationale of these programs.
---------------------------------------------------------------------------
    \1\ https://www.gao.gov/assets/700/694684.pdf
---------------------------------------------------------------------------
    This bill would provide parity between the Small Business Act and 
Veterans First Contracting Program's ``Limitations on Subcontracting'' 
and provide clarity as the Small Business Administration and VA 
implement joint regulations on SDVOSBs and VOSBs.
    DAV supports this legislation in accordance with Resolution No. 
302, which seeks and strongly supports the investigation, prevention 
and monitoring controls and to ensure that fraud is aggressively 
prosecuted and companies having committed fraud are suspended, debarred 
or otherwise held accountable.
    H.R. 1615, Verification Alignment and Service-disabled Business 
                    Adjustment Act or the VA-SBA Act
    This bill would move the VA's verification of Service-Disabled 
Veteran-Owned Small Businesses (SDVOSBs) and Veteran-Owned Small 
Businesses (VOSBs) responsibility to the Small Business Administration 
(SBA). The SBA will therefore fully take over the certification of 
SDVOSB & VOSBs government-wide and VA's separate verification program 
will sunset.
    Currently, SBA certifies small businesses that participate in most 
Federal contracting preference programs, ensuring that only qualified 
enterprises benefit from over $105 billion in annual small business 
spending. The exception is SDVOSBs that are verified by VA to qualify 
for VA contracts. These SDVOSBs are allowed, because of a disparity in 
the law, to self-certify, which has led to years of fraud, waste, and 
abuse. The U.S. Government Accountability Office (GAO) noted this in 
their 2012 report on the SDVOSB programs when it stated, ``no action 
has been taken by agencies to improve fraud-prevention controls. 
Relying almost solely on firms' self-certification, the program 
continues to lack controls to prevent fraud and abuse.''\2\ Inadequate 
controls have allowed companies that are not owned and controlled by 
service-disabled veterans to game the system.
---------------------------------------------------------------------------
    \2\ https://www.gao.gov/products/GAO-12-697
---------------------------------------------------------------------------
    The VA-SBA Act seeks to address this problem by instituting an 
affirmative certification requirement for SDVOSBs throughout the 
Federal government, to be implemented and maintained by the SBA. To 
accomplish this, the Act transfers responsibility for certification 
from the VA to the SBA and eliminates the option to self-certify. 
Finally, this bill guarantees that no self-certified SDVOSB will be 
excluded from a contracting opportunity if the SBA is slow to process 
its certification application, and preserves the unique VOSB 
contracting preference in VA.
    DAV supports this legislation in accordance with our Resolution No. 
303, calling for simplification of the verification process for VOSBs 
and SDVOSBs and No. 302, which seeks and strongly supports prevention 
and monitoring controls over the SDVOSB program.
  H.R. 2227, Gold Star Spouses and Spouses of Injured Servicemembers 
                  Leasing Relief Expansion Act of 2019
    This bill would authorize spouses of servicemembers who incur a 
catastrophic injury or illness or die while in military service to 
terminate leases of premises and motor vehicles.
    DAV does not have a resolution specific to this issue and does not 
take a position on this bill's passage.
                               H.R. 2618
    This bill would amend the Servicemembers Civil Relief Act to 
provide a guarantee of residency for registration of businesses of 
spouses of servicemembers and to improve the ability of military 
spouses to transfer their occupational licenses from state to state.
    DAV does not have a resolution specific to this issue and does not 
take a position on this bill's passage.
               H.R. 2924, Housing for Women Veterans Act
    The Housing for Women Veterans Act (H.R. 2924) would reauthorize 
the Supportive Services for Veterans Families (SSVF) Grant Program and 
provide funding of $400 million for fiscal years 2020 through 2022. 
While this funding level is $20 million more than funding authorized 
for 2019, the bill would earmark all additional funds ($20 million) for 
programs directed at meeting the needs of women veterans. In addition, 
the bill calls for a gaps analysis report that would identify areas in 
which current programs are failing to meet the needs of homeless and 
precariously housed women which may yield important information.
    SSVF is a valuable program that concentrates on preventing very low 
income veterans and their families from becoming homeless. While 
research is ongoing to identify the housing and other outcomes of this 
program, the relatively small grants (on average about $2,500 per 
veteran household) can make the difference between a veteran's family 
remaining housed and living on the streets-a far more expensive and 
intractable problem to address.
    DAV supports the SSVF programs and appreciates that this bill would 
ensure that additional funding is directed at improving services for 
women veterans who have increased risk factors for homelessness in 
addition to often being the sole parents of dependent children. Based 
on DAV Resolution Nos. 019, which supports enhanced services for women 
veterans, and 291, calling for sufficient funding to improve services 
for homeless veterans, we offer our strong support for this bill.
          H.R. 2934, GI Bill Access to Career Credentials Act
    Currently, VA pays only the test costs for licensing and/or 
certification for a field of employment, or up to $2,000 for each test. 
Payment is issued after you submit proof of payment to VA. However, 
costs for preparatory courses, registration and processing fees 
connected with obtaining a license or certification are not 
reimbursable.
    This legislation amends title 38, United States Code, to authorize 
the use of educational assistance under chapter 33 and 35 of that title 
to pay for preparatory courses for licenses and certification 
examinations.
    While DAV does not have a resolution specific to this issue, we 
believe that providing added assistance by helping pay for these costs 
in attaining licenses or certifications for new career is beneficial to 
the service-disabled veteran, their survivors, and dependents, and we 
have no objection to its favorable consideration.
Draft Bill, authorize the Secretary of Veterans Affairs to assist blind 
veterans who have not lost use of a leg in acquiring specially adapted 
                                housing
    VA provides grants to servicemembers and veterans with certain 
permanent and total service-connected disabilities to help purchase or 
construct an adapted home, or modify an existing home to accommodate a 
disability. Under title 38, United States Code, Sec.  2101, the 
Secretary may assist a disabled veteran described in acquiring suitable 
housing with special fixtures or movable facilities made necessary by 
the nature of the veteran's disability. An eligible veteran must have 
loss or loss of use of bilateral lower extremities or must have 
blindness in both eyes, light perception only, and must have loss or 
loss of use of one lower extremity.
    The discussion draft would redefine the eligibility criteria. For 
those veterans with service-connected blindness, they would no longer 
be required to have this disability in combination with loss or loss of 
use of a lower extremity. This would expand the current criteria and 
allow veterans with service-connected blindness to live in an 
environment specially adapted to their visual impairment.
    DAV does not have a resolution specific to this issue; however, we 
believe this would provide a much needed benefit to visually impaired 
veterans and we would have no objection to its favorable consideration.
            Draft Bill, Forever GI Bill Class Evaluation Act
    This bill would prohibit payment of educational assistance under 
the Post-9/11 GI Bill prior to 14 days before the first day of the 
quarter, semester, or term, and would prohibit payment to an individual 
who withdraws from a program of education during the first 14 days of 
the quarter, semester, or term.
    DAV does not have a resolution specific to this issue and does not 
take a position on this bill's passage.
   Draft Bill, the VA Economic Hardship Report-a bill to direct the 
    Secretary of Veterans Affairs to study the link between certain 
                 economic factors and veteran suicides
    This draft legislation would require that VA study associations 
between veterans' economic resources and their risk of suicide. It 
would require the Secretary to identify some numbers that are already 
routinely estimated, such as the number of homeless veterans, which is 
now determined by an annual ``point in time'' count, in addition to 
other counts such as the numbers of veterans who live in poverty, and 
those who are food or housing insecure, which are now estimated based 
on census data. VA would also be required to report the number of 
veterans who have attempted suicide or committed suicide and who, at 
that time were homeless, living in poverty or known to be food 
insecure.
    DAV is aware that homelessness is a major risk factor for suicide, 
but socio-economic consequences in addition to suicide may be 
symptomatic of underlying causes such as unresolved medical disability, 
mental health or substance abuse problem and a failure to assist 
veterans with readjustment after deployment. These problems can often 
lead to a ``cycle of decline,'' including family dissolution and loss 
of employment in addition to homelessness. Without exploring these 
causal factors, determining ``links'' between suicides and economic 
consequences may overlook the actual root causes of homelessness and 
identify confounded associations (for example, it may conclude that 
veterans commit suicide because they are food insecure when untreated 
PTSD and substance abuse may lead to job loss or family dissolution, 
which in turn causes many adverse economic consequences that may 
ultimately lead to suicidal ideation or suicide).
    We would also hope that any future studies would take these factors 
into account as well as identify veterans by sex and racial or ethnic 
background in order for VA to better understand any gender differences 
or specific links that may be disproportionately affecting these 
veteran subpopulations.
    DAV does not have a resolution calling for this study, but has no 
objection to its favorable consideration.
   Draft Bill, to require that certain educational institutions have 
   letters of credit as a condition of approval for purposes of the 
 educational assistance programs of the Department of Veterans Affairs
    This legislation would require any institution that receives 
tuition or under the GI Bill or Survivors' and Dependents Educational 
Assistance (Chapter 35) programs to have a letter of credit as a 
condition of approval for those funds. Said letter of credit would need 
to show proof that a financial institution has provided a financial 
guarantee to the educational institution that ensures that if that 
institution closes, not less than 10 percent of the funds received as 
tuition or fees will be payable to the VA and that the educational 
institution has such amounts in an escrow account for such purposes.
    DAV does not have a resolution that speaks to this issue; however, 
service-disabled veterans, their survivors and dependents, should not 
have to worry about the financial stability of an educational 
institution before they enroll for classes to better their economic 
outlook. This legislation would require an institution to prove it can 
reimburse the VA for tuition and fees if it closes prior to receiving 
those funds and we have no objection to its favorable consideration.
          Draft Bill, Legal Services for Homeless Veterans Act
    This bill would authorize VA to provide grants or enter into 
cooperative agreements with community entities to provide legal 
services to veterans experiencing homelessness and veterans who are at 
risk for becoming homeless within appropriated funds. It also requires 
a biennial report to Congress to include the number of homeless 
veterans assisted, a description of the legal services provided and 
operational and cost-effectiveness of the services rendered.
    In its most recent CHALENG report (2018), VA acknowledges that 
those needs homeless veterans and their advocates are most likely to 
describe as ``met'' are those directly provided through VA, while unmet 
needs tend to be met through community partners. Veterans' needs for 
legal assistance for various issues are persistently identified through 
the annual homeless survey. This year male homeless veterans identified 
legal assistance in five different areas (child support (#3), 
prevention of eviction or foreclosure (#6), restoration of driver's 
license (#7), outstanding warrants and fines (#8), and also discharge 
upgrades (#9) among their 10 highest unmet needs. Female homeless 
veterans identified legal assistance in three different areas 
(including child support (#7), prevention of eviction or foreclosure 
(#9) and discharge upgrades (#10)) within their top 10 unmet needs.
    These legal issues are often significant barriers in obtaining 
employment, reuniting families, maintaining or obtaining permanent 
housing or seeking benefits or child support to stabilize family 
income.
    DAV supports this draft legislation in accordance with DAV 
Resolution No. 291, calling for Congress to fund grants to provide 
health and supportive services to homeless veterans.
             H.R. 716, Homeless Veterans Legal Services Act
    Like Congressman Panetta's draft bill above, H.R. 716-the Homeless 
Veterans Legal Services Act addresses homeless veterans' unmet needs 
for legal services, but does so by authorizing VA to fund a portion of 
costs for legal services delivered through community partners (subject 
to available funds). This measure focuses on legal services related to 
housing such as eviction defense, foreclosure and land-lord tenant 
cases; family law issues to include: child support issues, divorce, 
estate planning, and family reconciliation; and criminal defense 
matters such as outstanding warrants, fines, and driver's license 
revocation.
    DAV supports this draft legislation in accordance with DAV 
Resolution No. 291, calling for Congress to fund grants to provide 
health and supportive services to homeless veterans but would recommend 
that the Committee authorize appropriations to make funding available 
for this and the draft bill, Legal Services for Homeless Veterans Act 
to ensure other programs for homeless veterans are fully funded.
     Draft Bill, to require that educational institutions abide by 
Principles of Excellence as a condition of approval for purposes of the 
 educational assistance programs of the Department of Veterans Affairs
    This bill would require a State approving agency, or the Secretary 
when acting in the role of the State approving agency, to disapprove a 
course of education provided by an educational institution if that 
institution has not agreed to abide by the Principles of Excellence or 
has violated said principles.
    DAV does not have a resolution specific to this issue and does not 
take a position on this bill's passage.
Draft Bill, to authorize State approving agencies to carry out outreach 
                               activities
    This bill would authorize State approving agencies to carry out 
outreach activities using amounts otherwise authorized to be 
appropriated. No additional amounts are to be authorized to be 
appropriated to carry out these activities.
    DAV does not have a resolution specific to this issue and does not 
take a position on this bill's passage.
  Draft Bill, authorize the Secretary of Veterans Affairs to collect 
          overpayments of specially adapted housing assistance
    The discussion draft would amend title 38, United States Code, 
Sec.  2102, which provides limitations on furnished assistance of 
grants to servicemembers and veterans with certain permanent and total 
service-connected disabilities to help purchase or construct an adapted 
home, or modify an existing home to accommodate a disability. Whenever 
the Secretary finds that an overpayment has been made to an individual 
as a result of breach of contract or administrative error, the amount 
would be considered a liability of such individual to the United 
States.
    The individuals are defined as a veteran who applies for 
assistance, an owner or seller of real estate, a builder, contractor, 
supplier, tradesperson corporation, partnership or person associated 
with the delivery of assistance. It further defines said individuals as 
an attorney, escrow agent, or financial institution that receives or 
holds escrow funds and also includes a surviving spouse, heir, 
assignee, or successor of interest in the definition.
    We understand the intent of this draft and that it is a reasonable 
expectation that recipients of overpayments are required to repay 
debts; however, it is unreasonable that a veteran or surviving spouse 
should be responsible for debts caused by a VA administrative error. 
Moreover, any recouping of overpayments from a veteran or surviving 
spouse should not place them in financial hardship.
    In accord with DAV Resolution No. 172, DAV urges this Subcommittee 
amend this legislation to ensure there are limitations in the amount of 
monies recouped from a veteran and surviving spouse so as not to 
impoverish them, and overpayment debts created at the fault of VA be 
waived by the VA.
Draft Bill, require proprietary for-profit educational institutions to 
   comply with Federal revenue limits to participate in educational 
       assistance programs of the Department of Veterans Affairs
    This bill would prohibit the Secretary, or a State approving agency 
from approving a course of education offered by a proprietary for-
profit educational institution unless the institution derives not less 
than ten percent of such institution's revenues from sources other than 
Federal funds.
    DAV does not have a resolution specific to this issue and does not 
take a position on this bill's passage.
Draft Bill, extend the time period under which an election must be made 
   for entitlement to educational assistance under the All-Volunteer 
  Educational Assistance Program of the Department of Veterans Affairs
    This bill would remove any time period restrictions on a 
servicemember's ability to elect to receive educational benefits under 
the All-Volunteer Educational Assistance Program.
    DAV does not have a resolution specific to this issue and does not 
take a position on this bill's passage.
          Draft Bill, Student Veteran Empowerment Act of 2019
    This bill would make improvements to the educational assistance 
programs of the VA, to include Chapter 35 of title 38, United States 
Code. These improvements include prohibiting the VA from charging 
against an enrollee's time-period or entitlement if they cannot 
transfer credits from a disapproved program of education, requires 
educational institutions seeking approval to participate in a program 
under title IV of the Higher Education Act of 1965 and has agreed to 
abide by the Principles of Excellence under Executive Order 13607, 
increasing oversight over education institutions, and verifying 
enrollment for each individual enrolled in a course or program of 
education and is receiving Post-9/11 Educational Assistance Benefits.
    DAV does not have a resolution specific to this issue but we would 
not object to its favorable consideration, as it would benefit 
dependents and survivors of veterans whose death was due to a service-
connected disability or of a veteran whose service-connected disability 
has been rated by VA to be permanent and total.
 Draft Bill, increase the monthly housing stipend under the Post-9/11 
 Educational Assistance Program for individuals who pursue programs of 
  education solely through distance learning on more than a half-time 
                                 basis
    This bill seeks to increase the monthly housing amount received by 
those enrolled in a course or program of education under the Post-9/11 
GI Bill on more than a half-time basis through distance learning 
solely.
    DAV does not have a resolution that addresses this issue and does 
not take a position on this bill's passage.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
answer any questions you or members of the Subcommittee may have.

                                 <F-dash>
             Prepared Statement of Timothy ``Tim'' McMahon
    Chairman Levin, Ranking Member Bilirakis and distinguished Members 
of the Subcommittee:

    My name is Tim McMahon, a U.S. Air Force Veteran representing 
Triangle Tech, Career Education Colleges and Universities (CECU) and 
Veterans for Career Education (VCE). Before commenting on the pending 
legislation that has the potential to impact career schools and the 
veterans attending these institutions, I would like to offer some 
background on the three groups I represent.
    I serve as president of Triangle Tech, a nationally accredited 
career and technical school with campuses in the following locations in 
Pennsylvania: Pittsburgh, Erie, Greensburg, DuBois, Sunbury, and 
Bethlehem. We pride ourselves in delivering high-quality career 
training at a fast pace. We offer career programs in Computer-Aided 
Design and Drafting (CADD) with Additive Manufacturing & 3D Printing 
Technology; Maintenance Electricity & Construction Technology; 
Refrigeration, Heating, Ventilation, & Air Conditioning Technology 
(HVAC-R); Carpentry & Construction Technology; and Welding & 
Fabrication Technology. Veterans can earn an associate degree in a 
skilled program of study in just 16 months and enter the workforce 
immediately. That allows veterans using the Post-9/11 GI Bill to save 
the rest of their benefits for follow-on study or additional education 
elsewhere.
    All students that attend Triangle Tech have free repeat privileges: 
If at any time prior to graduation, circumstances result in course 
failure, we allow students to repeat that course tuition-free. We also 
provide free refresher privileges to graduates. Students and veteran 
graduates may come back and refresh their skills or update them on the 
latest technology at no cost. To help students and student veterans 
continue their education, we have credit transfer agreements with 
certain public and private nonprofit colleges and universities. For 
example, we have credit transfer agreements with Slippery Rock 
University, Point Park University, Seton Hill College, and California 
University of Pennsylvania.
    I also serve on the board of directors for Career Education 
Colleges and Universities (CECU), a national association of career, 
technical and trade schools consisting of nearly 500 campus locations 
across the nation. These schools are working diligently to meet the 
demands of the American workforce by providing skilled education that 
leads to fulfilling careers. The programs offered at CECU schools 
include nursing, commercial truck driving, cranes and heavy equipment, 
gunsmithing, hardhat divers and underwater welding, barbering and 
cosmetology, aviation technicians, automotive technology and 
cybersecurity, among many others. In a recent Gallup study, 71% of 
Veterans and servicemembers that graduated from CECU member 
institutions said they were satisfied with their education and 76% said 
their degree/certificate is related to their work.\1\ Additionally, we 
published a book of over 300 veteran success stories.\2\ This year, we 
also updated a best practices guide for serving military and veteran 
students. Our schools remain committed to providing career-relevant 
education to those in and out of uniform.
---------------------------------------------------------------------------
    \1\ Gallup, Toward a Better Future: Exploring Outcomes of Attending 
Career Colleges and Universities, January 15, 2019, http://
www.career.org/uploads/7/8/1/1/78110552/cecu--positive--outcomes--of--
career--education--1.10.19--final.pdf
    \2\ CECU, The Post-9/11 GI Bill Benefit (Veteran Success Stories), 
http://vets4careered.org/wp-content/uploads/2019/06/CECU--Veterans--
6x9--NEW.pdf
---------------------------------------------------------------------------
    Lastly, I am excited to be among the nearly 100 veterans that flew 
from across the country to Washington D.C., just before Memorial Day, 
and helped to found Veterans for Career Education (VCE). We founded VCE 
to support the right of veterans to use their earned education 
benefits, like the GI Bill, to gain career skills at the college or 
institution of their choice. We fundamentally believe that education 
policy should not dictate where veterans use their earned education 
benefits. Now, VCE is engaged in a Let Vets Choose Tour Across America 
at over 20 career schools in more than 10 states. Veterans that are 
students, graduates, faculty, and staff are organizing to combat overly 
broad statements about taxpaying schools. The notion that credentials 
from these schools are worthless or that the entire sector is predatory 
is demeaning to veterans and undermines the value of career-oriented 
education. VCE and the Let Vets Choose Tour will showcase why veterans 
choose career schools and it will give a voice to student veterans that 
are too often overlooked. We look forward to sharing the views of 
veterans from these tour stops.
    Below are the views of CECU on pending legislation unless otherwise 
noted.

A draft bill to require proprietary for-profit educational institutions 
    to comply with Federal revenue limits to participate in educational 
    assistance programs of the Department of Veterans Affairs.

    Changing the 90/10 rule to include military and veteran education 
benefits, like the GI Bill, in the 90 side does not help to protect 
military veterans. It takes away a veteran's right to choose where they 
use their earned education benefits. Analysis conducted by NDP 
Analytics found that including military and veteran education benefits 
in the numerator of the 90/10 rule may adversely impact upwards of 100 
schools and over 100,000 student veterans and servicemembers.\3\
---------------------------------------------------------------------------
    \3\ NDP Analytics collected Title IV and total revenue data from 
the Department of Education 90/10 database (Jul 2016 - Jun 2017), GI 
Bill and Yellow Ribbon Award data from the VA's GI Comparison Tool (Oct 
2016 - Sept 2017), and Tuition Assistance program data from the 
Department of Defense TA DECIDE database (Oct 2016 - Sept 2017). We 
removed institutions from our analysis that have since closed based on 
the Department of Education Office of Financial Aid Closed School 
Reports. We manually updated one large institutions enrollment numbers 
based on a noticeable discrepancy in data provided from a Federal 
database. Institutions with multiple campuses are counted individually.
---------------------------------------------------------------------------
    The entire notion of closing the so-called ``90/10 loophole'' is 
insulting to veterans attending career institutions in the private 
sector. Navy Veteran, career school graduate and VCE Ambassador James 
Lillback recently authored an oped in the Tennessean saying, ``The 
critics of career schools want to manipulate a formula known as 90/10 
to restrict how much GI Bill dollars go to these schools. This makes no 
sense. If a career school is doing a good job of educating veterans, 
taking away the right of veterans to gain job-ready skills at the 
school of their choice only hurts a veteran's ability to successfully 
transition into civilian life.''\4\ James is an employed commercial 
truck driver in Tennessee.
---------------------------------------------------------------------------
    \4\ James Lillback, Guest Columnist, The Tennessean, Veterans 
should use GI Bill for any education they choose- Opinion, July 10, 
2019, https://www.tennessean.com/story/opinion/2019/07/10/veterans-gi-
bill-should-used-any-education/1634169001/
---------------------------------------------------------------------------
    In a separate opinion piece published in Military Times, two 
military veterans said proposals to change 90/10 ``are not aimed at 
protecting the military community. If that were truly the motivation, 
then the rule would apply to all colleges and universities.''\5\ 
Analysis shows that more than 400 public and private nonprofit colleges 
and universities would fail an expanded 90/10 formula.\6\
---------------------------------------------------------------------------
    \5\ Michael Dakduk and Larry Goerzen, Military Times, Opinion: 
Veterans Defend Right to Attend Career Colleges, June 20, 2019, https:/
/www.militarytimes.com/opinion/2019/06/20/opinion-veterans-defend-
right-to-attend-career-colleges/
    \6\ Career Education Colleges and Universities, Press Release, Over 
400 Public and Nonprofit Colleges Would Fail the 90/10 Rule, May 20, 
2019,
---------------------------------------------------------------------------
    A separate study by financial aid expert Mark Kantrowitz found that 
``Most public colleges would not be able to comply with the 90/10 rule 
if it applied to them, especially if state appropriations and grants 
were included in the percentage of revenue from government aid.''\7\ He 
goes onto say that ``the 90/10 rule is ineffective at measuring 
educational quality. Instead, it depends heavily on the demographics of 
each college's student population, measuring ability to pay more than 
willingness to pay.''\8\
---------------------------------------------------------------------------
    \7\ Mark Kantrowitz, Edvisors, Consequences of the 90/10 Rule, 
August 19, 2013, https://www.edvisors.com/media/files/student-aid-
policy/20130819-90-10-rule.pdf
    \8\ Ibid.
---------------------------------------------------------------------------
    Supporters of changing the 90/10 rule maintain that veterans are 
being targeted and aggressively recruited. It is essential for this 
Subcommittee to recall testimony in 2012 by Dr. Jennifer Steele.\9\ She 
said that given the negative attention by the media on for-profit 
schools, ``one might assume it is the schools' aggressive and targeted 
recruiting practices that are luring'' veterans into these 
institutions. Put another way, ``naive veterans are being tricked'' 
into enrolling at these schools. Her research, however, uncovered a 
very different story.
---------------------------------------------------------------------------
    \9\ Jennifer L. Steele, RAND Corporation, Military Veterans' 
Experiences in For-Profit Higher Education, May 16, 2012, https://
www.rand.org/pubs/testimonies/CT376.html
---------------------------------------------------------------------------
    Dr. Steele said, ``Contrary to the prevailing image of veterans as 
undiscerning consumers of higher education, the veterans, Reservists, 
active duty servicemembers, and family members with whom we spoke 
described thoughtful deliberations about their choice of institutions. 
Students in for-profit colleges reported a number of rationales for 
their institutional decisions.''\10\
---------------------------------------------------------------------------
    \10\ Ibid.
---------------------------------------------------------------------------
    The top reasons for attending career schools in the private sector: 
tuition being covered by the GI Bill; the schools had adult-oriented, 
career-focused programs with flexible schedules; and the ability to 
transfer military experience to academic credits.\11\
---------------------------------------------------------------------------
    \11\ Ibid.
---------------------------------------------------------------------------
    Dr. Steele brought up an important point in her remarks before this 
Subcommittee years ago when she testified. There is a suggestion that 
many veterans are being misled or tricked into enrolling at taxpaying 
career schools. This is flat out wrong. Army special forces guard 
member and advocate for veterans, Daniel Elkins, recently wrote an oped 
in the Hill saying, ``As a country, we need to stop perpetuating the 
demeaning idea that we are `broken' or in need of special guidance and 
protection. Restricting where and how veterans use our earned benefits 
disrespects the sacrifice and effort we made to earn it.''\12\
---------------------------------------------------------------------------
    \12\ The Hill, We must support veterans and not politicize their 
education, April 1, 2019, https://thehill.com/blogs/congress-blog/
education/436809-we-must-support-veterans-and-not-politicize-their-
education
---------------------------------------------------------------------------
    The proposed bill denies the right of veterans to use their earned 
education benefits at the career school of their choice. Veterans for 
Career Education (VCE) remains opposed to policies like modifying 90/10 
since it restricts choice for veterans. CECU remains opposed. As a 
veteran that takes great joy in supporting other veterans at Triangle 
Tech, I don't want to see veterans denied the opportunity to enroll at 
career schools. Please consider the drastic impact of changing 90/10 
before advancing this bill.

A draft bill to require that educational institutions abide by 
    Principles of Excellence as a condition of approval for purposes of 
    the educational assistance programs of the Department of Veterans 
    Affairs, and for other purposes.

    Making Principles of Excellence (POE) a requirement as a condition 
of approval for VA education benefits is not problematic for CECU and 
our members. According to the Department of Veterans Affair's data, 87% 
of GI Bill students are enrolled at institutions that voluntarily 
comply with the Principles of Excellence already. Our members will 
embrace POE as we have already done.
    Additionally, this explicitly calls for ending fraudulent and 
aggressive recruiting by making POE law. It also expands on limiting 
high-pressure recruitment tactics. Noticeably different than the 90/10 
bill, this draft applies to all colleges and universities. If this 
legislation were to advance, proposals around 90/10 become even more 
questionable. After all, proponents of changing the 90/10 rule contend 
that veterans are targeted through aggressive recruiting and marketing. 
This draft bill, unlike the 90/10 draft bill, directly addresses the 
issue.

The Student Veteran Empowerment Act of 2019.

    CECU fully supports veterans retaining their earned education 
benefits if they are unable to transfer their credits from a program 
that is disapproved. The provisions regarding additional oversight 
remain appropriate so long as they continue to apply to all sectors of 
higher education and are enforced uniformly. There must be objectivity 
in oversight.

A draft bill to increase the monthly housing stipend under the Post-9/
    11 Educational Assistance Program for individuals who pursue 
    programs of education solely through distance learning on more than 
    a half-time basis.

    Veterans for Career Education (VCE) supports the right of veterans 
to use their earned education benefits at any type of approved 
institution or program of their choice. Student veterans that are 
enrolled exclusively through distance learning earned the same benefit 
as those enrolled at brick and mortar schools. CECU remains supportive 
of this draft bill.

A draft bill to provide for a requirement relating to the timing of the 
    payment of educational assistance under the Post-9/11 Educational 
    Assistance Program of the Department of Veterans Affairs, and for 
    other purposes.

    According to the 2015 GAO report, most GI Bill overpayments were 
from changes in student enrollment including dropped classes or 
withdrawals.\13\ A small percentage of GI Bill overpayments were due to 
school reporting or VA processing errors.\14\
---------------------------------------------------------------------------
    \13\ Highlights of GAO-16-42, a report to the Ranking Member, 
Committee on Homeland Security and Governmental Affairs, U.S. Senate, 
October 2015, https://www.gao.gov/assets/680/673231.pdf
    \14\ Ibid.
---------------------------------------------------------------------------
    We understand the need to prevent or mitigate overpayments. We 
believe in finding a common-sense solution to this issue. We would 
appreciate some more time to discuss with our members how the change in 
timing related to the payment of educational assistance may impact 
institutions and veterans. Conceptionally, we support the premise of 
this draft bill.

A draft bill to authorize the use of educational assistance under 
    chapter 33 of that title to pay for preparatory courses for 
    professional licenses and certifications, and for other purposes.

    We support veterans being able to use their earned benefits for 
preparatory courses. Most of our members have short career programs 
that allow veterans to save much of their GI Bill for additional 
education and training. Authorizing veterans to pay for preparatory 
courses sets them up for continued success in gaining licenses and 
certifications.

A draft bill to require that certain educational institutions have 
    letters of credit as a condition of approval for purposes of the 
    educational assistance programs of the Department of Veterans 
    Affairs, and for other purposes.

    Earlier this year, the Education Department- as well as 16 other 
stakeholder groups including a representative for military veterans - 
negotiated new regulations that would help mitigate precipitous school 
closures. We are pleased this negotiated rulemaking Committee 
unanimously agreed on regulatory language in this important area.
    Last month, postsecondary institutions received additional guidance 
on recently implemented regulations that make changes to financial 
responsibility provisions.\15\ Meanwhile, we are waiting for new 
regulations that seek to address financial responsibility and letters 
of credit.\16\
---------------------------------------------------------------------------
    \15\ Office of Postsecondary Education, Compliance with the 2016 
Borrower Defense to Repayment Regulations Questions and Answers, 
https://ifap.ed.gov/eannouncements/060319Comp2016BD2RypmtRegsQandA.html
    \16\ Federal Register (Education Department), Student Assistance 
General Provisions, Federal Perkins Loan Program, Federal Family 
Education Loan Program, and William D. Ford Federal Direct Loan 
Program, https://www.federalregister.gov/documents/2018/07/31/2018-
15823/student-assistance-general-provisions-federal-perkins-loan-
program-federal-family-education-loan
---------------------------------------------------------------------------
    We ask that this Subcommittee and Congress allow proposed 
regulations at the Department of Education to become finalized before 
acting on additional requirements that may be duplicative or exacerbate 
a problem this draft bill seeks to address-precipitous school closures. 
Consider this: If we were to require a school already at financial risk 
to secure two separate letters of credit - one with each Department - 
we may end up causing such an institution to close simply because they 
cannot obtain two letters of credit for the same institution.
    Three years ago, we offered an alternative solution to the issue of 
abrupt school closures. We convened a taskforce of leaders from our 
membership to make recommendations for Reauthorization of the Higher 
Education Act. We called upon the Department to take steps to 
prioritize keeping students in school and on a path to completion of 
their degrees. In doing so, our membership even volunteered to 
contribute $5 per student enrolled to fund expertise within the 
Department Education to manage at-risk schools up through and 
concluding with the possible transfer of ownership and management to a 
new entity with both sound finances and quality programs.\17\
---------------------------------------------------------------------------
    \17\ Career Education Colleges and Universities (CECU), CECU Offers 
Innovative Road Map to Modernize & Connect HEA to Jobs, https://
www.career.org/uploads/7/8/1/1/78110552/cecu--hea--launch--memo.pdf
---------------------------------------------------------------------------
    Think of the Federal Deposit Insurance Corporation (FDIC) model for 
banks. The FDIC identifies an institution at financial risk for 
continued operations. It then begins working with that bank and 
eventually transitions ownership from one entity to a new entity with 
little to no interruption of services for its customers.\18\ We need to 
get to this same place with colleges and universities. And it starts by 
establishing within the Department expertise that professionally work 
with schools to transition ownership and operations to protect the 
students currently enrolled in their academic programs.
---------------------------------------------------------------------------
    \18\ FDIC, When a Bank Fails - Facts for Depositors, Creditors, and 
Borrowers, https://www.fdic.gov/consumers/banking/facts/payment.html
---------------------------------------------------------------------------
    Finally, please consider the shared responsibility between members 
of the current regulatory triad and the Department of Veterans Affairs 
(VA) and be cautious not to blur those lines by imposing on any one 
entity, including the VA, responsibilities beyond their expertise and 
intended role.

Conclusion

    Thank you for inviting us to share our views with this 
Subcommittee. We welcome the opportunity to continue the conversation 
and find practical solutions to issues impacting military veterans and 
their families.

                                 <F-dash>
                        STATEMENT FOR THE RECORD

                  PARALYZED VETERANS OF AMERICA (PVA)
    Chairman Levin, Ranking Member Bilirakis, and members of the 
Subcommittee, Paralyzed Veterans of America (PVA) would like to thank 
you for the opportunity to submit our views on pending legislation 
impacting the Department of Veterans Affairs (VA) that is before the 
Subcommittee. No group of veterans understand the full scope of 
benefits and care provided by VA better than PVA's members-veterans who 
have incurred a spinal cord injury or disorder. Several of these bills 
will help to ensure veterans receive much needed aid and support. PVA 
provides comment on the following bills included in today's hearing.

H.R. 561, the ``Protecting Business Opportunities for Veterans Act of 
    2019"

    This pending legislation requires participants in the Vets First 
Program to certify that they are performing the required percentage of 
work and directs VA to refer suspected violators to the Office of the 
Inspector General for investigation. It also directs the VA Secretary 
to consider whether existing administrative and criminal penalties for 
fraudulent representation would apply in each case. PVA supports this 
effort to instill parity between veteran-owned small businesses and 
other small businesses that enter into procurement contracts with the 
Federal government.

H.R. 1615, the ``Verification Alignment and Service-Disabled Business 
    Adjustment Act''

    PVA supports this legislation which would transfer the 
responsibility of certifying Service-Disabled Veteran-Owned Small 
Businesses (SDVOSBs) and Veteran-Owned Small Businesses (VOSBs) from VA 
to the Small Business Administration (SBA). Over the past few years, 
considerable progress has been made streamlining rules and regulations 
for SBA and VA. Work still remains to rectify differences in the 
certification process between the two agencies (each one has their own) 
to eliminate confusion and ensure that contracts are only awarded to 
companies that are truly deserving of them. SBA's successful employment 
of certify.sba.gov uniquely places them in a better position to 
assimilate accreditation tasks currently being performed by VA's Center 
for Verification and Evaluation (VA CVE). Through this legislation, 
self-certification would be eliminated and the integrity of the SDVOSB 
and VOSB programs would be enhanced through the use of SBA as the sole 
certifying agency.

H.R. 2227, the ``Gold Star Spouses and Spouses of Injured 
    Servicemembers Leasing Relief Expansion Act of 2019"

    PVA believes the same protections available to widows and widowers 
through the Servicemembers Civil Relief Act (SCRA) should be provided 
to the spouses of servicemembers who sustain a catastrophic injury or 
illness. We support H.R. 2227 which extends home and automobile leasing 
protections in the SCRA, allowing the spouses of catastrophically 
injured or ill servicemembers to terminate property leases and 
automobile leases. Spouses of servicemembers who have sustained a 
catastrophic injury or illness should not have to worry about the costs 
of terminating their residential and automotive leases, but instead, be 
able to focus on the care of their disabled servicemembers.

H.R. 2924, the ``Housing for Women Veterans Act''

    VA's Supportive Services for Veteran Families (SSVF) Program awards 
grants to private nonprofit organizations and consumer cooperatives 
that provide supportive services to very low-income veteran families 
living in or transitioning to permanent housing. The Housing for Women 
Veterans Act would reauthorize funding for the SSVF grant program at 
$400 million for Fiscal Year (FY) 2020 through FY 2022 and require that 
at least $20 million goes to organizations that have a focus on helping 
women veterans and their families. H.R. 2924 also requires the VA 
Secretary to analyze existing VA programs that aid homeless or 
precariously housed women veterans to identify areas where these 
programs may be failing them.
    Women veterans are at least twice as likely as their nonveteran 
counterparts to become homeless. They are also more likely to be a 
single parent with at least one dependent. PVA supports this effort to 
sustain an extremely valuable program, along with its targeted funding 
directed toward improving services for women veterans who have 
increased risk factors for homelessness.

H.R. 2934, the ``GI Bill Access to Career Credentials Act''

    VA pays only the test costs for licensing and/or certification for 
a field of employment, or up to $2,000 for each test. Payment is issued 
after you submit proof of payment to VA. The costs of preparatory 
courses as well as registration and processing fees connected with 
obtaining a license or certification are not reimbursable.
    PVA supports H.R. 2934 which amends Title 38 to allow the use of 
educational assistance programs under Chapter 33 to pay for preparatory 
courses for licenses and certification examinations. We believe 
veterans should be allowed to use their earned education benefits to 
pay for these courses and other requirements to help them transition to 
the civilian sector and/or prepare for a new career.

Discussion Draft, the ``VA Economic Hardship Report Act''

    This draft legislation directs the VA Secretary to compile data and 
subsequently study the link between certain economic factors and 
suicide. Suicide is a complex issue with a multitude of contributing 
factors so examining known causal factors like unemployment and 
homelessness could be beneficial in reducing the rates of suicide and 
attempted suicide among veterans. We support this legislation but 
believe that veterans could be even better served if the study examined 
all known risk factors, their variance among different groups (e.g., 
disability status, age group, race, gender) and protective factors that 
could be reinforced to insulate veterans from the risk of suicide.

H.R. 716, the ``Homeless Veterans Legal Services Act''

    H.R. 716 authorizes the VA Secretary to enter into partnerships 
with public and private entities to provide legal services to homeless 
veterans and veterans at risk of homelessness so long as funds are 
available. It focuses on legal services related to housing such as 
eviction defense, foreclosure, and landlord-tenant cases; family law 
issues to include child support issues, divorce, estate planning, and 
family reconciliation; and criminal defense matters such as outstanding 
warrants, fines, and driver's license revocation.
    The lack of such legal services accounted for four of the top 10 
unmet needs for all military veterans, according to a 2018 Project 
CHALENG (Community Homelessness Assessment, Local Education and 
Networking Groups) survey by VA.\1\ Clearly the need for these services 
exist and we support this legislation but feel strongly that the 
Subcommittee should make certain funds are available by authorizing 
them for this and similar kinds of programs. Furthermore, VA should 
also support pro bono services offered by law school clinics and other 
similar entities that want to assist veterans with these services.
---------------------------------------------------------------------------
    \1\ Community Homelessness Assessment, Local Education and 
Networking Groups (CHALENG) https://www.va.gov/HOMELESS/docs/CHALENG-
2018-factsheet-508.pdf.

---------------------------------------------------------------------------
Discussion Draft, the ``Legal Services for Homeless Veterans Act''

    This proposed draft legislation compliments H.R. 716 by authorizing 
VA to provide grants or enter into cooperative agreements with 
community entities to provide legal services to veterans experiencing 
homelessness and veterans who are at risk for becoming homeless within 
appropriated funds. It further requires VA to submit a biennial report 
to Congress on the effectiveness of this program, including the number 
of veterans who were assisted and the types of services that were 
provided. Again, as indicated by VA's 2018 Project CHALENG survey, the 
need for these services are clear but we call on Congress to take the 
necessary actions to ensure proper funding for them is available if 
this legislation is approved. Also, VA should support pro bono services 
where available.

Discussion Draft, to ``Authorize the Secretary of Veterans Affairs to 
    Collect Overpayments of Specially Adapted Housing Assistance''

    This draft legislation amends section 2102 of Title 38 to require 
that whenever the Secretary finds an overpayment of specially adapted 
housing assistance has been made to a person as the result of a breach 
of contract or administrative error it should be repaid to the Federal 
government. As defined in this legislation, a person may be a veteran 
who applies for assistance; an owner or seller of real estate, a 
builder, contractor, supplier, tradesperson, corporation, partnership, 
or person related to or associated with the delivery of assistance; or 
an attorney, escrow agent, or financial institution that receives or 
holds escrow funds. It further defines a person as a surviving spouse, 
heir, assignee, or successor of interest to any of these previously 
described persons.
    We agree that it is reasonable to expect the repayment of an 
overpayment. However, neither veterans nor their surviving spouses 
should ever be held responsible for a debt caused by VA's error. This 
legislation should be amended to add a requirement that neither 
veterans nor their surviving spouses will be held liable in that 
circumstance. Furthermore, the waiver provisions in (f)(4) should be 
amended to include the veteran's surviving spouse as being eligible for 
a waiver from VA and to ensure that a waiver be granted to a veteran or 
his or her surviving spouse anytime collection of an overpayment would 
result in financial hardship.

Discussion Draft, to ``Revise Federal Revenue Limits for Proprietary 
    For-Profit Institutions''

    PVA supports this draft bill which would set limits on Federal 
funds allowed to be received by for-profit institutions. The ``90-10 
rule'' in the Higher Education Act was created by Congress as a market 
viability test to protect taxpayers from artificially propping up a 
failing college of such low quality that no employer or student would 
be willing to pay for it. The law unintentionally creates a loophole 
that excludes VA and Department of Defense (DoD) funds in the cap on 
Federal funds that colleges otherwise face. The real-world impact of 
the loophole means that for every dollar of GI Bill or DoD tuition 
assistance, schools become eligible for another $9 of Title IV funds, 
thus incentivizing some schools to target military-connected students. 
Closing this loophole is necessary to help protect servicemembers, 
veterans, and their families. Provisions in this draft legislation 
would achieve this by defining Federal funds to include payments from 
the GI Bill.
    PVA would once again like to thank the Subcommittee for the 
opportunity to submit our views on some of the legislation being 
considered today. We look forward to working with the Subcommittee on 
this legislation and would be happy to take any questions you have for 
the record.

                                 <F-dash>
            TRAGEDY ASSISTANCE PROGRAM FOR SURVIVORS (TAPS)
    The Tragedy Assistance Program for Survivors (TAPS) is the national 
nonprofit organization providing compassionate care for the families of 
America's fallen military heroes. TAPS provides peer-based emotional 
support, grief and trauma resources, grief seminars and retreats for 
adults; Good Grief Camps for children; and casework assistance, 
connections to community-based care, online and in-person support 
groups, and a 24/7 resource and information helpline for all who have 
been affected by a death in the Armed Forces. Services are provided 
free of charge.
    TAPS was founded in 1994 by Bonnie Carroll following the death of 
her husband in a military plane crash in Alaska in 1992. Since then, 
TAPS has offered comfort and care to more than 80,000 bereaved 
surviving family members. For more information, please visit TAPS.org.
    TAPS receives no government grants or funding.
    Chairman Levin, Ranking Member Bilirakis, and distinguished members 
of the House Veterans Affairs Committee Subcommittee on Economic 
Opportunity, the Tragedy Assistance Program for Survivors (TAPS) thanks 
you for the opportunity to make you aware of issues and concerns of 
importance to the families we serve, the families of the fallen.
    While the mission of TAPS is to offer comfort and support for 
surviving families, we are also committed to improving support provided 
by the Federal government through the Department of Defense (DoD), the 
Department of Veterans Affairs (VA), Department of Education (DoED), 
Department of Labor, state governments, government contractors, and 
local communities for the families of the fallen - those who fall in 
combat, those who fall from invisible wounds and those who die from 
accidents, illness or disease.
    TAPS was honored to enter into a new and expanded Memorandum of 
Agreement with the Department of Veterans Affairs in 2017. This 
agreement formalizes what has been a long-standing, informal working 
relationship between TAPS and the VA. The services provided by TAPS and 
VA are complementary, and in this public-private partnership each will 
continue to provide extraordinary services through closer 
collaboration.
    Under this agreement, TAPS continues to work with surviving 
families to identify resources available to them both within the VA and 
through private sources. TAPS will also collaborate with the VA in the 
areas of education, burial, benefits and entitlements, grief counseling 
and other areas of interest.

Draft legislation, to amend title 38, United States code, to authorize 
    State Approving Agencies to carry out outreach activities

    This legislation clarifies language in title 38 to allow State 
Approving Agencies (SAAs) to conduct outreach programs.
    The SAAs maintain a crucial role in safeguarding the GI Bill at the 
state level and ensuring that only quality programs have access to GI 
Bill funds. TAPS supports this provision as long as approving programs 
and surveys remain their primary goals. TAPS recommends conducting a 
smaller pilot program in a few states to determine if it is successful 
before allocating larger funds to outreach conducted by the SAAs.

Draft Legislation, to amend title 38 United States code to require 
    proprietary for-profit educational institutions to comply with 
    Federal revenue limits to participate in educational assistance 
    programs of the Department of Veterans Affairs

    With the massive improvements made to educational benefits under 
the GI Bill over the last 15 years between the Post 9/11 GI Bill and 
Forever GI Bill, there has been an even larger target added to the 
backs of veterans, survivors, and servicemembers due to the 90/10 
loophole.
    While closing the 90/10 loophole is a top education priority for 
TAPS, we have a lot of concerns with the draft text as written. Mostly, 
it only applies to For-Profit schools. While the bulk of the problem 
lies within the for-profit industry, there are also bad actors in other 
sectors of education. There has also been an uptick in for-profit to 
not-for-profit conversions. Most of these schools are not any better as 
not-for-profits but are converting to get around the tightened 
regulations on the for-profit industry. Schools like Grand Canyon 
University have managed to convert to a not-for-profit while still 
having their physical campus owned by a for-profit entity. Ashford 
University, dealing with extensive legal issues related to SAAs and 
approval, has applied to convert to a not-for-profit while still 
heavily targeting military-connected students to gain access to their 
GI Bill benefits. TAPS is concerned that just closing the 90/10 
loophole for the for-profit sector will only cause us to be back here 
in a few years to close it for all, after many of these schools convert 
to not-for-profits to get around the regulation.
    In addition, TAPS is concerned about the VA Committee having 
jurisdiction over this issue. The closure of the 90/10 loophole should 
reside with the Education & Workforce and HELP Committees, as it is not 
just the GI Bill that's impacted but also Tuition Assistance for active 
duty servicemembers. TAPS would prefer to see the 90/10 loophole closed 
in the Higher Education Act (HEA) reauthorization or as a stand alone 
from one of those Committees.
    TAPS recognizes making some progress on this issue is better than 
none and would support the passage of the bill if no other compromise 
on 90/10 can be made in other Committees. However, our preference would 
be a closed 90/10 loophole for all included in the HEA reauthorization.

H.R. 2227, To amend the Servicemembers Civil Relief Act (SCRA) to 
    authorize spouses of servicemembers who incur a catastrophic injury 
    or illness or die while in military service to terminate leases of 
    premises and motor vehicles, and for other purposes.

    TAPS keeps an extensive database to track the care and support we 
provide to surviving families. In researching information for this 
testimony we discovered only one case where a surviving spouse was not 
allowed to be released from a lease upon the death of her servicemember 
husband. TAPS casework assistance connected her with our pro bono legal 
partner and they were able to get her released from her lease.
    We also queried several of our government partners to see if they 
had encountered any problems with surviving spouses being held to their 
leases after the active duty death of their servicemember. They had not 
encountered any spouses who had this problem.
    That said, there may be many surviving spouses, including the 
spouse in Representative Busto's district, who encounter a reluctance 
on the part of their landlord to release them from their lease after 
the active duty death of their servicemember and may be forced to pay 
extra rent or termination fees. We applaud Representative Busto for 
providing a remedy for this undue burden during a time of grief.
    We believe that the language to amend the SCRA included in this 
proposed legislation, ``The spouse of the lessee on a lease may 
terminate the lease during the one-year period beginning on the date of 
the death of the lessee, if the lessee dies while in military service'' 
serves to codify what should already be an act of kindness and civility 
towards a recently bereaved military surviving spouse.
    The history of the Servicemembers Civil Relief Act dates back to 
the Civil War, when a moratorium was passed to suspend certain actions 
against Union soldiers and sailors. This included contract enforcement, 
bankruptcy, foreclosure and divorce proceedings. This was codified in 
the Soldiers' and Sailors' Civil Relief Act of 1918. That act expired 
after World War I, but it came back as the Soldiers' and Sailors' Civil 
Relief Act (SSCRA) of 1940.
    The Servicemembers Civil Relief Act of 2003 (SCRA), 50 USC App 
Sec. Sec. 501-596, signed into law on December 19, 2003 and amended 
December 10, 2004, completely rewrote and replaced the Soldiers' and 
Sailors' Civil Relief Act (SSCRA) of 1940. The SCRA (and previously the 
SCCRA) protects those persons who serve on active duty for the nation's 
defense, from adverse consequences to their legal rights that may 
result because of such service, so that such persons may devote their 
full attention and all their energies to the nation's defense. The SCRA 
strengthens the protections originally granted by the SSCRA, extends 
certain protection for dependents of the member on active duty, and 
creates new protections for members. The SCRA provides protection for 
members in civil court and administrative actions. It also provides 
protections for issues involving taxation, house/apartment leases, car 
leases, interest rates and insurance.
    The SCRA applies to all military members on Federal active duty. 
This includes the regular forces, Reserves and National Guard in Title 
10 active duty. The SCRA also applies to the Coast Guard and officers 
in the Public Health Service and National Oceanic and Atmospheric 
Administration (NOAA) in support of the Armed Forces. In limited 
circumstances (i.e., evictions, joint leases), the SCRA may apply to 
dependents of the military member. In November 2009, President Obama 
signed into law the Military Spouses Residency Relief Act (MSRRA) which 
amends the SCRA to provide additional protections to spouses of 
servicemembers relating to residency, taxes, and voting rights. The 
SCRA applies to all 50 states of the United States and to all 
territories (i.e., Puerto Rico, U.S. Virgin Islands, Guam and the 
Marianas Islands) subject to U.S. jurisdiction.
    Under the terms of the SCRA, a servicemember may terminate a lease 
earlier than the date named in the lease, if the servicemember gives 
proper notice and is terminating the lease due to a permanent change of 
station (PCS) move or a deployment. The lease must be signed by the 
servicemember or on behalf of the servicemember (by the use of a power 
of attorney). The protection is extended to the dependent spouse if he/
she needs to terminate the lease during the servicemember's deployment 
or PCS. If a spouse enters into a lease on their own name, without the 
servicemember, the SCRA does not apply.
    TAPS supports the legislation as written.

Draft Text, To amend title 38, United States Code, to provide for a 
    requirement relating to the timing of the payment of educational 
    assistance under the Post 9/11 Educational Assistance Program of 
    the Department of Veterans Affairs, and for other purposes.

    Many surviving family members have been negatively impacted due to 
overpayments from the VA relating to educational expenses. TAPS 
supports the legislation to amend the payment dates and thinks this is 
a much needed fix to a long-term problem.

Draft text, To direct the Secretary of Veterans Affairs to study the 
    link between certain economic factors and veteran suicides.

    The largest number of survivors coming to TAPS over the last 5 
years have been to suicide loss. Of the 85,000 surviving family members 
TAPS supports, 15,000 of them lost a loved one to suicide. With an 
estimated 20 veterans dying by suicide a day, it is crucial that we do 
research into the factors that impact suicide and fully acknowledge 
that economic factors could play a role in it.
    TAPS is hopeful that the proposed study could help identify key 
factors that VA and DoD could use to prevent future suicides. TAPS 
adamantly supports the proposed legislation. We believe the more 
information we have the more we can do to prevent future suicides.

Draft Text, to amend title 38, United States Code, to require that 
    educational institutions abide by Principles of Excellence as a 
    condition of approval for purposes of the educational assistance 
    programs of the Department of Veterans Affairs, and for other 
    purposes.

    TAPS supports the Principles of Excellence (POE) as a program, but 
we do not support the draft legislation. We feel it does very little to 
actually provide any protection for students. We have seen top tier 
schools opt not to participate in POE, while mid to lower level schools 
chose to participate in the program. There is a lot we can do to 
further student protections for those using GI Bill benefits, such as 
closing the 90/10 loophole, monitoring for-profit to not-for-profit 
conversions, preventing schools from accessing GI Bill if less than a 
certain percentage of funds goes towards education, and taking away 
access to GI Bill for any school facing Federal or state penalties for 
violating current laws. We do not think forcing the Principles of 
Excellence on schools eligible for GI Bill benefits will be useful. We 
also worry that it will discourage top tier universities from wanting 
to participate in GI Bill programs in the future.

Draft Text, to amend title 38, United States Code, to require that 
    certain educational institutions have letters of credit as a 
    condition of approval for purposes of the educational assistance 
    programs of the Department of Veterans Affairs and for other 
    purposes.

    TAPS applauds the Committee for this proposal. Mandating a letter 
of credit could go a long way in protecting military connected students 
in case a school closes and ensuring that the school is held liable if 
it closes. TAPS also thinks this will help weed out some of the schools 
that do not have good outcome measures and will help ensure that only 
quality programs have access to GI Bill funding. TAPS adamantly 
supports this measure.

Draft Text, to amend title 38, United States Code, to make certain 
    improvements in the educational assistance programs of the 
    Department of Veterans Affairs and for other purposes, Student 
    Veteran Empowerment Act of 2019.

    TAPS was grateful to the Committee for the restoration of benefits 
included under the Forever GI Bill in order to restore benefits of 
those impacted by the closures of ITT Tech and Corinthian Colleges. We 
were dismayed that it only covered that time period, but understood it 
was cost prohibitive to make it permanent at that time. With several 
other school closures since then, we are excited to see that the 
Committee is reconsidering making the restoration of benefits permanent 
and aligning it with the Department of Education's rules for Pell 
Grants and Federal student loans. TAPS fully supports this proposal.
    TAPS thanks you for the opportunity to provide this statement for 
the record in support of this important legislation.

                                 <F-dash>
                              SVA GRAPHICS

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
